<html>
<title> - THE NATIONAL SECURITY IMPLICATIONS OF THE STRATEGIC OFFENSIVE REDUCTIONS TREATY</title>
<body><pre>[Senate Hearing 107-806]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-806

     THE NATIONAL SECURITY IMPLICATIONS OF THE STRATEGIC OFFENSIVE 
                           REDUCTIONS TREATY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                       JULY 25 AND AUGUST 1, 2002

                               __________

         Printed for the use of the Committee on Armed Services





                         U.S. GOVERNMENT PRINTING OFFICE
83-759 PDF                       WASHINGTON : 2003
-----------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001







                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director
              Judith A. Ansley, Republican Staff Director

                                  (ii)

  




                           C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

     The National Security Implications of the Strategic Offensive 
                           Reductions Treaty

                             july 25, 2002

                                                                   Page

Rumsfeld, Hon. Donald H., Secretary of Defense...................     7
Myers, Gen. Richard B., USAF, Chairman, Joint Chiefs of Staff....    19

     The National Security Implications of the Strategic Offensive 
                           Reductions Treaty

                             august 1, 2002

Curtis, Charles B., President and Chief Operating Officer, 
  Nuclear Threat Initiative......................................    52
Carter, Dr. Ashton B., Ford Foundation Professor of Science and 
  International Affairs, John F. Kennedy School of Government, 
  Harvard University.............................................    60
Ellis, Adm. James O., Jr., USN, Commander in Chief, United States 
  Strategic Command..............................................    87
Beckner, Dr. Everet H., Deputy Administrator for Defense 
  Programs, National Nuclear Security Administration.............    91

                                 (iii)

 
     THE NATIONAL SECURITY IMPLICATIONS OF THE STRATEGIC OFFENSIVE 
                           REDUCTIONS TREATY

                              ----------                              


                        THURSDAY, JULY 25, 2002

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Akaka, Bill 
Nelson, E. Benjamin Nelson, Warner, Inhofe, Allard, and 
Sessions.
    Committee staff members present: David S. Lyles, staff 
director; and Christine E. Cowart, chief clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Kenneth M. Crosswait, professional staff member; 
Evelyn N. Farkas, professional staff member; Richard W. 
Fieldhouse, professional staff member; Maren Leed, professional 
staff member; Michael J. McCord, professional staff member; and 
Arun A. Seraphin, professional staff member.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; L. David Cherington, minority 
counsel; Brian R. Green, professional staff member; Mary Alice 
A. Hayward, professional staff member; Ambrose R. Hock, 
professional staff member; George W. Lauffer, professional 
staff member; Patricia L. Lewis, professional staff member; 
Thomas L. MacKenzie, professional staff member; and Scott W. 
Stucky, minority counsel.
    Staff assistants present: Dara R. Alpert, Daniel K. 
Goldsmith, Andrew Kent, Thomas C. Moore, and Nicholas W. West.
    Committee members' assistants present: Brady King, 
assistant to Senator Kennedy; B.G. Wright, assistant to Senator 
Byrd; Andrew Vanlandingham, assistant to Senator Cleland; 
Elizabeth King, assistant to Senator Reed; Davelyn Noelani 
Kalipi and Richard Kessler, assistants to Senator Akaka; Peter 
A. Contostavlos and Dan Shapiro, assistants to Senator Bill 
Nelson; Eric Pierce, assistant to Senator Ben Nelson; Benjamin 
L. Cassidy, assistant to Senator Warner; John A. Bonsell, 
assistant to Senator Inhofe; George M. Bernier III, assistant 
to Senator Santorum; Robert Alan McCurry, assistant to Senator 
Roberts; Douglas Flanders, assistant to Senator Allard; Michele 
A. Traficante, assistant to Senator Hutchinson; Arch Galloway 
II, assistant to Senator Sessions; and Kristine Fauser, 
assistant to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The Armed Services 
Committee meets this morning to consider the national security 
implications of the Strategic Offensive Reductions Treaty which 
was signed between the United States and Russia on May 24. The 
President sent the treaty to the Senate for its consideration 
on June 20 and is seeking the Senate's advice and consent to 
ratification of the treaty.
    We are pleased today to have with us Secretary of Defense 
Donald Rumsfeld and General Richard Myers, the Chairman of the 
Joint Chiefs of Staff. They have both been involved in the 
formulation of this treaty and in the thinking on U.S. nuclear 
force structure that led to the level of nuclear forces that 
are specified in the treaty.
    I want to welcome you both back to our committee. I see you 
are making really good progress in terms of your operation, Mr. 
Secretary. We are delighted to see that. You have a new cast--
not a new cast of characters; it looks like the old cast of 
characters here--but at least a new cast on your arm, and we 
hope things are going well for you.
    Secretary Rumsfeld. Thank you very much.
    Chairman Levin. The Armed Services Committee has 
traditionally held hearings on the military implications of 
arms control treaties over the last few decades and provided 
its views and recommendations to the Foreign Relations 
Committee before that committee marks up a resolution of 
ratification and reports to the full Senate.
    While this committee does not have the leading role in 
treaty consideration, we do have an important supporting role 
to fulfill. This committee has held over 50 hearings on nine 
arms control treaties since the early 1970s, focusing 
particularly on the military or national security implications 
of proposed treaties, matters that fall within this committee's 
jurisdiction.
    Our committee plans to hold two hearings on this treaty. In 
addition to today's hearing, we will hold a second hearing on 
August 1st to hear from the Commander in Chief of U.S. 
Strategic Command and from the National Nuclear Security 
Administration, and we will also hear from some outside 
experts.
    I believe that the Strategic Offensive Reductions Treaty, 
or ``SORT'' for short, is a positive step forward in U.S.-
Russian relations. I think it is particularly important to have 
a treaty that is legally binding rather than a unilateral step 
that is not binding on future administrations or, of course, on 
the other party to the treaty. That also ensures that the 
Senate fulfills its constitutional role in giving due 
consideration of any treaty and providing advice and consent 
before ratification.
    I see this treaty as another positive step toward further 
arms control and an important boost to our new relationship 
with Russia. But there is much more work to be done to continue 
improving mutual security with Russia, work that includes 
further reducing our reliance on nuclear weapons, reducing 
nuclear proliferation dangers, and improving confidence, 
transparency, and cooperation with Russia.
    I hope today's hearing will help us understand: what this 
treaty is and what it is not; how the administration plans to 
implement the treaty; how the treaty fits into our overall 
security context; how the administration is thinking about our 
nuclear forces; and what additional steps we can and should 
take to further improve our security.
    The treaty is certainly somewhat unusual. Its central 
obligation is that both nations will reduce their operationally 
deployed strategic nuclear warheads to a level between 1,700 
and 2,200 some 10 years from now, apparently just for the 1 day 
at that moment when the treaty then expires. Contrary to 
numerous media reports, the treaty does not require reductions 
in nuclear warheads stockpiles. It does not require elimination 
of warheads. Under this treaty both sides must simply remove 
warheads from land-based or submarine-based missiles and from 
bombers.
    Both sides are then free to keep every warhead so removed 
and to store these warheads for possible redeployment. The only 
limitations that will bind the United States and Russia are the 
limitations on delivery systems under START I, at least until 
2009. After 2009, when the START I treaty expires, it is not 
clear what will happen.
    The importance of this treaty is not so much what it does 
or does not do, but rather the possibilities that it may hold 
for the future. It is one step in a continual process of 
improving the U.S.-Russia relationship and improving U.S. 
security.
    My focus is going to be on what it leads to for U.S. and 
Russian nuclear weapons policy. Can this treaty provide an 
opportunity for the United States to make real reductions in 
nuclear weapons, not just the number of weapons deployed but 
the total number of nuclear weapons? Can this treaty provide an 
opportunity for the United States to rethink its nuclear 
weapons employment policy so that nuclear weapons are seen as 
weapons of last resort?
    Can this treaty provide an opportunity to establish new 
multilateral approaches to dealing with and reducing weapons of 
mass destruction? Can this treaty be monitored or verified 
effectively by either party, or is that not as important as it 
used to be? Can this treaty provide an opportunity to improve 
the lagging efforts to secure and destroy Russian chemical 
weapons, biological materials, and excess strategic nuclear 
weapons materials and delivery systems?
    Can this treaty provide an opportunity to help Russia 
account for and destroy in the near future its large number of 
excess tactical nuclear weapons?
    Let me now turn to Senator Warner for any opening statement 
that he may have.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. Again I commend 
you for calling this hearing because, as you said, our 
committee has had a long history and played an important role 
in those treaties of our Nation which directly affect our 
national security. We look forward to the testimony from the 
distinguished Secretary and Chairman.
    Throughout its history, our committee has played a critical 
role in assessing the national security impact and military 
implications of arms control agreements negotiated by the 
Executive Branch. It is right and proper for our committee to 
once again be a key player as the Senate carries out its 
constitutional responsibility of advice and consent to the 
Moscow Treaty.
    The Moscow Treaty in my judgment is the right agreement at 
the right time, and I commend the President and all those who 
worked with him to achieve this goal. It is a remarkable 
document, both in the strength of its content and in its 
departure--and I underline the word ``departure''--from the 
commonly accepted strategic thinking and arms control wisdom 
that prevailed during the Cold War era. This breakthrough 
treaty, negotiated in a period of just several months, will 
reduce nuclear arsenals from the present levels of about 6,000 
strategic warheads to 1,700 to 2,200 operational strategic 
warheads over the next decade.
    This reduction, which amounts to about two-thirds of the 
warheads in the Russian and U.S. arsenals, is the most dramatic 
in strategic weapons history and in the history of arms control 
agreements.
    This treaty is also important in that it is the embodiment 
of a new relationship between the United States of America and 
Russia. President Bush and his administration again are to be 
commended for these outstanding achievements.
    This treaty is fully consistent with the policy goals that 
President Bush laid out after he took office. In a landmark 
speech at the National Defense University in May 2001, 
President Bush called for a new strategic relationship with 
Russia. I quote:
    ``Today's Russia is not yesterday's Soviet Union. This new 
cooperative relationship should look to the future, not to the 
past. It should be reassuring, rather than threatening. It 
should be premised on openness and mutual confidence and real 
opportunities for cooperation. I want to complete the work of 
changing our relationship from one based on a nuclear balance 
of terror to one based on common responsibilities and common 
interests.''
    President Bush has engaged President Putin on a regular and 
intensive basis to move the Russian-American relationship 
beyond the Cold War hostility to a relationship built on 
openness, shared goals, and shared responsibility. I find that 
prevalent throughout this treaty. The treaty we consider today, 
therefore, is one measure of President Bush's extraordinary 
success in building this new relationship.
    Last December President Bush announced the intent to 
withdraw from the 1972 Anti-Ballistic Missile (ABM) Treaty and 
restated his determination to dramatically reduce the U.S. 
nuclear arsenal. The ABM Treaty in many technical ways limited 
the options by which we could achieve our defenses, as well as 
in the minds of many placed a limitation on this country to in 
effect defend itself against incoming ballistic missiles. It 
did serve a constructive role during the Cold War period, but 
its mission has ended. It really had to be a part of the demise 
of the Soviet Union and the end of the Cold War.
    I commend the President for his initiatives, for many 
critics at the time believed that renewed hostility and a 
renewed arms race with Russia could ensue if the U.S. exercised 
its right, a right set forth clearly in that treaty, to 
withdraw. Yet the opposite has happened. On December 13, 2001, 
the same day that President Bush notified the Russian 
Government of his intention to withdraw from the ABM Treaty and 
dramatically reduce U.S. strategic nuclear forces, Russian 
President Putin reciprocated by stating his intent to similarly 
reduce Russian strategic nuclear arsenals.
    President Putin urged that the U.S. and Russian strategic 
reductions be formalized in a legally binding agreement. This 
year on May 24, at the summit in Moscow, President Bush and 
President Putin signed this landmark agreement that is the 
subject of our hearing today and the subject before the Senate 
for ratification.
    I firmly believe that the President chose wisely when he 
agreed to put these reductions in the form of a legally binding 
treaty. This assures that the agreement will survive the 
personal relationship between these two presidents and that it 
has the weight of law behind it.
    Yet this treaty is not like any that we have seen before. 
It is the first arms control treaty to embody the post-Cold War 
U.S.-Russian relationship. In negotiating this treaty, both 
sides consciously rejected the Cold War mentality of distrust 
and hostility that previously had required lengthy negotiations 
and extensive legal structure and detailed verification regimes 
to assure that both sides would abide by their obligations.
    How many times, Mr. Chairman, did you and I and other 
colleagues travel to Geneva and elsewhere in the world to watch 
the slow progress of previous negotiations on arms control 
agreements? I remember these trips so well.
    Consequently, the Moscow Treaty lacks many of the features 
of past bilateral arms control agreements, most of which were 
signed by the United States and the Soviet Union. The treaty 
does not establish interim warhead reduction goals or a 
detailed schedule to achieve warhead reductions. It does not 
define warhead ``counting rules,'' require destruction of 
strategic nuclear delivery vehicles or launchers, or include 
limits or sub-limits on strategic nuclear delivery vehicles or 
launchers.
    But there is an important way in which the Moscow Treaty is 
similar to prior strategic arms control agreements. No arms 
control treaty has ever required the destruction of nuclear 
warheads. There are a number of important reasons for this, 
which I expect we will explore in detail today in this hearing.
    Some may argue that the simplicity of the Moscow Treaty is 
a weakness. I respectfully disagree. I believe that the 
simplicity of the treaty is its strength. This simplicity puts 
the focus on the key element of any strategic arms control 
agreement--deep reductions to strategic nuclear warheads. The 
simplicity of the treaty allowed Russia and the U.S. to reach 
an early agreement, avoiding the long, complex, arduous 
negotiations characteristic of the Cold War era.
    This simplicity allows both the U.S. and Russia the 
flexibility within the numeric limits set by the treaty to 
structure their forces consistent with each nation's security 
requirements and to adapt to changes in the international 
security environment. This flexibility is an essential feature 
of U.S. policy in an era when strategic and tactical surprise 
seem to be the only constant.
    Yet I find that the doctrine ``Trust, But Verify,'' 
authored by Ronald Reagan, our former President, is quietly 
present in the structures and foundations of this treaty. As 
unique as the Moscow Treaty is, it also reflects the success 
and the heritage of past arms control agreements. It is a 
legally binding document. In order to achieve the required 
reductions, nuclear warheads must be physically removed from 
the launch platforms and otherwise rendered so that they cannot 
be part of the operational structure for any near-term military 
contingencies.
    The treaty provides the mechanisms and atmosphere to assure 
the compliance with its provisions and resolution of future 
issues related to treaty implementation. The terms of the 
Moscow Treaty, which recognize that the START I Treaty 
verification regime remains in force and which establish a 
Bilateral Implementation Commission, provide the basis for the 
predictability, transparency, and confidence needed to assure 
that both sides achieve the required reductions.
    Some colleagues have raised concerns about the treaty, and 
each of these concerns deserves full consideration. But I 
remind my colleagues that many of these concerns must be 
balanced against the reality that we are here after only 5 
months of negotiations considering a treaty that reduces the 
U.S. and Russian strategic arsenals by approximately two-
thirds--a major accomplishment.
    Following a full examination of the treaty, I believe that 
the Senate will promptly render its advice and consent to the 
Moscow Treaty. This treaty in my view clearly advances the 
national security interests of the United States, indeed the 
interests of the world, and deserves the strongest of support 
by the United States Senate. I ask that the statements of 
Senators Thurmond and Santorum be placed in the record at this 
time.
    Thank you, Mr. Chairman.
    [The prepared statements of Senator Thurmond and Senator 
Santorum follow:]
              Prepared Statement by Senator Strom Thurmond
    Mr. Chairman, the Legislative Reorganization Act of 1946 
established the Committee on Armed Services and directed among other 
issues that ``such committee shall also study and review, on a 
comprehensive basis, matters relating to the common defense policy of 
the United States . . .'' Today's hearing on the Strategic Offensive 
Reduction Treaty, commonly known as the Moscow Treaty, is a reflection 
of the mandate to review matters relating to the common defense policy. 
I congratulate you and Senator Warner, our ranking member, for 
scheduling this and the subsequent hearing on this important and 
revolutionary treaty. I expect that the committee's report on the 
treaty and its implications will be an important factor as the Senate 
considers the ratification of the treaty.
    Mr. Chairman, in his opening statement before the Senate Foreign 
Relations Committee, Secretary of State Colin Powell stated: ``The 
Moscow Treaty marks a new era in the relationship between the United 
States and Russia. It codifies both countries' commitment to make deep 
strategic offensive reductions in a flexible and legally binding 
manner. It facilitates the transition from strategic rivalry to a 
genuine strategic partnership based on the principles of mutual 
security, trust, openness, cooperation, and predictability.'' For those 
of us who lived through the Cold War, the words ``strategic partnership 
based on the principles of mutual security, trust, openness, 
cooperation, and predictability'' automatically cause concern. However, 
they represent the new world we live in. Russia is no longer our 
archenemy; it is a partner in our efforts to achieve peace throughout 
the globe and rid the world of the treat of terrorism. This partnership 
is based on trust, openness, cooperation, and predictability.
    I applaud President Bush for his aggressive approach toward 
fostering this new relationship with Russia. The Moscow Treaty is a 
prime example of this new philosophy. Not only does it call for the 
reduction in strategic nuclear warheads from more than 6,000 to 
approximately 2,000, but it also takes the approach that these 
reductions will be made based on trust and cooperation rather than the 
historic frameworks of prior treaties. In my judgement, this treaty is 
consistent with our national security interests as outlined in the 2002 
Nuclear Posture Review. It also ensures that the United States 
maintains its flexibility to retain warheads in storage for future use 
to upgrade and maintain the operational stockpile. While some criticize 
the lack of a requirement to destory warheads, I believe it is a 
sensible step to protect our strategic nuclear capability. Unlike 
Russia, the United States is not able to build new warheads and must 
rely on existing warheads to replace aging and unusable weapons.
    Mr. Chairman, I look forward to the testimony of our distinguished 
panel. Secretary Rumsfeld and General Myers have never shirked from 
telling it as it is. I expect that their testimony today will be 
forthright and based on their best professional judgement.
                                 ______
                                 
              Prepared Statement by Senator Rick Santorum
    Chairman Levin and Senator Warner, thank you for scheduling this 
important hearing. Secretary Rumsfeld and General Myers, thank you both 
for making yourselves available to offer testimony at this morning's 
hearing.
    The Strategic Offensive Reductions Treaty will reduce U.S. and 
Russian strategic nuclear weapons from approximately 6,000 weapons to 
1,700-2,200 weapons by 2012. This agreement represents the largest 
strategic nuclear arms reduction ever negotiated between the U.S. and 
Russia.
    It is difficult to imagine a better representative example of how 
relations have changed between the United States and Russia than this 
treaty. The Strategic Offensive Reductions Treaty--also known as the 
Moscow Treaty--reflects the historic shift that has taken place 
following the end of the Cold War, and it highlights the strong 
relationship and trust that exists between Presidents Bush and Putin.
    Missing from the Moscow Treaty is the distrust underlying previous 
U.S.-Soviet Union arms control agreements. This new level of trust 
between the U.S. and Russia allowed the treaty to be negotiated in a 
period of months--not years--and, at the same time, achieve historic 
reductions in strategic nuclear weapons. Because this treaty was 
negotiated under a new U.S.-Russian paradigm of cooperation and trust, 
missing are the long and detailed verification and accounting rules 
that have been part of previous arms control treaties.
    The reductions specified in the treaty, roughly a two-thirds 
reduction in the level of strategic nuclear weapons, are indeed 
historic. While some on the other side will express dissatisfaction 
that nuclear warheads will not be destroyed under the Moscow Treaty, it 
is worth noting that no strategic arms control treaty has ever required 
dismantlement of nuclear warheads. The warheads that the U.S. will 
retain in storage are a strategic hedge against the rise of a hostile 
nuclear power and they will provide a strategic reserve for our aging 
nuclear weapons strockpile.
    As for the issue of tactical nuclear weapons, while the treaty does 
not address these weapons, U.S. negotiators did raise this issue with 
their Russian counterparts during Moscow Treaty negotiations. 
Interestingly enough, the Russian delegation would not address limits 
on tactical nuclear weapons during the negotiations.
    Mr. Chairman, I believe the Moscow Treaty is a sound treaty that 
reflects the progress, cooperation and trust that exists between the 
U.S. and Russia. This is a treaty that is consistent with U.S. nuclear 
doctrine contained in the recent Nuclear Posture Review, and it 
provides a legal framework for substantial strategic nuclear arms 
reductions.

    Chairman Levin. Thank you very much, Senator Warner.
    Secretary Rumsfeld.

   STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF DEFENSE

    Secretary Rumsfeld. Thank you very much, Mr. Chairman, 
members of the committee. I am pleased to be here with the 
Chairman of the Joint Chiefs, General Dick Myers, and we thank 
you for this opportunity to discuss the Moscow Treaty.
    Senator Warner, as you indicated, President Bush has been 
determined from the outset of his administration to place the 
U.S.-Russia relationship on a new footing. Certainly Secretary 
Powell, Under Secretary of State John Bolton, and Under 
Secretary of Defense Doug Feith have all worked closely to help 
achieve this treaty.
    I would like to abbreviate my prepared remarks, Mr. 
Chairman, to cover some of the questions that have been posed 
and have the entire statement included in the record.
    Chairman Levin. It will be made part of the record.
    Secretary Rumsfeld. I also would point out that there have 
been naysayers that have insisted that establishing this new 
relationship between the United States and Russia would be not 
possible or at least extremely difficult. They looked at the 
agenda of the President's promise to withdraw from the ABM 
Treaty, his desire to build defenses to protect the U.S., our 
friends and allies from ballistic missile attack, his 
determination to strengthen the NATO alliance by making new 
allies of old adversaries, and predicted that the U.S. and 
Russia were on a bumpy, if not collision, course.
    What a difference a year makes. Today the U.S.-Russian 
relationship is stronger than perhaps at any time in the 
history of our two countries. In a little over a year, the 
President has defied the critics and set in motion a 
transformation of the U.S.-Russian relationship, one that we 
believe is designed to benefit the people of both our nations 
and indeed the entire world.
    The United States and Russia are working together to 
develop new avenues of trade and economic cooperation. We are 
working together to fight terrorism and to reduce the number of 
deployed offensive nuclear weapons, weapons that are a legacy 
of the past and which are no longer needed at a time when 
Russia and the United States are basing our relationship on 
cooperation rather than fear of mutual annihilation.
    Of course, there is still a good deal of work ahead and 
challenges to overcome. But we do have an opportunity to build 
a new relationship for our peoples, a relationship that can 
contribute to peace, stability, and prosperity for generations 
of Russians and Americans.
    But let there be no doubt. It will require a change in our 
thinking, thinking in our bureaucracies, in the Duma, in 
Congress, in the press, and in academic institutions. We seem 
to have decades of momentum going in the opposite direction. 
Habits built up over so many decades become ingrained and are 
hard to break.
    Here in the U.S., there are those who would have preferred 
to see us continue the adversarial arms control negotiations of 
the Soviet era, where teams of lawyers drafted hundreds of 
pages of treaty text and each side worked to gain the upper 
hand, while focusing on ways to preserve a balance of nuclear 
terror.
    Similarly, in Russia today there are those who are stuck in 
the past, who look warily at the U.S. offers of greater 
friendship and cooperation, preferring to keep us at arm's 
length while continuing to associate with the old allies of the 
former Soviet Union.
    Russia and the United States entered this new century 
saddled with two legacies of the Cold War, the adversarial 
relationship to which we had both grown accustomed and the 
physical manifestation of that adversarial relationship, the 
massive arsenals of weapons that we built up. In the past year 
we have made progress in dealing with both.
    Last November at the Crawford Summit, President Bush 
announced his intention to reduce the United States' 
operationally deployed strategic nuclear warheads by some two-
thirds, to between 1,700 and 2,200 weapons. Soon thereafter, 
President Putin made a similar commitment. These announced 
reductions are a reflection of that new relationship.
    But what is remarkable is not simply the fact of these 
planned reductions, but how they have happened. After a careful 
review, President Bush simply announced his intention to cut 
our operationally deployed nuclear warheads. President Putin 
did the same. When they met in Moscow, they recorded these 
unilaterally, announced changes in a treaty that will survive 
their two presidencies, the Moscow Treaty which the Senate and 
the Duma are now considering.
    But it is significant that, while we consulted closely and 
engaged in a process that had been open and transparent, we did 
not engage in lengthy, adversarial negotiations in which the 
U.S. and Russia would keep thousands of weapons we did not need 
as bargaining chips. We did not establish standing negotiating 
teams in Geneva, with armies of arms control aficionados ready 
to do battle over every colon and every comma.
    If we had done so, we would still be negotiating today. 
Instead, we are moving directly toward dramatic reductions in 
the ready nuclear weapons of our two countries and clearing the 
way for a new relationship between our countries.
    An illustration of how far we have come is this. This 
[indicating] is the START Treaty. It is enormous. It was signed 
in 1991 by the first President Bush and Soviet President 
Mikhail Gorbachev. It is 700 pages long and it took 9 years to 
negotiate. This [indicating] is the Moscow Treaty as concluded 
by President Bush and President Putin. It is three pages long 
and it took 5 or 6 months to negotiate.
    Mr. Chairman, we are working toward the day when the 
relationship between our two countries is such that no arms 
control treaties will be necessary. That is how normal 
countries deal with each other. The United States and Britain 
both have nuclear weapons, yet we do not spend hundreds of 
hours negotiating the fine details of mutual reductions in our 
offensive weapons. We do not feel the need to preserve any 
balance of terror between us. It would be a worthy goal for our 
relationship with Russia to evolve along that path.
    We would have made these cuts regardless of what Russia did 
with its arsenal. We are making them not because we signed the 
treaty, but because the transformation in our relationship with 
Russia means that we do not need as many deployed weapons as we 
once needed. Russia has made a similar calculation, and the 
agreement we reached in Moscow is the result of those 
determinations, not the cause of them.
    That is also one reason why we saw no need to include 
detailed verification measures in the treaty. There simply is 
not any way on Earth to verify what Russia is doing with all of 
those warheads. Neither side should have an interest in evading 
the terms of the treaty since it codifies unilaterally-
announced reductions and gives both sides broad flexibility in 
implementing those reductions.
    Similarly flawed is the complaint that, because the Moscow 
Treaty does not contain a requirement to destroy warheads 
removed from missiles or bombers, that the cuts are somehow 
reversible and therefore not real. Put aside for the moment 
that no previous arms control treaty, not SALT, not START, not 
the INF, ever required the destruction of warheads, and no one 
offered objections to them on that basis.
    This charge is based, I believe, on a flawed premise, that 
irreversible reductions in nuclear weapons are possible. In 
point of fact, I do not believe there is any such thing as 
irreversible reduction in nuclear weapons. The knowledge of how 
to build nuclear weapons exists in the world. There is no 
possibility at all that that knowledge will be lost. Every 
reduction is therefore reversible, given time and given money.
    Indeed, when it comes to building nuclear weapons, Russia 
has a distinct advantage over the United States. Today Russia 
can and does produce both nuclear weapons and strategic nuclear 
delivery vehicles. They have an open, warm production line for 
each. The U.S. does not currently produce nuclear warheads. The 
reason to keep rather than destroy some of those nuclear 
warheads is to have them available in the event there is a 
problem with the safety or reliability of some element of our 
arsenal.
    If we had pursued the path of traditional arms control as 
some have suggested, we would not be proceeding with the 
reductions outlined in this treaty. Rather, we would still be 
at the negotiating table arguing over how to reconcile these 
and other asymmetries between the United States and Russia. 
Russia might, for example, have insisted that any agreement 
take into account the size of the U.S. economy and our ability 
to mobilize resources to develop new production facilities.
    We might have argued, conversely, that Russia's proximity 
to rogue nations allows them to deter these regimes with 
tactical systems, whereas, because they are many thousands of 
miles away from us, the U.S. distance from them requires more 
intercontinental systems than Russia needs. This could have 
resulted in a mind-numbing debate over how many non-strategic 
systems should equal an intercontinental system or open the 
door to a discussion of whether an agreement must include all 
nuclear warheads, including tactical nuclear warheads, and so 
on and so forth ad infinitum.
    The approach we have taken is to treat Russia not as an 
adversary, but as a friendly power. With the recently completed 
nuclear posture review, the U.S. has declared that we are not 
interested in preserving a balance of terror with Russia. As 
our adversaries change, our deterrence calculus can and should 
change as well.
    That is why we are working to transform our nuclear posture 
from one that was aimed at deterring the Soviet Union that no 
longer exists to one designed to deter new adversaries, 
adversaries that may not be discouraged from attacking us by 
the threat of nuclear retaliation, just as the terrorists who 
struck us on September 11 were certainly not deterred by the 
massive U.S. nuclear arsenal.
    Some have asked why in the post-Cold War world we need to 
maintain as many as 1,700 to 2,200 operationally deployed 
warheads. The U.S. nuclear arsenal remains an important part of 
our strategy and it helps to dissuade the emergence of 
potential or would-be peer competitors by underscoring the 
futility of trying to sprint toward parity with us or, indeed, 
superiority. I would add that it also assures our friends and 
allies that our capability is sufficient, and in some instances 
nations that have the ability to develop nuclear weapons, 
because they are our friends and allies, recognize they have no 
need to do so.
    Indeed, Mr. Chairman, our decision to proceed with 
reductions as deep as the ones outlined in the Moscow Treaty is 
premised on decisions to invest in a number of other critical 
areas, programs that are funded and recommended in our 2003 
budget. These include investments to improve U.S. intelligence 
collection, analysis, processing, and dissemination, to protect 
the U.S. homeland, including a refocused, revitalized missile 
defense research and testing program, and capabilities to 
detect and respond to biological attack, accelerate development 
of unmanned aerial vehicles (UAVs) with new combat 
capabilities, and produce fast, precision conventional strike 
capabilities, convert four Trident nuclear submarines into 
stealthy SSGN strike submarines that can carry cruise missiles 
and special operations forces in denied areas, leverage 
information technology to seamlessly connect U.S. forces in the 
air, at sea, and on the ground, protect our information 
networks, improve the survivability of U.S. space systems, and 
develop a space infrastructure that assures persistent 
surveillance and access.
    Investments in these and many other transformational 
capabilities in the 2003 budget should allow the U.S. over time 
to reduce our reliance on nuclear weapons and enact the deep 
nuclear reductions contained in the treaty.
    Others have asked why there is no reduction schedule in the 
treaty. The answer quite simply is flexibility. Our approach in 
the Nuclear Posture Review was to recognize that we are 
entering a period of surprise and uncertainty, when the sudden 
emergence of unexpected threats will be an increasingly common 
feature of our security environment.
    We were surprised on September 11, and let there be no 
doubt we will have surprises in the future. Intelligence, 
despite the efforts and despite how good we are at it, has 
repeatedly underestimated the capabilities of different 
countries of concern to us. We have historically had gaps in 
our knowledge of as much as 4, 6, 8, 10, 12, in one case 13 
years where something occurred in a major country with respect 
to weapons of mass destruction that we did not know about until 
many years later.
    The only surprise is that so many among us are still 
surprised. The problem is more acute in an age when the spread 
of weapons of mass destruction into the hands of terrorist 
states and potentially terrorist networks means that our margin 
for error is significantly less than it has been. The cost of a 
mistake could be not thousands of our innocent men, women, and 
children, but hundreds of thousands of lives or even millions.
    Because of our smaller margin for error and the uncertainty 
of the future security environment, the U.S. will need 
flexibility. This new approach to deterrence will help us to 
better contribute to peace and stability and address the new 
threats and challenges that we will face in the 21st century.
    We have entered a period when cooperation between our 
countries will be increasingly important to the security and 
prosperity of both our peoples. We can work together to stop 
the spread of weapons of mass destruction into the hands of 
terrorist movements and terrorist states. We can work together 
to try to support Russia's economic transformation and deeper 
integration into the Euro-Atlantic community. This treaty is 
merely one element of a growing multi-faceted relationship 
between our two countries that involves not just security, but 
also increasing political, economic, diplomatic, cultural, and 
other forms of cooperation.
    The reductions characterized in this treaty will help 
eliminate the debris of past hostility that has been blocking 
our way as we build a new relationship. The treaty President 
Bush has fashioned and the process by which he fashioned it, I 
believe, are both models for future cooperation between our two 
countries. We have achieved deep reductions and enhanced the 
security of both our countries without perpetuating Cold War 
ways of thinking that hinder a desire for better relations.
    Mr. Chairman, I urge that the Senate advise and consent to 
this treaty and approve a clean resolution of ratification. 
Thank you very much.
    [The prepared statement of Secretary Rumsfeld and the U.S.-
Russia Strategic Offensive Reductions Treaty (The Moscow 
Treaty) follow:]
             Prepared Statement by Hon. Donald H. Rumsfeld
    Mr. Chairman and members of the committee:
    First, let me thank you for this opportunity to discuss the Moscow 
Treaty. President Bush, Secretary Powell, Under Secretary of State John 
Bolton, and Under Secretary of Defense Doug Feith, have worked closely 
to achieve the treaty.
    When President Bush took office last year, he made clear his 
determination to transform the Russian-American relationship--to put 
the hostility built up over so many decades behind us, and set our two 
nations on a course toward greater cooperation.
    Some naysayers insisted it could not be done. They looked at his 
agenda--his promise to withdraw from the ABM Treaty; his desire to 
build defenses to protect the U.S., its friends, and allies from 
ballistic missile attack; his determination to strengthen the NATO 
Alliance by making new allies of old adversaries--and predicted that 
the U.S. and Russia were on a collision course.
    Various commentators warned of an impending ``deep chill'' in U.S.-
Russian relations that would make it impossible to negotiate further 
nuclear reductions with Russia. More than one foreign official 
predicted that the President's approach would ``re-launch the arms 
race.'' The Washington Post cautioned that the President's strategy 
risked ``making the world less rather than more secure, and . . . 
increasing rather than assuaging tension among the United States, its 
allies and potential adversaries such as Russia.'' The New York Times 
warned his approach ``may alienate the Kremlin and give rise to a 
dangerous new arms race with Russia . . .''
    What a difference a year makes.
    None of the dire predictions came to pass. To the contrary, the 
U.S.-Russian relationship is stronger than perhaps at any time in the 
history of our two nations.
    Far from a clash over NATO expansion, we have cemented a new NATO-
Russia relationship that will permit increasing cooperation between 
Russia and the members of the Atlantic Alliance.
    Far from causing a ``deep chill'' in relations, the U.S. withdrawal 
from the ABM Treaty was greeted in Russia with something approximating 
a yawn. Indeed, President Putin declared the decision ``does not pose a 
threat'' to Russia.
    Far from launching a new arms race, the U.S. and Russia have both 
decided to move toward historic reductions in their deployed offensive 
nuclear arsenals--reductions to be codified in the Moscow Treaty. 
Indeed, President Putin chose to announce the Russian reductions on the 
same day President Bush announced the U.S. intention to withdraw from 
the ABM Treaty.
    In little over a year, the President has defied the critics and set 
in motion a transformation in U.S.-Russian relationship--one that is 
designed to benefit the people of both our nations, and indeed the 
entire world.
    The record shows that it is a transformation that began before the 
terrible events of September 11.
    President Bush laid out his vision for a new relationship in a 
speech at the National Defense University on May 1 of last year. When 
he met President Putin for the first time a month later in Slovenia, 
instead of the predicted fireworks, the two presidents emerged from 
their discussions expressing confidence that our countries could put 
past animosities behind them.
    Not only had the meeting far exceeded his expectations, President 
Putin declared, but he believed that ``Russia and the United States are 
not enemies, do not threaten each other, and could be fully good 
allies.'' President Bush announced they had both agreed that the time 
had come ``to move beyond suspicion and towards straight talk; beyond 
mutually assured destruction and toward mutually earned respect . . . 
to address the world as it is, not as it used to be.''
    Over the course of the past year, they put those words into action.
    In the last 12 months, the Presidents of the United States and 
Russia had more interaction and forged more areas of cooperation across 
a broader range of political, economic, and security issues than at any 
time in the history of our two Nations.
    Today, the United States and Russia are working together to develop 
new avenues of trade and economic cooperation. We are working together 
to fight terrorism and deal with the new and emerging threats we will 
both face in this dangerous new century. We are working together to 
reduce the number of deployed offensive nuclear weapons--weapons that 
are a legacy of the past, and which are no longer needed at a time when 
Russia and the U.S. are basing our relations on cooperation, not fear 
of mutual annihilation.
    These are historic changes--changes of a breadth and scale that few 
imagined, and many openly doubted, could be achieved in so short a 
period time.
    Of course, there is still a great deal of work ahead--and 
challenges to overcome. Our success is by no means assured. But we have 
an opportunity to build a new relationship for our peoples--a 
relationship that can contribute to peace, stability, and prosperity 
for generations of Russians and Americans. It is ours to grasp, or to 
let slip away. But let there be no doubt--it will require a change in 
our thinking in our bureaucracies, in the Duma and Congress, and in the 
press and in academic institutions. We have decades of momentum going 
in the opposite direction. We need to recalibrate our thinking and our 
approaches.
    In both our countries, there are those who are still struggling 
with the transition. Tolstoy said, ``everyone thinks of changing the 
world, but no one thinks of changing himself.'' There is a reason for 
that. Change is not easy--none of us wakes up in the morning wanting to 
change.
    Habits built up over many decades become ingrained and are hard to 
break. Here in the U.S., there are some who would have preferred to see 
us continue the adversarial arms control negotiations of the Soviet 
era--where teams of lawyers drafted hundreds of pages of treaty text, 
and each side worked to gain the upper hand, while focusing on ways to 
preserve a balance of nuclear terror. This is an approach that 
President Bush rejected, insisting instead that we deal with Russia as 
we deal with all normal countries--in a spirit of friendship, trust, 
and cooperation.
    Similarly, in Russia today there are those who are stuck in the 
past--who look warily at American offers of greater friendship and 
cooperation, preferring to keep us at arms length, while continuing to 
associate with the old allies of the former Soviet Union--dictatorial 
regimes characterized by political, religious, and economic 
repression--the world's walking wounded.
    But there are others in Russia who want to see her embrace the 
future and take her rightful place in Europe--through increased 
integration with the western industrialized democracies, and by 
embracing political and economic freedom, and the higher standard of 
living, domestic peace, and thriving culture that are the product of 
free societies. Sometimes these divergent impulses can be found in the 
same people.
    Both of our nations have a choice to make--a choice between the 
past and the future. Neither of us can make that choice for the other. 
But each of us has an interest in the choice the other makes.
    The question for us is: what can we, who choose the future, do to 
support each other?
    For those of us in the business of national defense, our task is an 
important one: to clear away the debris of past hostility that has been 
blocking our path into the 21st century.
    Russia and the United States entered this new century saddled with 
two legacies of the Cold War: the adversarial relationship to which we 
had both grown accustomed and the physical manifestation of that 
adversarial relationship--the massive arsenals of weapons we built up.
    In the past year, we have made progress in dealing with both. Last 
November, at the Crawford Summit, President Bush announced his 
intention to reduce the United States' operationally deployed strategic 
nuclear warheads by some two-thirds--to between 1,700 and 2,200 
weapons. Soon after, President Putin made a similar commitment.
    These announced reductions are a reflection of our new 
relationship. When President Reagan spoke to the students at Moscow 
State University in 1988, he told them, ``nations do not distrust each 
other because they are armed; they are armed because they distrust each 
other.'' Clearly, we do not distrust each other the way the U.S. and 
Soviet Union once did.
    But what is remarkable is not simply the fact of these planned 
reductions, but how they have happened. After a careful review, 
President Bush simply announced his intention to cut our operationally-
deployed nuclear warheads. President Putin did the same. When they met 
in Moscow, they recorded these unilaterally announced changes in a 
treaty that will survive their two presidencies--the Moscow Treaty 
which the Senate and the Duma will now consider.
    But it is significant that while we consulted closely, and engaged 
in a process that has been open and transparent, we did not engage in 
lengthy, adversarial negotiations in which the U.S. and Russia kept 
thousands of weapons they did not need as bargaining chips. We did not 
establish standing negotiating teams in Geneva, with armies of arms 
control aficionados ready to do battle over every colon and comma.
    If we had done so, we would still be negotiating today. Instead, we 
are moving toward dramatic reductions in the ready nuclear weapons of 
our two countries and clearing the way for a new relationship between 
our countries.
    An illustration of how far we have come in that regard is this:
    [HOLDS UP START TREATY] This is the START I Treaty, signed in 1991 
by the first President Bush and Soviet President Mikhail Gorbachev. It 
is 700 pages long, and took 9 years to negotiate.
    [HOLDS UP MOSCOW TREATY]. This is the Moscow Treaty, concluded this 
summer by President Bush and President Putin. It is 3 pages long, and 
took 6 months to negotiate.
    Mr. Chairman, we are working toward the day when the relationship 
between our two countries is such that no arms control treaties will be 
necessary.
    That is how normal countries deal with each other. The United 
States and Britain both have nuclear weapons, yet we do not spend 
hundreds of hours negotiating the fine details of mutual reductions in 
our offensive systems. We do not feel the need to preserve a balance of 
terror between us.
    It would be a worthy goal for our relationship with Russia to be 
the same.
    There are those who do not see the difference in the size of these 
treaties as a sign of progress. To the contrary, they would have 
preferred a voluminous, legalistic arms control agreement, with 
hundreds of pages of carefully crafted provisions and intrusive 
verification measures.
    These critics operate from a flawed premise: that, absent such an 
agreement, our two countries would both try to break out of the 
constraints of this treaty and increase our deployed nuclear forces. 
Nothing could be further from the truth.
    During the Cold War, the stated rationale for arms control was to 
constrain an arms race. But the idea of an arms race between the United 
States and Russia today is ludicrous. The relationship between our two 
countries today is such that the U.S. determined--unilaterally--that 
deep reductions in our deployed nuclear forces are in the U.S. 
interest.
    We would have made these cuts regardless of what Russia did with 
its arsenal. We are making them not because we signed a treaty in 
Moscow, but because the transformation in our relationship with Russia 
means we do not need so many deployed weapons. Russia has made a 
similar calculation. The agreement we reached in Moscow is the result 
of those determinations--not the cause of them.
    That is also one reason we saw no need for including detailed 
verification measures in the treaty. There simply isn't any way on 
earth to verify what Russia is doing with all those warheads. Neither 
side should have an interest in evading the terms of the treaty, since 
it codifies unilaterally-announced reductions and gives both sides 
broad flexibility in implementing them. Further, we saw no benefit in 
creating a new forum for bitter debates over compliance and 
enforcement. Today, the last place in the world where U.S. and Russian 
officials still sit across a table arguing with each other is in 
Geneva. Our goal is to move beyond that kind of Cold War animosity--not 
to find new ways to extend it into the 21st century.
    Similarly flawed is the complaint that, because the Moscow Treaty 
does not contain a requirement to destroy warheads removed from 
missiles or bombers, the cuts are reversible and therefore not 
``real.'' Put aside for a moment the fact that no previous arms control 
treaty--not SALT, START, or INF--has required the destruction of 
warheads, and no one offered objections to them on that basis. This 
charge is based on a flawed premise--that irreversible reductions in 
nuclear weapons are possible. In point of fact, there is no such thing 
as an irreversible reduction in nuclear weapons. The knowledge of how 
to build nuclear weapons exists--and there is no possibility that 
knowledge will be lost. Every reduction is therefore reversible, given 
time and money.
    Indeed, when it comes to building nuclear weapons, Russia has a 
distinct advantage over the U.S. Today, Russia can and does produce 
both nuclear weapons and strategic nuclear delivery vehicles--they have 
open warm production lines. The U.S. does not currently produce either 
ICBMs or nuclear warheads. It has been a decade since we produced a new 
nuclear weapon, and it would take us a number of years to begin 
producing them again. In the time it would take us to re-deploy 
decommissioned nuclear warheads, Russia could very likely produce a 
larger number of new ones.
    But the question is: why would we want to do so? Barring some 
unforeseen and dramatic change in the global security environment--like 
the sudden emergence of a hostile peer competitor on par with the old 
Soviet Union--there is no reason why we would re-deploy the warheads we 
are reducing.
    The reason to keep, rather than destroy, some of those 
decommissioned warheads is to have them available in the event there is 
a problem with the safety or reliability of some element of our 
arsenal. Since we do not have a warm production line, it would be 
mindless for us to destroy all those non-deployed warheads, and then 
have nothing for back up in the event we run into safety and 
reliability problems--or a sudden, unexpected change in the global 
security environment. Russia, by contrast, has little or no need to 
maintain a reserve of warheads, since it has an active production 
capability.
    Mr. Chairman, if we had pursued the path of traditional arms 
control, as some suggested, we would not be proceeding with the 
reductions outlined in this treaty. Rather, we would still be at the 
negotiating table, arguing over how to reconcile these and other 
asymmetries between Russia and the United States.

        <bullet> We would have had to try to balance Russia's active 
        production capacity against the United States' lack of one.
        <bullet> Russia might have insisted that any agreement take 
        into account the size of the U.S. economy and our ability to 
        mobilize resources relatively quickly to develop new production 
        facilities.
        <bullet> We might have argued that Russia's proximity to rogue 
        nations allows them to deter these regimes with tactical 
        systems, whereas, because they are many thousands of miles away 
        from us, the United States' distance from them requires more 
        intercontinental delivery systems than Russia needs.
        <bullet> This could have resulted in a mind-numbing debate over 
        how many non-strategic systems should equal an intercontinental 
        system, or opened the door to a discussion of whether an 
        agreement must include all nuclear warheads--including tactical 
        warheads.
        <bullet> Russian negotiators might have countered that a U.S. 
        advantage in advanced, high-tech conventional weapons must be 
        taken into account.

    So on and so forth, ad infinitum.
    But the point is this: We don't need to ``reconcile'' all these 
asymmetries, because neither Russia nor the U.S. has an interest in 
taking advantage of the other by increasing its respective deployed 
nuclear forces.
    The approach we have taken is to treat Russia not as an adversary, 
but as a friendly power. In so doing, we have been able to preserve the 
benefits attributed to arms control--the dialogue, consultations, lower 
force levels, predictability, stability, and transparency. But we have 
done so without all the drawbacks: the protracted negotiations; the 
withholding of bargaining chips; the legalistic and adversarial process 
that, more often than not, becomes a source of bitterness between the 
participants; and the extended, embittered debates over compliance and 
enforcement of agreements.
    The U.S. and Russia are moving beyond all that. We are working to 
put that kind of acrimony and hostility behind us--and the adversarial 
process that was both a cause and effect of that hostility.
    Because Russia and the United States are no longer adversaries, our 
interests have changed. As enemies, we had an interest in each other's 
failure; as friends we have an interest in each other's success. As 
enemies we had an interest in keeping each other off balance; as 
friends we have an interest in promoting stability.
    When Russia and the U.S. were adversaries, our principal focus was 
trying to maintain and freeze into place the balance of nuclear terror. 
With the recently completed Nuclear Posture Review, the United States 
has declared that we are not interested in preserving a balance of 
terror with Russia. Today, the threats we both face are no longer from 
each other--they come from new sources. As our adversaries change, our 
deterrence calculus can and should change as well.
    That is why we are working to transform our nuclear posture from 
one aimed at deterring a Soviet Union that no longer exists to one 
designed to deter new adversaries--adversaries that may not be 
discouraged from attacking us by the threat of U.S. nuclear 
retaliation, just as the terrorists who struck us on September 11 were 
not deterred by the United States' massive nuclear arsenal.
    With the Nuclear Posture Review, President Bush is taking a new 
approach to strategic deterrence--one that combines deep reductions in 
offensive nuclear forces with new conventional offensive and defensive 
systems more appropriate for deterring the potential adversaries we 
face.
    Taken together, this ``New Triad'' of offensive nuclear forces, 
advanced conventional capabilities, and a range of new defenses 
(ballistic missile defense, cruise missile defense, space defense, 
cyber defense) supported by a revitalized defense infrastructure, are 
all part of a new approach to deterrence and defense--an approach 
designed to increase our security, while reducing our reliance on 
nuclear weapons.
    Some have asked why, in the post-Cold War world, we need to 
maintain as many as 1,700-2,200 operationally-deployed warheads. The 
end of the Soviet threat does not mean we no longer need nuclear 
weapons. To the contrary, the U.S. nuclear arsenal remains an important 
part of our deterrence strategy, and helps to dissuade the emergence of 
potential or would-be peer competitors, by underscoring the futility of 
trying to sprint toward parity with us or superiority.
    Indeed, Mr. Chairman, our decision to proceed with reductions as 
deep as the ones outlined in the Moscow Treaty is premised on decisions 
to invest in a number of other critical areas--programs that are funded 
in our 2003 budget request.
    These include investments to:

        <bullet> Improve U.S. intelligence collection, analysis, 
        processing, and dissemination;
        <bullet> Protect the U.S. homeland, including a refocused and 
        revitalized missile defense research and testing program, and 
        capabilities to detect and respond to biological attack;
        <bullet> Accelerate development of UAVs with new combat 
        capabilities and produce fast, precision conventional strike 
        capabilities;
        <bullet> Convert four Trident nuclear submarines into stealthy 
        SSGN Strike Submarines that can carry cruise missiles and 
        Special Operations Forces into denied areas;
        <bullet> Leverage information technology to seamlessly connect 
        U.S. forces--in the air, at sea and on the ground;
        <bullet> Protect our information networks;
        <bullet> Improve the survivability of U.S space systems, and 
        develop a space infrastructure that assures persistent 
        surveillance and access.

    Investments in these, and many other transformational capabilities 
in the 2003 budget, will allow the U.S., over time, to reduce our 
reliance on nuclear weapons and enact the deep nuclear reductions 
contained in the Moscow Treaty. I urge the Senate to approve the 2003 
defense budget as soon as possible.
    Others have asked why there is no reduction schedule in the treaty. 
The answer, quite simply, is flexibility. Our approach in the Nuclear 
Posture Review was to recognize that we are entering a period of 
surprise and uncertainty, when the sudden emergence of unexpected 
threats will be increasingly common feature of our security 
environment. We were surprised on September 11--and let there be no 
doubt, we will be surprised again.
    When Bob McNamara appeared before the Senate for his confirmation 
hearings as Secretary of Defense, no one mentioned the word Vietnam. 
When Vice President Cheney appeared before the Senate for his Senate 
confirmation as Secretary of Defense, he did not, nor did any member of 
the committee, mention the word Iraq. When I appeared before the Senate 
Armed Services Committee for my confirmation hearings last year, no 
one--including me--mentioned the word Afghanistan.
    Intelligence has repeatedly underestimated the capabilities of 
different countries of concern to us. We have historically have had 
gaps in our knowledge of 4, 6, 8, and in at least one case 12 or so 
years. It is simply not possible for intelligence to know everything 
taking place in our world. The only surprise is that so many among us 
are still surprised. This problem is more acute in an age when the 
spread of weapons of mass destruction into the hands of terrorist 
states--and potentially terrorist networks--means that our margin of 
error is significantly less than it has been. The cost of a mistake 
could be not thousands, but hundreds of thousands of lives--or even 
millions.
    Because of our smaller margin for error and the uncertainty of the 
future security environment, the U.S. will need flexibility. Through 
the Nuclear Posture Review, we determined the force levels and the 
flexibility we will need to deal with that new world and then 
negotiated a treaty that allows both deep reduction in offensive 
weapons and the flexibility to respond to sudden changes in the 
strategic environment.
    We are working to develop the right mix of offensive and defensive 
capabilities. If we do so, we believe the result will be that nations 
are less likely to acquire or use nuclear weapons.
    None of these changes is in any way a threat to Russia. Far from 
it, this new approach to deterrence will help us to better contribute 
to peace and stability, and address the new threats and challenges the 
United States will face in the 21st century.
    In many ways, Russia now faces the most benign security environment 
it has enjoyed in more than 700 years. From the 13th century up till 
the dawn of the 16th century, Russia was subjected to Mongol rule; in 
the 17th century she was invaded by Poland; in the 18th century by 
Sweden; in the 19th century by France; and in the 20th century by 
Germany. Today, for the first time in modern history, Russia is not 
faced with a foreign invader with its eye set on Moscow.
    In the 21st century, Russia and the United States both face new and 
different security challenges--the threats of terrorism and 
fundamentalism and the spread of weapons of mass destruction to rogue 
states. The difference is that these are threats our two nations have 
in common--threats that we can face together.
    This means that we have entered a period when cooperation between 
our two countries will be increasingly important to the security and 
prosperity of both our peoples. We can work together to stop the spread 
of weapons of mass destruction into the hands of terrorist movements 
and terrorist states. We can work together to support Russia's economic 
transformation and deeper integration into the Euro-Atlantic 
community--because a prosperous Russia would not face the same 
pressures to sell rogue states the tools of mass destruction.
    If one were to look down from Mars on Earth, one would see that the 
world divides pretty neatly into countries that are doing well and 
countries that are not doing well. The countries that are doing well 
are the ones that have free political systems, free economic systems, 
rule of law, transparency and predictability, and are integrated into 
the world economy. They are the nations where there is growth and 
opportunity.
    If Russia hopes to attract foreign capital, or retain her most 
gifted, best educated citizens, she must provide them with a climate of 
economic opportunity and political freedom--a climate that is the 
critical foundation on which prosperity, creativity and opportunity are 
built.
    We in the United States can encourage Russia--by working together 
to put the past behind us, establish bonds of friendship between our 
peoples. But, in the end, the choice, and the struggle, belong to the 
Russian people.
    This treaty is by no means the foundation of that new relationship. 
It is merely one element of a growing, multifaceted relationship 
between our two countries that involves not just security, but also 
increasing political, economic, diplomatic, cultural and other forms of 
cooperation.
    These reductions in the nuclear arsenals of our two countries are a 
step in that process. The reductions characterized in the Moscow Treaty 
will help eliminate the debris of past hostility that has been blocking 
our way as we build a new relationship. The Treaty President Bush has 
fashioned--and the process by which he fashioned it--are both models 
for future cooperation between our two countries. We have achieved deep 
reductions, and enhanced the security of both our countries, without 
perpetuating Cold War ways of thinking that hinder a desire for better 
relations.
    I urge the Senate to advise and consent to this treaty and to 
approve a clean resolution of ratification.
    I'd be pleased to respond to your questions. Any questions that 
cannot be fully answered here, we will be pleased to answer in 
classified session or later for the record.
                                 ______
                                 
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Thank you very much, Secretary Rumsfeld.
    General Myers.

   STATEMENT OF GEN. RICHARD B. MYERS, USAF, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Myers. Chairman Levin and Senator Warner and 
distinguished members of the committee: Thank you for the 
invitation to appear before you today. Before I begin my 
remarks on the Moscow Treaty, I would like to thank you for 
taking time to conduct the confirmation hearings for our 
combatant commanders. I think you have one scheduled tomorrow. 
We realize how busy you are, and we very much appreciate the 
timely manner in which this committee always responds to our 
requirements. Thank you.
    It is an honor to appear before you today to discuss the 
Moscow Treaty. Mr. Chairman, I would first request that my 
prepared statement be submitted for the record.
    Chairman Levin. It will be made part of the record.
    General Myers. I will make some short introductory remarks 
and then answer any questions that you and the committee might 
have.
    Mr. Chairman, the members of the Joint Chiefs of Staff and 
I all support the Moscow Treaty. We believe it provides for the 
long-term security interests of our Nation and we also believe 
that it preserves our flexibility in an uncertain strategic 
environment. Moreover, the treaty allows us to implement the 
recommendations that came out of our Nuclear Posture Review.
    As you consider the treaty's protocols, there are three key 
aspects that I would like to briefly comment on. First, we 
welcome the fact that with this treaty we will focus on 
operationally deployed warheads. This enables us to preserve 
critical conventional capabilities while we manage the 
reduction in strategic nuclear warheads.
    Second, the 10-year implementation schedule gives us 
flexibility in terms of drawing down our forces. Security 
imperatives over the next decade may change radically from what 
we anticipate today.
    Third, the treaty's provision that allows the U.S. to 
withdraw with a 90-day notification requirement provides a 
hedge against sudden changes in the global strategic 
environment. We believe together these provisions enable us to 
adjust our strategy, if necessary, both in the short and long 
term to meet the Nation's security needs. These provisions also 
allow us to make significant reductions in nuclear warheads and 
continue a reduction process that has been ongoing for the past 
3 decades.
    Perhaps most important of all, this treaty forms the basis 
for a new relationship with our Russian counterparts, putting 
to rest the Cold War at last.
    Mr. Chairman, the Secretary and I look forward to your 
questions.
    [The prepared statement of General Myers follows:]
           Prepared Statement by Gen. Richard B. Myers, USAF
    It is an honor to appear before this committee and share with you 
the implications of the Moscow Treaty on our Nation's defense. The 
Joint Chiefs of Staff maintain that this treaty enhances the security 
of our country, and that of the world, by making a dramatic reduction 
in the number of deployed strategic nuclear warheads while allowing the 
U.S. to retain the flexibility to hedge against future uncertainty. 
While the requirements of this treaty are fewer and more direct than 
previous arms control agreements, there are a number of key provisions 
to highlight.
    The treaty requires the U.S. to reduce its strategic nuclear 
warheads to between 1,700 and 2,200 warheads. From current levels, this 
number reflects almost a two-thirds cut in our strategic arsenal. This 
reduction is consistent with our conclusions in the recent Nuclear 
Posture Review.
    Furthermore, as we implement the treaty, the U.S. will include only 
those warheads that are ``operationally deployed.'' As such, we will 
derive the total number of warheads from the number of warheads on 
Intercontinental Ballistic Missiles (ICBM) deployed in their launchers, 
the number of warheads on Submarine Launched Ballistic Missiles (SLBM) 
in their launch tubes onboard submarines, and nuclear weapons loaded on 
heavy bombers or stored in weapons storage areas at heavy bomber bases. 
We will not include the small number of spare strategic nuclear 
warheads located at heavy bomber bases. We also will not include the 
warheads associated with strategic systems that are non-operational for 
maintenance actions, those warheads downloaded from SLBMs or ICBMS, or 
those warheads nominally associated with the deactivated Peacekeeper 
ICBMs. As a result, under the Moscow Treaty, we can reduce the 
operationally deployed warheads, rather than weapon systems, allowing 
us to make deep reductions in our strategic warheads while maintaining 
conventional capabilities.
    The U.S. also benefits from the Moscow Treaty's flexibility because 
it allows the U.S. to store spare warheads rather than destroy them. 
There are key benefits the U.S. gains from storing the removed nuclear 
warheads. The U.S. cannot replace nuclear warheads in the near- or mid-
term as we are currently not manufacturing new nuclear warheads. As a 
result, the storage of warheads will provide the U.S. a hedge against 
future strategic changes. In addition, storing nuclear warheads 
provides a hedge in case warhead safety or reliability becomes a 
concern.
    It is also important to note that the Moscow Treaty recognizes that 
the START Treaty remains in effect. The START Treaty methodology 
attributes a specific number of warheads to each type of delivery 
system. The START methodology ``counts'' warheads even if the delivery 
platform is in maintenance. The START methodology also counts warheads 
even if there is not a warhead deployed in the delivery platform. Under 
the Moscow Treaty, the U.S. will only count operationally deployed 
warheads. The U.S. may remove a warhead to comply with the Moscow 
Treaty but a ``notional'' warhead may still be counted under the START 
Treaty as we fulfill our obligations under both treaties.
    The Moscow Treaty also requires that the U.S. and Russia meet the 
lowered force levels by December 31, 2012. This 10-year implementation 
deadline maximizes flexibility for both parties and provides a mid-term 
hedge against unforeseen events. If the strategic environment dictated, 
we could temporarily raise the number of deployed warheads to address 
an immediate concern while later still meeting the December 2012 
deadline. Should such a temporary increase be necessary, however, U.S. 
actions would remain within the START Treaty obligations.
    Finally, the Moscow Treaty allows the U.S. to withdraw with 3 
months notification. This provision allows the U.S. to exercise its 
national sovereignty and respond to a more dramatic change in the 
strategic environment.
    The Moscow Treaty does not, however, include a number of protocols 
common to previous arms control agreements. This lack of protocols 
enhances our flexibility in implementing this accord. For example, the 
Moscow Treaty will not limit delivery platforms nor does it require 
delivery platforms to be destroyed. As a result, the U.S. will maintain 
a significant flexibility to adjust future force structure. This 
approach will allow us to remove all 50 Peacekeeper missiles. Likewise, 
we may modify some Trident submarines from their strategic missions and 
assign them to transformational missions that are more relevant to the 
asymmetric threats we now face. Finally, this approach will allow the 
U.S. to retain heavy bombers for their conventional role. Our 
operations in Afghanistan demonstrated the vital capability that 
conventional bombers provide our Combatant Commanders.
    The Moscow Treaty has no requirement for an additional inspection 
regime. START's comprehensive verification regime will provide the 
foundation for confidence, transparency, and predictability in further 
strategic offensive reduction. The Moscow Treaty will not subject the 
U.S. to intrusive inspections in some of our most sensitive military 
areas.
    The Moscow Treaty allows the U.S. to make deep reductions in 
strategic nuclear warheads while preserving our flexibility to meet 
unpredictable strategic changes. The treaty finally puts to rest the 
Cold War legacy of superpower suspicion. It reflects the new 
relationship of trust, cooperation, and friendship with an important 
U.S. partner.

    Chairman Levin. Thank you very much, General Myers.
    Secretary Rumsfeld, the treaty does not define the term 
``operationally deployed,'' but that is the key to the treaty, 
that it limits the number of operationally deployed warheads. 
General Myers' printed testimony apparently gave us the 
decision as to what we are going to do relative to that number. 
On page 1 of his testimony he says that the number of warheads 
will be counted if they are in launch tubes on submarines, 
loaded on heavy bombers, or stored in weapons storage areas at 
heavy bomber bases. I will just stop right there.
    Have the Russians adopted a similar definition of 
``operationally deployed'' since that is what we are looking at 
here? I think you will agree we are not reducing the number of 
warheads, we are reducing the number of operationally deployed 
warheads, correct?
    Secretary Rumsfeld. The treaty refers to operationally 
deployed strategic nuclear warheads.
    Chairman Levin. We have apparently concluded as to what we 
will interpret that to mean. Do we know what the Russian 
interpretation is? Is it similar to ours?
    Secretary Rumsfeld. As I recall, the negotiations did not 
insert in the treaty any precise definition. We have indicated 
what we consider it to be, and there is no question but that 
the Russians will be using something roughly approximating 
that.
    Chairman Levin. Have we had discussions, General Myers, 
with the Russians as to what their interpretation of that 
undefined phrase will be?
    Secretary Rumsfeld. There were discussions.
    General Myers. I think there were discussions on that.
    Chairman Levin. Is there any understanding with the 
Russians as to whether they will have a similar approach to it 
that we will?
    General Myers. My understanding is they are going to have a 
very similar approach to how they count their warheads as we 
do.
    Chairman Levin. By the way, I did not announce this, but we 
will have an 8-minute round based on the early bird rule.
    In May 2000, when President Bush was a candidate, he talked 
about removing weapons from high alert hair-trigger status. I 
am wondering whether or not, Mr. Secretary, the Department is 
going to implement that objective of removing weapons from high 
alert status in the near future as part of our effort to reduce 
the risks of accidental or unauthorized launch and to try to 
build confidence between ourselves and Russia?
    Secretary Rumsfeld. Mr. Chairman, it seems to me that that 
subject was one that was discussed intermittently ever since 
the end of the Cold War in the early 1990s and that each side 
has very different forces. We have our forces arranged 
differently, they are targeted differently and have been. There 
are asymmetries in how we are arranged. Each side has made 
adjustments in how they are arranged over a period of 6, 8, 10, 
12 years, I would guess.
    If I could characterize our current situation, I think it 
would be inaccurate to suggest that we are currently arranged 
on what any rational person could characterize as a hair-
trigger arrangement. I am trying to think of precise changes in 
answer to the question, General Myers, in the last year and a 
half.
    General Myers. We are in an open hearing here, so I have to 
be somewhat careful, but one of the changes was to not have the 
weapons targeted on specific targets or sites. That was one of 
the changes, and I think that is all I want to say about it.
    Chairman Levin. Are there any additional changes that were 
contemplated in terms of alert status, as the President 
indicated we would attempt to do?
    Secretary Rumsfeld. Not as a part of this treaty.
    Chairman Levin. Or otherwise?
    Secretary Rumsfeld. You are asking is there anything 
prospective that is planned?
    Chairman Levin. Right.
    Secretary Rumsfeld. Not that I know of.
    Chairman Levin. I want to be very clear as to what the 
treaty does. The treaty, as I understand it, does not reduce 
the stockpile from the current level of 6,000 plus warheads, is 
that correct?
    Secretary Rumsfeld. The treaty does exactly what it 
specifies and it does not address that subject. I can explain 
about the stockpile.
    Chairman Levin. No, just in terms of the number in our 
stockpile, the treaty does not address the number?
    Secretary Rumsfeld. It addresses operationally deployed 
strategic nuclear weapons, as I indicated.
    Chairman Levin. One of the achievements that we were so 
anxious to obtain in the START II Treaty was the elimination of 
Multiple Independently Targeted Reentry Vehicle (MIRVed) 
missiles, especially the SS-18, because of the potential 
instability should the relationship change or for whatever 
other reason. The Joint Chiefs hailed that achievement as a 
longstanding goal and a major accomplishment for our security.
    The Moscow Treaty does not prohibit MIRVed ICBMs, so Russia 
can keep its SS-18s and place new MIRVed warheads on other 
missiles like the SS-27. Is it now our position that we do not 
care if Russia keeps the SS-18s or places MIRVed warheads on 
other missiles, Mr. Secretary?
    Secretary Rumsfeld. That subject has come up and our view 
is that our circumstance and Russia's circumstance are notably 
different in many respects. Our geography is different, our 
neighbors are different, the way we produce weapons is 
different, the life of those weapons is different. I am sure 
the targeting perspectives are quite different.
    It had been, when we were engaged in what was characterized 
as mutual assured destruction, that the subject of MIRVed 
weapons became extremely important. It is in my view today a 
subject that is much less important, and it is entirely 
possible that the Russians may very well make a decision that, 
given the asymmetries in our circumstance, they may want to 
MIRV some portion of their force.
    We have looked at that, and we are quite comfortable that 
that does not create an instability in the relationship.
    General Myers. Mr. Chairman, let me chime in on that. To 
add to what the Secretary said, I think that is absolutely 
right. When the Joint Chiefs made their comments about the MIRV 
and START II and so forth, we were still in a different 
relationship than we have today with Russia. I think the 
context of our treaty and the geopolitical environment we find 
ourselves in makes that topic a lot less interesting than it 
was in the Cold War days, when it was of interest and when we 
were enemies.
    Chairman Levin. Thank you.
    Previous arms reduction treaties did not require 
destruction of warheads, but they did require destruction of 
delivery systems, which was, of course, critically important at 
that time. The Moscow Treaty does not require the destruction 
either of warheads or of delivery systems.
    Now the question is what will we be doing with the 
Peacekeeper? Is it our plan to eliminate the Peacekeeper 
missiles and their silos, even though it is not required to do 
so by treaty, General?
    General Myers. The current plans, of course, are to 
eliminate the Peacekeepers. There has not been a decision yet 
on what to do with the silos, so that is in the future.
    The warheads, because they are our most modern--the safest, 
most secure type warhead we have--will be put on our other 
land-based missiles, the Minuteman missile.
    Chairman Levin. My final question. Secretary Rumsfeld, the 
Cooperative Threat Reduction (CTR) program is coming to a halt 
because of the inability to make the necessary certifications. 
The Senate version of the National Defense Authorization Bill 
that is in conference contains the legislative authority that 
the administration requested, which is permanent authority for 
the President to grant an annual waiver of the prerequisites of 
the Freedom Support Act and the Cooperative Threat Reduction 
Act. The House bill contains authority to grant waivers for 3 
years.
    I assume that you support the administration position 
relative to permanent authority, so I will not ask you that. 
But if you disagree with it, perhaps in your answer to the 
question I am going to ask you, you could let me know that, 
too.
    Here is the issue. The permanent authority requested by the 
administration to grant annual waivers of the prerequisites to 
implementation of the Cooperative Threat Reduction program does 
not include an ability to waive the special prerequisites for 
the Russian chemical weapons destruction program being carried 
out under the CTR program. President Bush said that not only 
did he support this important effort to destroy the Russian 
chemical weapons, he actually wanted to accelerate it. But if 
there is no authority to waive those special prerequisites for 
the chemical destruction, then that program is going to be shut 
down.
    Will you be asking for waiver authority for the special 
prerequisites for the Russian chemical weapons destruction 
program?
    Secretary Rumsfeld. The administration either has or will 
be asking for that waiver authority with respect to the 
chemical weapons destruction facility.
    Chairman Levin. Do you support that request?
    Secretary Rumsfeld. Indeed I do.
    Chairman Levin. Thank you.
    General, do you support that, too?
    General Myers. Yes, sir.
    Chairman Levin. Thank you very much.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    It is quite interesting. I will read the one paragraph in 
the treaty which in my judgment embraces what it is that is 
before us today for discussion. It is Article I, very simple: 
``Each Party shall reduce and limit strategic nuclear warheads, 
as stated by the President of the United States of America on 
November 13, 2001, and as stated by the President of the 
Russian Federation on November 13, 2001, and December 13, 2001, 
respectively, so that by December 31, 2012, the aggregate 
number of such warheads does not exceed 1,700-2,200 for each 
Party. Each Party shall determine for itself the composition 
and structure of its strategic offensive arms, based on the 
established aggregate limit for the number of such warheads.''
    Now, for those of us who have had some exposure over many 
years to these types of treaties and goals, it is 
understandable. But to others who are beginning to absorb the 
importance of this landmark document, I would like to clarify 
with you one or two of the words used here so that we have a 
legislative history, such that if future generations begin to 
challenge what was intended at the time this language was 
written at least there is the colloquy and the testimony 
provided here this morning to clarify it.
    My first question is, was there reason to not incorporate 
the word ``operational'' with respect to the aggregate of the 
weapons to end up in 2012, namely 1,700 to 2,200? In simple 
forms, you take the existing inventory over the years between 
now and 2012, you detached the warheads from certain systems, 
you put them in storage, and the balance remain in an 
operational status. Is that my understanding and your 
understanding?
    Secretary Rumsfeld. Well, first let me say that the 
discussions took place between President Putin and President 
Bush, they took place between Secretary Powell and Foreign 
Minister Ivanov, and between Don Rumsfeld and Sergei Ivanov, 
the Defense Minister of Russia, as well as at the Feith and 
Bolton levels. You asked if there was any discussion about 
something. There were so many meetings and discussions, I 
really am not in a position to say precisely that.
    I was trying to read what you were citing here. It was in 
Article I?
    Senator Warner. That is correct. In other words, it just 
states that you will end up with such a number of warheads, 
``the aggregate number of warheads does not exceed . . .'' Now, 
those are in an operational status.
    Secretary Rumsfeld. Exactly, as defined by General Myers' 
testimony.
    Senator Warner. Fine. Now, the others are non-operational. 
Can you describe--and the General can join in--what status they 
are in?
    Secretary Rumsfeld. Sure.
    Senator Warner. In other words, I understand, and I think 
the public following this do, they are detached.
    Secretary Rumsfeld. Exactly.
    Senator Warner. But could you put them back on in an hour's 
time? No.
    Secretary Rumsfeld. No.
    Senator Warner. A week's time? No.
    Secretary Rumsfeld. Right.
    Senator Warner. I think it is important----
    Secretary Rumsfeld. It is.
    Senator Warner.----to show how when they go to storage they 
are really in a status that would not lend themselves to be 
utilized in any regrettable and unfortunate rapid exchange 
between the two nations of portions of its arsenals which are 
operational.
    Secretary Rumsfeld. You are correct. A non-deployed warhead 
could be used in any number of circumstances and the 
circumstances in our country would be different from those in 
Russia, because Russia, for example, has an open production 
line. So every day or week or month another warhead may be 
coming off their production line. Where is it? Well, it is 
where it is. It has just been produced and it now exists. Then 
it goes someplace.
    In addition, the Russian system is that they tend to remove 
old warheads and they then are taken off and in some cases 
refurbished and in some cases put in a queue to be destroyed, 
and in some cases in the process of destroying them they 
disaggregate them and they are in piece parts. So they may have 
5, 10, 15 parts, and some of those parts would lend themselves 
to be re-used, in which case they might then be refashioned 
into restored or refurbished warheads.
    The United States, quite to the contrary, we tend to make 
these things in a way that they last much longer. We do not 
have a pattern of changing them out anywhere near as rapidly as 
does Russia.
    Senator Warner. If I could interrupt, Mr. Secretary, with a 
series of presidents we intentionally made the decision not to 
build any new ones, in sharp contrast with Russia, which is 
building new ones.
    Secretary Rumsfeld. Exactly.
    Senator Warner. Therefore, we did have the requirement of 
placing these in some type of status such that if there is a 
deterioration in the operational warhead we could simply go 
back and extract one from the inventory in storage and replace 
it.
    Secretary Rumsfeld. Exactly. So therefore the answer to 
your question with respect to Russia is that their warheads 
that are not operationally deployed are in the following 
categories at least: coming off a production line, in a queue 
ready to be restored, stored for the purpose of use, and piece 
parts waiting to be reassembled in some form or another.
    In the United States, weapons that are not operationally 
deployed would tend to be in the following categories--and 
check me here, Dick Myers. We do not have anything coming off a 
production line. We would have them away from a bomber base 
some distance, because the ones not on a bomber but near a 
bomber base would be considered operationally deployed. They 
would be in a queue to be destroyed, or they would be held in 
reserve in the event a phone rang one day and we were advised 
that we had a class of weapons that were no longer safe or no 
longer reliable, in which case we very likely would use ones 
that were not operationally deployed and not in the queue to be 
destroyed because they are no longer in good enough shape to be 
used. They then would be used to replace anything that was seen 
as being unsafe or unreliable.
    Senator Warner. I would like to have the General amplify 
that response and also give us, frankly, some hands-on examples 
of when a weapon is removed pursuant to this treaty from an 
operational status, stored, and then if it were required to go 
back into a system, what are the steps required to re-integrate 
it and the time involved?
    General Myers. I would be happy to, Senator Warner. First 
of all, let us keep in mind that we are not making warheads any 
more. I put them in some bins in my mind, the way my mind 
works, of what we would do with warheads that are not 
operationally deployed. You would have an operational reserve, 
spares for weapons that you have to change out that check out 
bad during the numerous checks we do on operational weapons all 
the time.
    You would have a strategic reserve. If the environment 
changes, you need some number, which has not been decided yet. 
That is yet to be decided.
    Then you need a reserve to cope with reliability issues. As 
the Secretary said, we will count as operationally deployed 
those weapons that are kept on the base with the bombers in the 
weapons storage areas, because presumably you can upload those 
in a matter of let us say hours. It would probably take you, to 
generate all the bombers, a matter of days, but you could start 
that process in a matter of hours.
    Then you go to land-based component. Those weapons will be 
stored in the weapons storage area at the base. We get to the 
weapons fields, by land, but they can be many hours, up to 6 
hours, away by vehicle. To upload weapons on a missile is a 
pretty slow process because you have to secure the site before 
you open the silo, then you have to open the silo, you have to 
get the maintenance people on site, you have to bring the 
weapons to the site and then install them on the missile.
    Senator Warner. I would appreciate if you would amplify 
that for the record.
    [The information referred to follows:]

    Once the weapons installation process is complete, which 
could take several hours by itself, the maintenance teams must 
close the site and return all of the special vehicles and 
equipment to the base. After weapons installation, the missile 
combat crew, who is remotely located from the missile, must 
transfer targeting data and run a series of commands, tests, 
and calibrations to return the missile to full alert status. 
The missile combat crew's actions could take as long as 12-16 
hours. The entire process for one ICBM could take between 24 to 
30 hours under current conditions. Actual minimum generation 
times are classified and can easily be supplied to you upon 
request.

    Senator Warner. I want to just ask one last technical 
question. The end date is 2012.
    General Myers. Correct.
    Senator Warner. There is no schedule. Theoretically, one 
side could wait until perhaps the last year or two to reach its 
entire reduction of inventory, thereby leaving the other side 
at a disadvantage. What steps are in place to ensure that as 
these drawdowns occur there is basic stability between the two 
parties to the treaty so that one does not gain an advantage?
    Secretary Rumsfeld. I think the way to think about the 
treaty is that these are really decisions that were made 
unilaterally and then brought together in a treaty. The treaty 
provides the flexibility so either side can do anything they 
feel that is in their security interest during that period of 
drawdown.
    In the event that, as General Myers indicated, the world 
environment changed, either side has the ability to level off 
or not continue in a drawdown period. My guess is that there 
will be an uneven drawdown. Their situation is quite different 
from ours. Their weapons do age. They do have a problem of 
moving them off, and they are on that path.
    I do not think there could be a problem, but if there were 
a problem all either side would have to do would be to have the 
flexibility to make an adjustment that is in their security 
interest. If the worse came to worst, there is a clause in the 
treaty that permits, as there is with every treaty, either side 
to pull out with notice.
    Senator Warner. Let us hope that is not achieved.
    But would that flexibility enable us--if we had drawn down 
significantly further than Russia, and we noted that Russia was 
not keeping pace, and our strategic analysts felt that there 
was an instability in the balance--to restore to an operational 
status some of the weapons taken down?
    Secretary Rumsfeld. We have that flexibility, although one 
would think that we would be wise enough as we go down--we do 
have the verification provisions in the START Treaty between 
now and 2009. So we are going to have national technical means 
capable of knowing.
    Senator Warner. I understand that.
    My time is up.
    Chairman Levin. Thank you very much.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to thank Secretary Rumsfeld and General Myers for 
joining us this morning. I want to wish you well in all the 
work you do for our great country.
    Secretary Rumsfeld. Thank you, sir.
    Senator Akaka. I also look at the treaty as giving us great 
promise as we come out of the Cold War and the age of mutual 
assured destruction. I look upon it as a beginning on a long 
road toward true arms reduction and cooperation.
    Unfortunately, this treaty does not explicitly establish a 
timetable or verification process for warhead destruction, nor 
does it address tactical nuclear weapons that are what might be 
considered attractive to terrorists. During his testimony 
before the Senate Foreign Relations Committee, Secretary Powell 
indicated that this treaty is likely to be superseded by more 
ambitious agreements that will answer many of our questions on 
verification and questions on compliance. It has been noted 
that it took 9 years to work out these details in START. If we 
hope to have something in place when START expires in 2009 or 3 
years later when SORT expires, I believe it is critical that we 
start now.
    I spent yesterday at the Governmental Affairs Committee 
markup to determine the structure of the future Homeland 
Security Department. Several times during the day my colleagues 
asked, will this make the American people more secure? To make 
America more secure, nuclear arms reductions must prevent 
terrorists from acquiring nuclear material and nuclear weapons. 
The most attractive kind of weapons for terrorists are tactical 
nuclear weapons. SORT does not deal with tactical nukes, but 
SORT is only the beginning. I want to continue to stress that.
    What steps, Mr. Secretary, are we taking to address the 
large number of Russian tactical weapons?
    Secretary Rumsfeld. Senator, you are of course correct that 
we do need to address the subject of transparency and 
predictability or verification, as it is sometimes called, and 
both sides have indicated that they do intend to begin 
discussions fairly promptly that would pursue that issue. I 
believe the treaty fashions a group of the two defense 
ministers and the two foreign ministers who are supposed to 
meet and begin to discuss those things. We have a meeting 
scheduled already for September, even before the treaty has 
been ratified by the United States Senate or the Duma.
    Second, with respect to theater nuclear weapons, you are 
also correct. That is a subject that has not been addressed 
between the two countries. I have raised it in every meeting we 
have been in. I think that what is important there--and the 
Russians have many multiples more than we do of theater nuclear 
weapons.
    We believe that our interest is in gaining better awareness 
as to what they have, and we do not have a good fix on the 
numbers from an intelligence standpoint, nor have they been 
forthcoming in discussing that.
    Second, we think that some degree of transparency would be 
helpful as to what they are doing by way of production, what 
they are doing by way of destruction, what they are doing by 
way of storage. You are quite right, there is no question but 
that the security issue with respect to theater nuclear weapons 
is a very serious one.
    You can expect that we will continue to raise those 
questions and bring the issue forward in the U.S.-Russia 
discussions that are scheduled shortly.
    Senator Akaka. I was so glad to see that part of the treaty 
is the inclusion and establishment of a bilateral commission. I 
believe that the bilateral commission is tasked to meet twice a 
year. I feel that it is a most promising aspect of the treaty 
because it will give us a chance to continue to talk with the 
Russians, and I believe that this is one way of filling in the 
details that we are asking ourselves.
    My question is, when will the commission meet, and what are 
the principal topics to be discussed?
    Secretary Rumsfeld. I think the way to characterize it is 
that it will be somewhat different than prior bilateral 
commissions or standing consultative commissions or arms 
control type commissions. This group has as its purpose, I 
believe the language suggests, a relatively narrow focus on 
implementation of the treaty. It would probably be the other 
group I mentioned, which would be the Secretary of Defense of 
both countries and the Secretary of State of both countries, 
that would discuss issues like theater nuclear weapons, 
transparency, predictability, verification, and other aspects 
of the relationship.
    Senator Akaka. It is likely that Russia would have had to 
reduce its nuclear stockpile to 1,200 to 1,500 warheads without 
this treaty. I am concerned that Russia will feel forced to 
maintain an arsenal of 1,700 to 2,200 warheads to match the 
U.S. stockpile. Considering the state of Russian stockpile 
stewardship, will Russia be able to safely maintain and secure 
this larger number?
    Secretary Rumsfeld. It is a matter of priorities. Russia 
has choices to make, like every country in the world does, and 
they have to recognize the importance of preventing 
proliferation. Any country that has weapons of mass destruction 
has by definition a responsibility to manage them very 
carefully. The power of these weapons is enormous, and it would 
be inexcusable for any country not to establish a very high 
priority on the security of such weapons.
    Senator Akaka. Thank you very much, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First let me just say to both of the witnesses today how 
thankful I am that we have you, General Myers, and you, 
Secretary Rumsfeld, and the entire national security team at 
the helm at this time that I really believe is the most 
threatening time in our Nation's history.
    One of the most compelling statements I have heard you 
make, Secretary Rumsfeld, is when you talk about the margin of 
error. It was kind of buried in your statement. You only 
mentioned it at the very last, and I think that is something we 
need to talk about over and over again. I would like to have 
you at this time elaborate a little bit on the margin of error 
today as opposed to the margin of error in the past against 
conventional threats.
    Secretary Rumsfeld. Senator Inhofe, it is certainly 
something that we worry about as much as anything, and it is 
this. We have moved from a 20th century security environment to 
a 21st century security environment. We have moved from a 
period where we were facing the carnage that can result from 
the use of conventional weapons, meaning hundreds and thousands 
of people can die, into the 21st century where we are dealing 
with the proliferation of weapons of mass destruction and we 
are not talking about hundreds or thousands, we are talking 
about the potential loss of hundreds of thousands or millions 
of human beings as a result of the use of biological, chemical, 
nuclear, or radiation weapons.
    That is so different for the world, it is so different for 
us. Not only has there been proliferation of these weapons, but 
there has been proliferation of the denial and deception 
techniques as to how people can hide those capabilities. It is 
a big world, and regrettably, we know a great deal, but there 
is a great deal we do not know. We keep finding that more 
information is coming available to us and in fact it occurred 
not today or yesterday, but 1, 2, 4, 5 years ago.
    That says to me, as you point out, that our margin for 
error is much less, that we are living in a period of little or 
no warning, that we have to organize, train, equip, and manage 
our affairs so that we can live in that world, a vastly more 
dangerous world.
    Senator Inhofe. I think that is very well said. Several of 
us on this panel have expressed concern over the last 10 years, 
in my case since 1994 when I came from the House to the Senate, 
with the fact that they are getting so dangerously close in 
some rogue nations to developing the capability. We know that 
most of them have weapons of mass destruction. We know that 
they have access and they are developing the missile means of 
delivering those. Where they are I do not think we know 
exactly, but we do know that there are three countries that 
have missiles that will reach the United States and that those 
countries, two of them anyway, are dealing, and trading 
technology and systems with countries like Iraq, Iran, Syria, 
Libya, and other countries.
    What concerns me--during the discussion of today's meeting 
I have not said very much about it--is how this relates to our 
ability to have a missile defense system. In other words, we 
know that when you talk about the margin of error, if on 
September 11, the terrorists had had the weapon of choice, a 
nuclear warhead on a missile, as opposed to what they had, how 
devastating that would be.
    Now, if for some reason the United States does not deploy a 
missile defense system, will we still be able to comply with 
the reductions that are stated in the Moscow Treaty?
    Secretary Rumsfeld. Senator, that is a good question, and 
it is a question that is probably not knowable until we move 
along. In the Nuclear Posture Review we did conceptualize a 
somewhat modified treaty, not to say we are going to move away 
from land-based, sea-based, and air-based strategic nuclear 
weapons, but rather that if one looks at offensive weapons, 
they would be both conventional and nuclear. Another leg of the 
triad would be defensive capabilities, and a third would be the 
infrastructure, and then coordinated by command control in the 
center of that concept.
    As I mentioned in my remarks, the proposals with respect to 
1,700 to 2,200 are premised on some investments that need to be 
made in missile defense, some investments that need to be made 
in infrastructure, and the capability to manage our affairs 
going forward. Fortunately, we have a good long period to 
pursue our missile defense research and development program, 
make judgments as to which are the most fruitful areas, and, 
one would hope, be able to deploy missile defenses during that 
period.
    My guess is that there will be each year a calculation made 
as to how we are doing with respect to all elements that were 
considered in the Nuclear Posture Review.
    Senator Inhofe. Conceivably, I would assume that we would 
be able to make alterations in this treaty as time went by and 
conditions changed also.
    Secretary Rumsfeld. My guess is that we will be talking 
starting in September on possible increments or additions or 
changes.
    Senator Inhofe. Let me read from your previous testimony. I 
think this actually was in your statement today. You said: 
``First, there simply is not any way on Earth to verify what 
Russia is doing with all the warheads. Second, we do not need 
to. Neither side should have an interest in evading the terms 
of the treaty since it simply codifies unilaterally-announced 
intentions and reductions, and it gives both sides broad 
flexibility in implementing those decisions.''
    Further in your statement, you said: ``In this century, 
Russia and the United States both face new and different 
security challenges, not exactly the same, but certainly the 
threats of terrorism, fundamentalism, and the spread of weapons 
of mass destruction to rogue nations are common.''
    Now, as we move ahead into this treaty, how do you balance 
this? We are trying to forge this relationship between Russia 
and the United States. We all want that. Yet we want at the 
same time to make sure that weapons that are taken from active 
deployment do not fall in the hands of the wrong people. How do 
you balance those two things?
    Secretary Rumsfeld. I think that a weapon, regardless of 
where it is located, has to be maintained in a secure manner. 
So I think the difference between those that are deployed or 
those that are not deployed is really not so much the issue as 
how wise we are in carefully managing weapons regardless of 
their location.
    Senator Inhofe. When you get into the issue of storage 
versus destruction of warheads, it is well known that not all 
of the warheads which will be removed from deployment will be 
destroyed. A number of them, although the number has not really 
been talked about, and it is not carved in stone yet, they 
would be placed in storage. Mr. Secretary, would you give this 
committee some examples as best you can in this forum of 
situations that would cause the stored warheads to be 
redeployed?
    Secretary Rumsfeld. Yes, sir. I can think of three 
circumstances. One would be that a judgment was made that a 
category of weapons or some specific weapons were no longer 
reliable and the stewardship of the stockpile came to the 
conclusion that they are not reliable, there is a discussion 
that takes place, then judgments are made as to how you can 
remove something that is no longer considered reliable and what 
do you replace it with.
    A second would be that a judgment was made that some 
category was not safe, a different issue, but an important 
issue.
    A third would be that, for whatever reason--anyone's 
imagination is as good as mine--you move out 6, 8, 10 years in 
this process and some significant change in the world situation 
occurs in terms of something that affects the desired posture 
with respect to nuclear weapons. Very likely, the two countries 
would talk and make a judgment as to what one or both countries 
think they ought to do about that changed security environment.
    Senator Inhofe. I am surprised that I have time for my 
fourth question, but I do. This will be real quick.
    Chairman Levin. You do not have time, but if Senator Allard 
is willing, please proceed with your question.
    Senator Inhofe. Thank you. A short question. Thank you, 
Senator Allard.
    You had said on July 17, in your testimony, ``I think that 
to go from a system that was totally untrustworthy and secret 
and doing things underground, behind cloaks, as a way of life 
to something where they let the sun shine in is not something 
that you can do in 5 minutes.'' You elaborated on that, and my 
question would be how long do you think it will take for the 
Russians to arrive at a level of transparency that would make 
you feel comfortable?
    Secretary Rumsfeld. That is a difficult question. If you 
think about Russia's situation, it is a country that was a 
superpower. It still is militarily in a sense. A number of 
republics have departed the Soviet Union and left Russia. A 
number of people have left, intelligent people, well-educated 
people. There has been an outflow of brain power. They have 
serious health problems. They have a military that is not being 
funded at anywhere near the level it previously was funded. It 
creates difficulties.
    President Putin has clearly made a judgment to turn west 
and to connect with the United States, to connect with Western 
Europe, to begin that process of creating an environment in 
Russia that is hospitable for investment. If you think about 
it, decision makers all over the globe are deciding every day 
where they want to put their money, where they invest, where 
they want to build a plant, what countries they feel safe and 
secure with.
    To the extent Russia decides that they want to be 
transparent, and they want to have those linkages with the 
west, to create an environment that is hospitable for 
investment and for enterprise, then they will become more 
transparent. To the extent they, for whatever reason, decide 
that they want to continue as their most important 
relationships to be with Cuba or North Korea, Iraq or Syria, 
the world's walking wounded, it seems to me that they are not a 
very attractive place for investment, and they would be less 
likely to be transparent.
    So the President has made a decision. Not everyone in that 
country has, but the President has, and his leadership has, and 
they are pointing west. I think that is a good thing, and we 
ought to try to do things that encourage it. We will see over 
time. I am one of those people who likes to be careful. I am a 
conservative person. So I will watch, and we will keep meeting 
and encouraging transparency.
    We are such an open system that the issue of predictability 
and transparency is quite easy for us. They have historically 
been a closed system, and it is going to take a culture change 
in their military, it is going to take a culture change in 
their bureaucracy.
    Senator Inhofe. Thank you very much.
    Chairman Levin. Thank you.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    Thank you, General Myers and Mr. Secretary, for sharing 
your thoughts with us today. When we talk about our 
international agreements, I think we tend to just focus on the 
two parties to the agreement, for example the Moscow agreement, 
Russia and the United States. But in reality there is a whole 
different world out here. What I see happening is an interest 
outside the agreement in other countries to try and develop a 
nuclear capability. We know about Iran, Iraq. We know that one 
of the motivating drives behind India and Pakistan, for 
example, is they wanted to become a nuclear power so that 
somehow or other they would have an enhanced image in the world 
when they come to the negotiating table.
    We have set limits on ourselves in this treaty of 1,700 to 
2,200. How do you view this treaty and the limits that we have 
placed in it as it compares to the progress of nuclear 
technology to the rest of the world? I know you cannot talk 
about specific numbers, but are Russia and the United States in 
their program so much further ahead that we do not have to 
worry about this for a century, or is it something that we do 
not have to concern ourselves with in the next decade or 5 
years? If you would give me a feel for that, I would appreciate 
it for the record. Both of you could comment.
    Secretary Rumsfeld. Yes, sir. Senator, when we went through 
the many months of consideration, study, thought, debate, and 
discussion with respect to our Nuclear Posture Review, we did 
not only look at the U.S.-Russia relationship. We looked at the 
entire world. We looked at the current situation. We looked at 
trend lines. We projected out. The number 1,700 to 2,200, that 
range, of course is not oriented simply to Russia. It is 
oriented to what we see as the likely circumstances going 
forward.
    The number, as small as it is relative to the current 
levels, is a large number. Seventeen hundred to twenty-two 
hundred operationally deployed strategic nuclear weapons is a 
lot. The number was selected because of our conviction that it 
would be desirable for us to be able to, in the first instance, 
reassure our allies that we had that capability and that they 
need not develop nuclear weapons; second, to leave no doubt in 
other countries' minds that it would not be in their interest 
to think they could sprint to parity or superiority. Our 
numbers are sufficiently large that to do that would require a 
substantial investment, a substantial period of time, and 
therefore we felt that the number was appropriate, taking into 
account our allies, potential adversaries, the entire world, 
the current situation, and the trend lines we see.
    Senator Allard. Now, when you put that together--and I will 
ask General Myers--was Russia considered as an ally or a 
potential adversary?
    Secretary Rumsfeld. Oh, no, Russia was considered for what 
it is, a country that is embarked on turning west, that has a 
very large number of nuclear weapons.
    Senator Allard. General Myers.
    General Myers. The only thing I would add to that, and I 
think it is very important, is that the term that came out of 
the Nuclear Posture Review, where we said we were going to be 
capabilities-based, not threat-based, pretty much exactly 
answers the description that the Secretary put on the Nuclear 
Posture Review.
    It really was capabilities-based. We did not focus on any 
one country, as we have in the past, frankly. So this is a new 
era.
    The other thing about the Nuclear Posture Review, it said 
it is not just nuclear weapons that provide for deterrence and 
our security posture. They are a very important part of it, and 
we testified to that today. But there is also our non-nuclear 
strike capabilities, which is in this new triad notion that 
came out of the Nuclear Posture Review. There are the defenses, 
both active and passive, and then there is the infrastructure, 
which is our intelligence capabilities, our command and control 
capabilities, the capabilities that DOE has, for that matter.
    As the Secretary said, a lot of that is in the budget that 
you have just looked at, and a lot of it will be in the 2004 
budget as well, because they all have to come together to give 
us the result we want, which is deterrence and national 
security.
    I would also add that the other thing I think that makes us 
very comfortable about all this is the flexibility inherent in 
the Moscow Treaty. The one cornerstone of that treaty is it 
provides great flexibility.
    Senator Allard. I do like the treaty, and I think it is a 
good starting point. Right now we have some nonproliferation 
programs with Russia. I think, if I remember correctly, they 
are close to a billion dollars in what the President suggested 
in his budget. One of the concerns that I have heard is how 
that program proceeds is not so much a factor of how many 
dollars we are putting in there, but the problem is access to 
Russian facilities. Apparently that is a major obstacle to the 
treaty nonproliferation efforts in Russia.
    Can you comment as to how we will work this treaty along 
the verification side if we have difficulty in accessing some 
of these facilities?
    Secretary Rumsfeld. Of course if you separate two things, 
one is the security of nuclear weapons, and the other is the 
nuclear threat, so to speak. We do have the START Treaty and 
verification regimes. We do have national technical means. We 
feel we can monitor within some range what is actually taking 
place with respect to their deployed weapons.
    With respect to their tactical nuclear weapons, their non-
deployed weapons, the weapons coming off production lines, the 
weapons in a queue waiting to be destroyed, the weapons they 
have in reserve, that is a very different thing. There is where 
your point becomes terribly important. There is no question but 
that Russia even today is not transparent. It is not clear. 
They do not allow access. They have a very secretive approach 
to a great deal of this.
    It is a concern, and there have been a great many people in 
Congress, in the Senate, in the House, and in the Executive 
Branch over a good many years who have invested a lot of money, 
the American taxpayers have invested a lot of money, trying to 
improve their security and improve their destruction process. 
There have been a great many meetings held and efforts made to 
improve transparency, and we will continue them. But we are a 
good distance from feeling comfortable.
    Senator Allard. I would like to join my colleague from 
Hawaii in the bilateral implementation commission. I think it 
provides a good opportunity for dialogue on how we can improve 
the discussion, continue with the discussions we have started 
already. Your answer indicated that those discussions would be 
going on at the highest level, secretaries of defense, 
secretaries of state, which I think is a good sign that both 
sides are going to take this seriously.
    There is not a lot of detail in this agreement. It is just 
a sentence stating that you are going to have the bilateral 
implementation commission. Have you given any thought about how 
these meetings will be run and the type of issues that may come 
up in these discussions?
    Secretary Rumsfeld. Well, Senator, there are really two 
pieces to this follow-on relationship. One piece was contained 
in the treaty and that is the bilateral commission. It is 
really not a negotiating forum. It is more a forum to monitor 
implementation of the treaty as such. The group you are 
referring to was actually established outside the treaty. It 
was established in a joint declaration that was issued 
simultaneously, I believe, and it is the one that provides for 
the meetings between the two ministers of defense and the two 
secretaries of defense which I indicated are going to start in 
September.
    Senator Allard. I see.
    Secretary Rumsfeld. That is where the substantive 
discussions with respect to verification, with respect to 
transparency, with respect to theater nuclear weapons, these 
other pieces of the relationship which are so important, will 
take place.
    Senator Allard. Who is going to make up the bilateral 
implementation commission? What level are we going to have 
there in that commission?
    Secretary Rumsfeld. I do not know that the level has been 
set. Let me just check. [Pause.]
    It would probably be at the ambassadorial level, as opposed 
to the under secretary or secretary level.
    Senator Allard. I see. My time has expired, Mr. Chairman. 
Thank you.
    Chairman Levin. Thank you very much, Senator Allard.
    Secretary Rumsfeld, one notable difference between this 
treaty and virtually every other arms control treaty is the 
withdrawal clause in Article IV. It says that either side may 
withdraw upon 3 months notice to the other side, but it does 
not mention anything about supreme national interest. Am I 
correct in assuming that the intention, though, is not to make 
it easy for either side to withdraw from the treaty for 
convenience or without due consideration, but it is intended, 
at least by us and hopefully by the Russians, that the 
withdrawal option would only be exercised if there were some 
serious change in the global security environment that 
compelled us to withdraw?
    Secretary Rumsfeld. Certainly the discussions that I have 
been involved in with respect to that clause would reflect that 
sentiment, that neither side is entering into a treaty lightly, 
and neither side would depart from the treaty lightly. It would 
have all kinds of implications politically and so forth.
    Assuming our two countries stay on the paths they are on, 
which are paths where our interests are converging rather than 
diverging, in the event the world circumstance were to change I 
would suspect that the two countries would sit down and discuss 
that. They would give a good deal of thought to the ways in 
which it has changed and how those changes conceivably might 
affect one or even both parties as the case might be, and there 
would be very thoughtful discussions about that. Certainly no 
one would depart from the treaty lightly.
    Chairman Levin. You made reference a number of times to the 
different approach that we and the Russians take toward the 
maintenance of nuclear weapons--right now they are assembling 
new weapons. We are not. Ours have longer life than theirs do. 
Does their assembly of new weapons create a security threat to 
us or put us at some disadvantage?
    Secretary Rumsfeld. Senator, I think the only way that 
question can be answered is if one looks at the totality of our 
activities. Clearly it is an asymmetry that they have an open 
production line and we do not, and one could make the case that 
that gives them an advantage. Is it an advantage that worries 
me? No.
    They also have weapons that last a shorter period. So it is 
quite logical they would have an open production line if they 
have weapons that are required to be moved out of the process 
for safety or reliability reasons.
    I think it is more useful to look at the totality of their 
circumstance and the totality of our circumstance, recognize 
there are a lot of differences and that we cannot expect to 
have perfect symmetry between what we are doing.
    Chairman Levin. Thank you.
    You made reference to our ability to rely on the START 
Treaty for the verification and transparency it provides. It 
expires, however, in 2009 and that then creates a 3-year gap 
between the expiration of that START Treaty and the date of 
implementation of the Moscow Treaty, which has no mechanisms at 
all for verification, transparency, or confidence.
    Would it make sense then to extend the START Treaty to 
continue those benefits that you have referred to at least 
until the Moscow Treaty takes effect, if not beyond?
    Secretary Rumsfeld. I guess that is a decision that others 
would have to make. But from my standpoint, it does not seem to 
me that it would be necessarily appropriate. I think that times 
are changing, and there may very well be various ways to 
achieve the kinds of transparency that would be appropriate 
between our two countries. My personal view is that we ought to 
sit down with Russia starting in September and get on with the 
task of looking at what kinds of transparency arrangements are 
appropriate.
    I also want to see that theater nuclear weapons are brought 
up on the table and talked about, again from the standpoint of 
transparency less than the standpoint of numbers or controls 
over them. But I guess I would not say that I think that would 
necessarily be a good idea. My guess is we will find better 
ideas than that.
    Chairman Levin. Hopefully you are right. If we do not find 
better ideas I would suggest you keep in mind the possibility 
of the extension of that treaty. At least it provides some 
verification and some confidence that otherwise would not exist 
unless you can negotiate or agree upon, whatever word you folks 
like--I guess you do not like ``negotiate.'' But in any event, 
whatever understanding you can reach relative to that would be 
helpful.
    Secretary Rumsfeld, you have again today indicated the 
heavy reliance that you place on missile defenses against long-
range missiles, arguing that a defense against long-range 
missiles would make us more secure, just as we have a defense 
against short-range missiles.
    A recent article in The Washington Post indicated that we 
are going to be telling the Indian Government that they should 
not deploy a missile defense system, that they should not be 
able to defend themselves against incoming missiles. Why are we 
opposing another country's efforts to deploy a missile defense 
system if we feel that a missile defense system to protect our 
homeland would make us more secure?
    Secretary Rumsfeld. I do not know the answer to your 
question. I also do not know that The Washington Post article 
is necessarily accurate. To the best of my recollection, I do 
not believe that that issue has been raised, at least to my 
level, within the administration. So it is not something that I 
have had a chance to really address.
    Chairman Levin. If it were accurate would you know about 
it?
    Secretary Rumsfeld. Oh, goodness. There are always going to 
be things that I am not going to know. Paul Wolfowitz handles 
any number of things. He attends all kinds of meetings, my 
deputy.
    Chairman Levin. I did not mean you personally. I meant the 
Defense Department.
    Secretary Rumsfeld. Oh, no. It may very well be that 
someone in the Department knows something I do not know. I 
certainly hope so. I hope they know a lot I do not know.
    Chairman Levin. I am not going there, I can assure you 
that. [Laughter.]
    Would you let us know for the record what the position of 
the administration is relative to India's, or any other 
country's, efforts to deploy a missile defense to give them the 
same kind of protection against incoming missiles that you feel 
will make us more secure? Can you give us that for the record?
    Secretary Rumsfeld. The what?
    Chairman Levin. What the administration position is on 
that, and also what your, here referring to the Department, 
role has been or will be in that decision?
    Secretary Rumsfeld. I will be happy to. If we have a 
position, I will be happy to give it to you, and I will give 
you a response in any event.
    [The information referred to follows:]

    The President's stated policy is to design missile defenses capable 
of protecting not only the United States and its forces, but also our 
friends and allies. Generally speaking, we believe missile defenses 
would be a stabilizing factor by dissuading offensive missile 
acquisition and discouraging attacks and by providing new defensive 
capabilities for managing crises. The Indian Government shares this 
view as evidenced by their support immediately after the President's 
May 1, 2001, speech at the National Defense University in which he 
outlined his new approach to deterrence. More recently, we have engaged 
in dialogue with India on the subject of missile defense. Our shared 
sentiments were reflected in the Joint Statement issued after the 20-23 
May 2002, meeting of the India-U.S. Defense Policy Group. Specifically, 
the statement says that the U.S. and India have ``reaffirmed the 
contribution that missile defenses can make to enhance cooperative 
security and stability.''

    I think that we are talking apples and oranges here. I 
think the earlier questions that related to missile defense 
were referring to ballistic missile defense and longer range. I 
think that I have a vague recollection that the system that 
India was interested in was the Arrow system, which was a 
system developed jointly between the United States and Israel, 
but it is basically an Israeli system, which is a shorter range 
ballistic missile defense.
    Chairman Levin. To give them a defense against missiles----
    Secretary Rumsfeld. Exactly.
    Chairman Levin.----that could reach their homeland. That is 
strategic defense for them.
    Secretary Rumsfeld. You bet.
    Chairman Levin. Or other countries, not just India.
    Secretary Rumsfeld. Yes.
    Chairman Levin. One final question, then I will be done, if 
Senator Warner would----
    Senator Warner. Oh, sure. The only thing I would ask, I 
think you raised a very important question which you have now 
clarified. It does relate to this article in the July 25 New 
York Times. But we should also as a part of the response, I 
would think, Mr. Chairman, want to know--the United States has 
made a major financial contribution toward the research and 
development of the Arrow system. We did it primarily with the 
thought in mind to help our friends in Israel defend 
themselves, given the lessons learned in the Gulf War.
    But if there is a sale, how does that relate to our dollar 
contribution? Indeed, we have before us in the conference a 
significant item for further support, which this Senator from 
Virginia has willingly supported. But it seems to me that is an 
ancillary question.
    Secretary Rumsfeld. Senator, I was just passed a note 
saying that the administration has not yet developed a view 
with respect to the Arrow system for India and that the 
discussion would more likely focus on technology transfer as 
opposed to the ability to defend oneself.
    Chairman Levin. I am more interested in the ability to 
defend oneself, frankly, the principle of it.
    Secretary Rumsfeld. Right.
    Chairman Levin. You have argued that we will be more secure 
being able to defend against incoming long-range missiles. We 
have defenses, and there has been strong support for defenses 
in terms of short-range missiles, protecting our troops and our 
allies. But the argument that has been debated relates to 
whether or not we will be more secure, whether the world will 
be more stable, if we install defenses against incoming long-
range missiles.
    Put aside that argument for the moment without rearguing 
that issue as to whether on balance unilateral deployment by us 
will make us more secure. Lay that aside because the 
administration argument is that the world will be more stable 
and that we have a right to defend ourselves against an 
incoming long-range missile. The question is: Do not any other 
countries have that same right?
    It is not the tech transfer issue that I am really into. I 
am into the principle of it.
    Secretary Rumsfeld. I understand.
    Chairman Levin. Do we have a right the other countries do 
not, and if so why? That is the question.
    Secretary Rumsfeld. I understand.
    Chairman Levin. Thank you.
    I do have one other question.
    Senator Warner. Sure, why do you not go ahead.
    Chairman Levin. I think I can complete it, and then I will 
call on Senator Warner. I know we have a vote coming. I do not 
want to use up all the time. I want to make sure you have 
enough time for what questions you have.
    Mr. Secretary, you have taken a very strong position 
against media leaks. I must tell you it is a position that I 
share. I find them astounding. One of, if not the most, 
astounding leaks I have ever seen is the leak that you are 
investigating now that relates to these alleged war plans.
    I guess the question is this: The FBI is investigating a 
leak which apparently came from somewhere in the intelligence 
committees, either the House or the Senate, not the war plan 
allegations, a different kind of a leak. Is the FBI going to 
investigate that war plan leak for you? I mean really going 
into it. The FBI is really looking into the intelligence 
committee leak. They are even talking about the possibility of 
doing lie detector testing.
    I just want to know if you are involving the FBI, if there 
is any accuracy to it--the fact that it appeared in the paper 
does not mean that there is such a plan that exists. I do not 
want to assume that. But since you have talked about looking 
into that leak, you have understandably expressed your outrage, 
and I totally agree with that outrage, will you involve the FBI 
in the investigation of that particular egregious leak?
    Secretary Rumsfeld. I asked the appropriate people in the 
Department to advise and initiate an investigation of the leak 
you are referring to. I am told that the Air Force has an 
investigative unit that is functioning as executive agent for 
that activity and they have initiated an investigation, and 
part of it was to request the FBI to step in and do the 
investigation.
    I am also told that the FBI has to make decisions about 
what they investigate and what they do not investigate, that it 
is not within the control of the Department of Defense. I 
suspect and hope that the FBI will decide that this is 
something that they do want to participate in. If they do not, 
why, I will probably encourage them.
    Chairman Levin. Would you let us know the outcome of this 
investigation?
    Secretary Rumsfeld. Indeed.
    Chairman Levin. Whatever that outcome is.
    Thank you so much.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Mr. Chairman, I think we have had an excellent hearing, and 
it is very important from the standpoint of the responsibility 
of this committee. We value greatly the work that has been done 
by the Foreign Relations Committee, and I think this hearing 
builds on those hearings such that we will have before the 
Senate an adequate record for each Member to reflect on as he 
or she casts this important vote with regard to advice and 
consent.
    Mr. Secretary, I think I can fire these questions rather 
quickly, and also your responses I think can be 
straightforward. At any time General Myers wishes to join, 
please do so.
    As we proceed with this historic reduction of weapons, 
there should be no perception that we should in any way lessen 
our approach led by our President toward strengthening missile 
defense capabilities in this country, limited missile defense 
programs, which he has initiated very boldly here during the 
course of the administration. Do you agree with me on that?
    Secretary Rumsfeld. I do.
    Senator Warner. General.
    General Myers. Yes, sir.
    Senator Warner. This committee has also dealt at length 
with the stockpile stewardship program and the reliability of 
our inventory. That program seems to grind on year after year, 
and I presume that it is your judgment progress is being made. 
Since we no longer do actual testing, we have to rely on 
substitutes to give us the same information to assure that our 
stockpile is reliable and that it is safe for the men and women 
of the Armed Forces and civilians who must handle it, and 
certainly those people that live in the environs of that 
stockpile should have the confidence that it is safely stored.
    That program receives no less emphasis, am I correct?
    Secretary Rumsfeld. You are correct. It is receiving 
emphasis, although it should be noted that there are from time 
to time things that occur that may involve corrosion, that may 
involve some other things as elements age in these weapons, and 
we have to be attentive to that. We have to be alert to the 
fact that we could very well arrive at a point where we are 
advised that there is some non-trivial problem with respect to 
safety or reliability.
    But we are attentive to it, and the Department of Energy 
is.
    Senator Warner. I think you and the General pointed out 
today that there are different approaches between Russia and 
the United States in strategic forces, namely they build that 
warhead to last for a period of time and, frankly, it is 
discarded, dismantled, or otherwise. We build ours to last for 
very long periods, in the hopes that we can just make minor 
modifications as technology comes along.
    That leads me to my next questions. The Moscow Treaty 
reductions are consistent with the force structure you defined 
in the Nuclear Posture Review, but the NPR also identified the 
need for improved missile defenses--you have mentioned that--
and the revitalization of nuclear weapons infrastructure. That 
means our ability to get into our existing operational weapons, 
and those that are in storage where it is necessary, and make 
those technical corrections to maintain their reliability.
    There is going to be no less emphasis on that, am I 
correct?
    Secretary Rumsfeld. No, and it is expensive. It is 
important that we make those investments and that we recognize 
the fact that these weapons will not last forever and that we 
have to manage them and exercise appropriate stewardship over 
them.
    Senator Warner. Now, how important is it that the United 
States maintain the ability to design and modify these nuclear 
weapons as we draw down?
    Secretary Rumsfeld. Senator, it is important that we have 
people who are trained, experienced, and capable of managing 
that process, as well as seeing that we are prepared, in the 
event we ever have to, to take the steps necessary to assure 
that we have the appropriate deterrent. As the people that have 
spent a good many years of their lives doing that age, retire, 
and leave the scene, it is important that there be sufficient 
activity, that new people are drawn into that process, and 
those skills and capabilities are transferred to them.
    Senator Warner. Mr. Secretary and General, in my next 
question I am going to depart from the subject matter before us 
here and bring up a subject which I have discussed privately 
with both of you from time to time and one which I have on 
several occasions over the past 6 weeks spoken on the floor of 
the Senate. Our distinguished colleague who has just joined us 
was the presiding officer when I addressed this subject late 
last night on the floor.
    It is my grave concern over the deteriorating situation in 
the Middle East and what further might be done to try and bring 
about a condition of stability, of cessation of hostilities, 
such that meaningful discussions can go on toward a lasting 
peace. It is a goal which you, Secretary Rumsfeld, have dealt 
with for a good deal of your career. At one time you were the 
President's special envoy in that region.
    Several things brought this to mind very vividly to this 
Senator. We celebrated the Fourth of July, and it was necessary 
and prudent for our President and others to notify this Nation 
of a heightened alert, and we thank God that nothing occurred 
on that weekend. Since that time we have seen a repetition of 
these suicide bombings, killing innocent persons in Israel. Now 
we are witnessing a tragic use of military equipment where 
there was loss of life of many children and innocent people in 
the pursuit of trying to destroy an individual or individuals 
which are clearly linked with this ongoing terrorism.
    But I am not here to try and resolve that. What I am saying 
is, are we considering all the options? I pose again here in 
open session the option that I have had of asking the NATO 
nations to consider whether or not their organization can be 
brought to bear under certain conditions to help provide 
stability. I am talking about an added peacekeeping role, such 
as they are doing now in the Balkan region.
    Should we not formally ask NATO to consider it from a 
political standpoint as well as a military standpoint? NATO is 
the one organization that has credibility in the world today, 
that is ready to roll, and has the proven track record of 
peacekeeping.
    Now, clearly certain conditions have to be established 
before they could be involved. One, a consensus among the NATO 
nations that this problem is of sufficient magnitude to affect 
their own vital security interests as it begins to spread and 
fester. Second, they would have to be literally invited by both 
the people of Palestine and the people of Israel through their 
respective elective leadership. So it has to be by virtue of 
invitation.
    There also has to be an expression by both Palestinian 
interests and Israeli interests that they will cooperate in 
every way possible to maintain peace and stability once those 
forces are in place.
    Once that is established, it seems to me a lot of support 
can flow to both sides to heal the wounds--economic assistance, 
food, medicine to the Palestinian people. Once that is seen by 
the people, I think it will bring about a cessation of those 
cells that want to continue to foster suicide bombings, and 
with the people of Israel, I think a great wave of relief that 
they can once again walk the streets and the cafes and live a 
life without fear. That would enable the diplomats, the leaders 
of both nations, to sit down and conscientiously work out a 
long-term peace arrangement.
    I think that that step should be looked at along with 
others. There may be better ideas. That is just one of this 
particular Senator. Others have talked about it, others have 
written about it. It is not entirely original with me. But I 
think I have spoken to it perhaps more than any other member of 
this body, in my firm belief that this very valuable asset of 
NATO can be brought to bear to bring about peace, and maybe the 
next Fourth of July there will be less hatred directed toward 
this Nation.
    We must not let an hour go by without studying what the 
root causes are of the anger that is being unleashed against 
the United States of America and our people. I think it is 
vitally important that we look at this.
    Europe is viewed as sympathetic to the Palestinian causes. 
The United States is viewed as sympathetic to the Israeli 
causes. That goes way back in history. But NATO bonds us as one 
unit, as it has for the 50-plus years of its existence, and we 
would go, not as the United States nor as Europe, but as NATO, 
solely to preserve the condition of peace and stability, with 
the cooperation of both sides, so that the talks can take place 
and hopefully bring about a cessation of hostilities.
    We cannot quantify the amount of anger generated toward 
this country from that dispute, but clearly that ongoing tragic 
chapter of killing and suffering is one of the root causes of 
the anger being directed toward our Nation today, necessitating 
a creation of a whole new Department of Homeland Defense, 
necessitating the creation of a new command authority under 
CINCNORTH, necessitating the barriers which guard every 
entrance to the Capitol buildings here in the United States, 
and all of the other steps that we are trying to take, whether 
it is in our airports or in our homes and cities and villages, 
to defend against terrorism.
    No idea should go unexamined. I hope that you place some 
credibility to it, at least enough to justify a study of this 
concept and determine whether or not it is a feasible one.
    I thank you for listening. If you have a response I would 
be pleased to receive it.
    Secretary Rumsfeld. Thank you very much. I appreciate 
having those thoughts.
    Senator Warner. Thank you.
    General.
    General Myers. No, sir.
    Senator Warner. Thank you.
    Chairman Levin. Senator Warner, let me first commend you on 
your continuing creative thinking, looking for solutions there.
    We want to leave a few minutes here for Senator Nelson, so 
I will, if it is all right, turn to him.
    Senator Warner. Thank you, Mr. Chairman. I appreciate it. 
Yes, of course.
    Chairman Levin. We have a vote coming up, I believe, in a 
few minutes. But I want to again thank you for raising an issue 
which should be on all of our minds at all times and applying 
your usual creative and constructive approach to looking for 
solutions.
    Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Good morning. You arrived apparently at the figure of 1,700 
plus out of a determination that that is what it would take to 
defend the interests of the United States. Can you share with 
us why?
    Secretary Rumsfeld. Yes, sir.
    Senator Bill Nelson. If we need to do that in a classified 
setting, then please so indicate.
    Secretary Rumsfeld. We can do it one way here and one way 
in a classified setting. But the fact is that the Chairman and 
I, the senior military leadership, the senior civilian 
leadership, the National Security Council, and over a period of 
time the President spent many months, the better part of a 
year, engaged in the Nuclear Posture Review analyzing the 
subject. We look not just at Russia or China or any country 
that currently has a nuclear weapon, but we looked at the 
world, we looked at trend lines, and we came to a judgment that 
the many thousands of weapons we currently have were not needed 
and that in fact we could make deep reductions down to a range 
of 1,700 to 2,200, and that we could do it regardless of what 
Russia did with their weapons.
    It was a number that was arrived at with an eye toward what 
currently existed and what conceivably might exist. It was a 
range that was arrived at as a way of reassuring our friends 
and allies that we have and will have the kind of capability 
necessary to provide a nuclear umbrella over them, which is a 
way of dissuading them from thinking they need nuclear weapons, 
which we do not believe they do; and second, a range that was 
designed to dissuade other countries from thinking that the 
number was so low that they could with a modest amount of 
effort race and achieve parity or even superiority.
    As low as 1,700 and 2,200 is compared to 6,000, it is still 
a substantial number of nuclear weapons.
    Senator Bill Nelson. Indeed it is, and I commend you for 
it.
    No doubt under the chairman's persistent questioning the 
concerns have been expressed about the fact that the warheads 
that will be taken off the ICBMs will not have been destroyed 
on either side. That issue has been addressed by the chairman. 
It is my understanding the chairman also addressed the question 
of the tactical nuclear weapons and the destruction of them. In 
this uncertain world of terrorism that we live in, I would like 
to further address the question of fissile material, if you 
would give us the value of your thoughts there for this 
committee.
    Secretary Rumsfeld. First to clarify the record here. You 
said they will not be destroyed. There will be weapons 
destroyed on both sides. There are weapons destruction programs 
that exist in Russia and there are weapons destruction programs 
that will exist here. So there will be some of them.
    Not all of them, as you properly point out, will be 
destroyed, nor should they. It would be irresponsible to 
recognize the reality that we could have safety and reliability 
problems with our stockpile and with our deployed weapons and 
have no open production line and no capability to replace 
unsafe or unreliable weapons. I cannot imagine anyone thinking 
that it would be desirable to reduce or eliminate or destroy 
all non-deployed weapons. It would be mindless to do that.
    The question of tactical nuclear weapons, theater weapons, 
you are quite right, we did discuss it. It is a worry. It is 
something that I raise at every meeting with the Russians. We 
have very little transparency into what they are doing. We do 
worry about the security of those weapons. The fact that they 
have many multiples more than we do does not concern me because 
they have a different circumstance than we do. But I do believe 
that we, as our relationship evolves, should gain better 
visibility into what they are doing.
    With respect to fissile material, it is something that the 
world best worry a great deal about, and there are enough 
countries with sizable appetites to develop nuclear weapons, 
with programs and people available to them from other countries 
who have competence and experience and knowledge in nuclear 
weapon development, the proliferation of those technologies 
among the so-called rogue states is extensive. One of the 
pacing items is fissile material and any movement of that to 
additional countries would indeed be a danger to the world.
    Senator Bill Nelson. Mr. Secretary, I appreciate your 
comments. With regard to the reduction of weapons from 6,000 to 
1,700, that is a reduction of over 4,000. How many of those are 
needed to be kept in reserve, as you just suggested, to 
replenish those that are actually deployed? Therefore, in an 
ideal world how many would you destroy of that 4,000 plus?
    Secretary Rumsfeld. That is a number that we are 
considering. It is not something that we will decide. It will 
not be a fixed number. It very likely will be a number that 
over the 10-year period of the treaty will change. It will 
depend on what we learn from a safety standpoint, what we learn 
from a reliability standpoint. It will depend on how much 
investment is made and how long it would take us to be capable 
of replacing weapons, since we do not have an open production 
line like the Russians.
    It also would be dependent on what we see evolving with 
respect to the world security, what the security environment 
is. It is hard to look at 3 or 4 years, let alone 8 or 10. But 
as we move down and reduce our deployed weapons, there is no 
question but that some will be destroyed and some will be 
stockpiled, and what the number will be we simply do not know 
yet.
    Senator Bill Nelson. Is it the intent of the administration 
that that will be the next item to negotiate with Russia, which 
is what you just said, the destruction of the warheads that you 
take off?
    Secretary Rumsfeld. No, it is unlikely. Each side has the 
flexibility to do that which they wish to do, the way the 
treaty is written. The most likely subjects for the United 
States and Russia it seems to me are transparency, 
predictability, theater nuclear weapons, but certainly not the 
destruction of weapons.
    We do worry about the security of weapons while they are 
waiting to be destroyed or while they are waiting to be 
redeployed or replace an unsafe or an unreliable weapon. That 
is discussed.
    Senator Bill Nelson. I certainly commend you on the 
direction it is going, and I think it is a great breakthrough 
which you have negotiated. I ask the obvious question, the 
question that is begged, which is if you have taken weapons off 
ICBMs that are also weapons that do not need to be in storage 
for replacement, why would it not be to the interest of all 
parties, including Russia, for an agreement to be reached to 
destroy those weapons?
    Secretary Rumsfeld. Because we do not need an agreement to 
destroy them. We are each going to destroy--no one is going to 
keep weapons they do not need. It costs a lot of money and 
there is plenty of demand for the funds that are supplied to 
the Russian military and the U.S. military. So you are not 
going to have any advocates that I know of, certainly not in 
the United States, desiring to keep weapons we do not need.
    The question is figuring out what the world is going to 
look like over the next decade and trying to look into the 
future and say that we have confidence that we are not going to 
have a whole class of weapons that are going to be unsafe. We 
could get the phone call tonight: We are very sorry, Mr. 
Secretary, but your stockpile is no longer safe or reliable, or 
this whole category is no longer safe or reliable. Well, that 
being the case, you darn well better have something you can 
replace it with.
    Senator Bill Nelson. Certainly, as you say, from the 
standpoint of the United States we would want to destroy some 
of those weapons. My concern, however, is looking at the old 
Soviet Union and the modern day Russia, what is in their 
interest? Unless there is an agreement to destroy with the 
United States, what is in their interest to destroy? Given the 
fact of the new world of terrorists that we live in, the less 
weapons out there in storage the less weapons there are for 
terrorists to get their hands on.
    Secretary Rumsfeld. Fair enough. Any country that has 
nuclear weapons or chemical or biological weapons has a 
responsibility to see that they are managed safely. There are 
always going to be weapons that are not deployed. Russia has no 
interest in keeping weapons around that are not useful to them. 
Their weapons age relatively rapidly compared to ours, as you 
know well. That means that they are more likely to use new 
production warheads than they are to use older warheads. They 
are more likely to use piece parts of disassembled older 
warheads that are still good and reassemble, I suspect.
    We do not know. We do not have any visibility into this. We 
know very little about what they are doing. We do not know 
their production rate. We do not know their destruction rate. 
We do worry about their security of them.
    But we know of certain knowledge that they are making new 
weapons, they are destroying weapons, they are holding weapons, 
and they are dismembering weapons. No matter what stage they 
are in, it is terribly important to all of us, including 
Russia, that they be managed in a secure way.
    Senator Bill Nelson. I certainly commend you. You are 
moving along in what most objective observers would consider 
the advancement of world peace. The note of caution that I 
raise is: is there not some discussion that should be started 
immediately upon the ratification of this treaty for the 
destruction of those weapons in the Russian arsenal that are 
not on top of their ICBMs? I add to that the tactical nuclear 
weapons as well as the fissionable material.
    The administration has come forth with a plan of 10 plus 10 
over 10, $10 billion from us, $10 billion from our allies, over 
10 years, a total of $20 billion. No less respected folks than 
Senator Baker and Mr. Cutler in issuing the Baker-Cutler report 
have said that at a minimum it should be $30 billion, and that 
is of the highest priority in the Baker-Cutler report in their 
conclusion of expenditures for protecting the interests of the 
United States.
    Would you comment, please, on that?
    Secretary Rumsfeld. Senator, I am not an expert on this 
piece of it. The Department of State, the Department of Energy, 
as well as the Department of Defense are involved in, I guess 
it is called the Cooperative Threat Reduction program.
    My recollection is--and I hope someone will correct me if I 
am wrong--that the taxpayers of the United States have already 
spent something like $4 or $5 billion over a period of some 
years for the destruction or management or security of Russian 
nuclear weapons and materials. I am familiar with the 10 plus 
10 over 10. What the right number is I do not know.
    I think it is important for all of the countries of the 
world to recognize that it is not just the United States that 
has the obligation to destroy Russian nuclear weapons. Russia 
has an obligation and they have to make priorities and choices, 
and they have people who are potentially every bit as 
vulnerable as anyone in the United States to the mismanagement 
or mishandling or lack of security of their weapons. But so too 
do the countries in Western Europe have an obligation or an 
interest.
    It seems to me that the 10 plus 10 that was negotiated, I 
believe up in Canada very recently, was a useful thing to do. 
Whether that is the right number, I cannot answer.
    Senator Bill Nelson. May I say in conclusion that what I 
have tried to articulate is of enormous concern to a number of 
the Members of this body, not the least of which are the 
Chairman of the Foreign Relations Committee and one of the 
senior members of that committee, Senator Lugar, whose name has 
been etched in the history of this institution, having teamed 
with Senator Nunn in trying to get their arms around the 
proliferation of nuclear weapons.
    I would encourage you that, from your standpoint of defense 
and protection of this country's interests, whenever you get 
into those councils of government discussing this, that the 
ultimate objective of lessening the proliferation possibility 
is of enormous consequence to this country. For what it is 
worth, I offer those thoughts to you, Mr. Secretary, and to 
you, Mr. Chairman.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Let me very simply say that I share Senator Nelson's point. 
When you read the Baker-Cutler report, as I have, it seems to 
me you have to really think about their conclusion that the 
greatest threat to our security is the proliferation of weapons 
of mass destruction and the presence of nuclear weapons and 
nuclear material on Russian soil because of the fact that they 
are unable to secure it to the extent that it should be 
secured. The contribution of Nunn-Lugar toward that end is 
critical.
    But nonetheless, the fewer nuclear weapons on Russian soil 
and elsewhere, the quicker they are destroyed rather than being 
stored, where they are much more readily available to theft or 
to leakage or to some kind of an illegal sale, the safer we are 
going to be.
    So there is a relationship between the number of nuclear 
weapons, whether they are destroyed or not, and the 
proliferation issue. The Russians apparently wanted to destroy 
weapons, not store them. We are the ones who decided that they 
should be stored, not destroyed, as I understand the 
discussions. I hope that over time, as Senator Nelson has 
expressed, that we will find ways to destroy weapons, not just 
store them. The world will be a lot more secure in my judgment 
and the proliferation threat reduced if we can not just see 
weapons stored on Russian soil, but actually see them destroyed 
and put the resources into it that we apparently need to 
contribute to make sure that, as long as those weapons are 
there, that they are secured. That goes as well to the chemical 
and biological issue.
    On the other hand, it is clear this treaty is a significant 
advance, and I think we all welcome it; we applaud it. We are 
grateful for your contributions to it, both of you. The 
perspective may be a little different on whether destruction or 
storage is a greater contribution to our security, but 
nonetheless the reduction in the number of deployed nuclear 
weapons is a plus. The treaty is moving us in the right 
direction, and not just in terms of nuclear weapons, but in 
terms of the relationship between ourselves and Russia, which, 
as you have pointed out, Secretary Rumsfeld, is so critically 
important, and this contributes to it in a very significant 
way.
    I hope, General, that we will continue to have military-to-
military relations with Russia that are continually expanded. 
We have had some good connections with them in Bosnia and other 
places, but that effort also will continue apace. They may not 
be a superpower now, but they have all of the ingredients to 
return to superpower status. They have huge numbers of nuclear 
weapons, they have all of the talent, capability, and resources 
that are needed for a return to that status, and your military-
to-military relationship is frankly just as important as the 
diplomatic discussions and relationship.
    We thank you both for your presence, for your contribution 
to this Nation's security, and we will stand adjourned.
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Thurmond
                    moscow treaty reduction schedule
    1. Senator Thurmond. Secretary Rumsfeld, although the ``Moscow 
Treaty'' requires both parties to reduce deployed strategic warheads to 
no more than 2,200 by 2012, there is no specific schedule to accomplish 
this task. What are the Department's plans for achieving the 2012 goal?
    Secretary Rumsfeld. The Moscow Treaty imposes no reduction 
timelines. Each party is free to carry out reductions in its own way, 
provided that it meets the required force level on the specified date.
    In terms of current U.S. planning, as the first step in reducing 
strategic nuclear warheads, the United States plans to deactivate 50 
Peacekeeper ICBMs from operational service, remove four Trident 
submarines from strategic service, and no longer maintain the 
capability to return the B-1 to nuclear service. In addition, Trident 
D-5 and Minuteman missiles will be downloaded and some bombs removed 
from heavy bomber bases to reduce the operationally deployed strategic 
force to approximately 3,800 weapons by 2007.
    Specific decisions about U.S. forces beyond 2007 have not yet been 
made. It is anticipated that reductions beyond 2007 will involve 
decreasing the number of operationally deployed strategic nuclear 
warheads on ballistic missiles and lowering the number of operationally 
deployed warheads at heavy bomber bases. These plans, however, will be 
periodically assessed and may evolve over time.

                   russia's plans to reduce warheads
    2. Senator Thurmond. Secretary Rumsfeld, what do you know about 
Russia's plans to reduce the number of warheads?
    Secretary Rumsfeld. Russia did not state during the negotiations 
how it intends to carry out its reductions, nor does the treaty require 
that any specific procedure be followed. We anticipate that our 
understanding of Russian plans will evolve as we move forward with 
implementing the treaty, including as transparency is enhanced through 
ongoing diplomatic consultations. I would note that the President's 
original decision to reduce the number of our operationally deployed 
strategic warheads was not dependent on any Russian decision to reduce 
their own nuclear forces, and that we believe Russia has compelling 
reasons of its own, unrelated to the Moscow Treaty, to wish to reduce 
to the 1,700-2,200 range or even lower.

        counting russian mirved warheads under the moscow treaty
    3. Senator Thurmond. Secretary Rumsfeld, some critics of the treaty 
state that it disadvantages the United States since it does not address 
MIRVs, which are one of Russia's strengths. How are MIRVed warheads 
counted under the Moscow Treaty?
    Secretary Rumsfeld. The Moscow Treaty will not place new 
restrictions on Russia's potential to deploy MIRVed ICBMs. It affords 
Russia the same force planning flexibility that we ourselves require. 
We are not overly concerned with hypothetical ``break-out'' scenarios 
(as we were during the Cold War), as shown by the fact that we intend 
to reduce to 1,700-2,200 warheads regardless of what the Russians do.
    Regardless of whether Russia retains its SS-18 or SS-19 ICBMs or 
builds a new MIRVed missile, Russia's deployment of MIRVs has little 
impact on U.S. national security under current conditions. The issue of 
Russian MIRVed ICBMs was considered in the Nuclear Posture Review and 
during the treaty negotiations. Since neither the United States and its 
allies nor Russia view our strategic relationship as adversarial, we no 
longer view Russian deployment of MIRVed ICBMs as destabilizing to this 
new strategic relationship.
    If Russia retains MIRVed ICBMs, it will be required to have fewer 
missiles than if each carried only one warhead. However, we do not 
believe that Russia will retain its current inventory of MIRVed ICBMs. 
Russia is already deactivating its 10-warhead rail-mobile SS-24 force 
for age and safety reasons. We expect that most of the SS-18 heavy 
ICBMs and six-warhead SS-19 ICBMs will reach the end of their service 
life and be retired by 2012. Ongoing diplomatic consultations should 
improve our understanding of how Russia plans to carry out its 
reduction obligations. We expect that continued improvement in our 
relationship with Russia will provide greater transparency into the 
strategic capabilities and intentions of each party.

      united states establishment of confidence-building measures
    4. Senator Thurmond. Secretary Rumsfeld, in a May 28, 2002, article 
Senator Joseph Biden wrote that the United States should establish 
confidence-building measures that would enable Russia to verify U.S. 
compliance with the treaty. He apparently is concerned that Russia does 
not have the means to verify our compliance with the treaty. Do you 
agree with the Senator's concerns? If not, why not?
    Secretary Rumsfeld. During the initial stages of the talks, we 
exchanged ideas about possible transparency measures. The ideas of each 
side were designed to implement the approach that it proposed the 
treaty take in defining reduction obligations. However, once both 
countries agreed that the treaty's reduction obligations should 
preserve the flexibility for each side to make reductions in its own 
way, it appeared to the United States that there was no immediate need 
to work out transparency measures applicable to this context. Among 
other things, START's verification measures would continue to be 
available for some time. Russia, too, agreed that the Moscow Treaty 
need not include such measures. Accordingly, no specific transparency 
measures were negotiated.
    We recognize that more contacts and exchanges of information could 
be useful and that the parties could decide to develop additional 
transparency in the future. However, we do not believe that any 
specific new transparency measures are needed in order to implement the 
Moscow Treaty.

                         verification of treaty
    5. Senator Thurmond. General Myers, compliance verification is a 
concern of both the proponents and opponents of the treaty. In your 
professional judgment, are you satisfied that both Russia and the 
United States have the means to verify compliance with the Moscow 
Treaty?
    General Myers. I agree with the assessment of the verification of 
the Moscow Treaty contained in the ``Moscow Treaty: The Determination 
Pertaining To Verification,'' submitted to Congress on June 24, 2002, 
by the Secretary of State (in accordance with Section 306 of the Arms 
Control and Disarmament Act). The Moscow Treaty was not constructed to 
be verifiable within the meaning of Section 306, and it is not. The 
Moscow Treaty recognizes a new strategic relationship between the 
United States and Russia based on the understanding that we are no 
longer enemies and that the principles which will underpin our 
relationship are mutual security, trust, openness, cooperation, and 
predictability. This understanding played an important role in our 
judgments regarding verification. Our conclusion was that, in the 
context of this new relationship, a treaty with a verification regime 
under the Cold War paradigm was neither required nor appropriate. 
START's verification regime, including data exchanges and inspections, 
will continue to add to our body of knowledge over the course of the 
decade regarding the disposition of Russia's strategic nuclear warheads 
and the overall status of reductions in Russia's strategic nuclear 
forces during the same period. We recognize, however, that more 
contacts and exchanges of information could be useful and that the 
parties could decide to develop additional transparency in the future. 
The Consultative Group on Strategic Stability (CGSS) will meet in 
September to begin this dialogue.

                    destruction of nuclear warheads
    6. Senator Thurmond. General Myers, although I understand that 
there are capacity limitations on our ability to dismantle warheads, is 
there a military necessity for not dismantling warheads?
    General Myers. Yes, there is a clear military necessity to not 
dismantle all our nuclear warheads. Storing non-operationally deployed 
nuclear warheads serves the United States interests in several ways. 
First, they provide a responsive capability against unanticipated 
changes in the international security environment. We need to retain 
the flexibility to meet significant unforeseen challenges. Second, we 
do not currently have the capability to produce nuclear warheads, but 
our Russian counterparts--and other nuclear powers--do. Therefore, 
stored warheads provide an operational reserve for surveillance and 
testing replacements. Third, stored warheads provide a hedge against a 
technical or catastrophic failure of a class of deployed warheads that 
could affect safety or reliability and, ultimately, our national 
security.
    The exact number of weapons to be stored has not yet been 
determined. However, the overall number of warheads in the stockpile 
will be comprised of operationally deployed warheads; spares and 
replacements to meet operational and surveillance testing requirements; 
the number of weapons required to hedge against future uncertainties; 
and a number to hedge against technical ``surprises'' that could render 
a complete warhead family unusable.

                      security of russian warheads
    7. Senator Thurmond. General Myers, although I believe Russia has 
the means to appropriately secure its ``operationally deployed'' 
warheads, I am concerned about those warheads that are in storage. What 
are your views on the security of Russia's nuclear warheads?
    General Myers. I believe, as Secretary Rumsfeld has stated, that 
any nation who possesses nuclear weapons has an obligation to properly 
manage those weapons, to include safe and secure storage. I fully 
support Cooperative Threat Reduction efforts to assist Russia in 
improving the safety and security of its non-deployed nuclear warheads. 
The United States is working to help Russia improve the security of its 
fissile material through DOE's Material, Protection, Control and 
Accounting (MPC&A) program and DOD's construction of a fissile material 
storage facility at Mayak and DOE's many MPC&A projects. We plan to 
also continue the support of the Cooperative Threat Reduction program 
when the Moscow Treaty is in force, regardless of Russia's decisions on 
how many warheads to eliminate. With assistance from the United States 
and other countries, Moscow has taken steps to reduce the risk of 
theft. Some risks remain even though Russia's nuclear security has been 
improving over the last several years.

    [Whereupon, at 11:50 a.m., the committee adjourned.]


     THE NATIONAL SECURITY IMPLICATIONS OF THE STRATEGIC OFFENSIVE 
                           REDUCTIONS TREATY

                              ----------                              


                        THURSDAY, AUGUST 1, 2002

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:00 a.m., room 
SD-106, Dirksen Senate Office Building, Senator Jack Reed 
presiding.
    Committee members present: Senators Lieberman, Reed, Bill 
Nelson, Bingaman, Warner, Inhofe, and Sessions.
    Committee staff members present: Christine E. Cowart, chief 
clerk; and Kenneth Barbee, security clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel, and Richard W. Fieldhouse, professional staff member.
    Minority staff members present: L. David Cherrington, 
minority counsel, and Brian R. Green, professional staff 
member.
    Staff assistants present: Leah C. Brewer, Daniel K. 
Goldsmith, and Thomas C. Moore.
    Committee members' assistants present: Frederick M. Downey, 
assistant to Senator Lieberman; Elizabeth King, assistant to 
Senator Reed; Peter A. Contostavlos, assistant to Senator Bill 
Nelson; John A. Bonsell, assistant to Senator Inhofe; Robert 
Alan McCurry, assistant to Senator Roberts; Arch Galloway II, 
assistant to Senator Sessions; and Derek Maurer, assistant to 
Senator Bunning.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. The hearing will come to order. The Senate 
Armed Services Committee meets today to continue its hearings 
on the military and national security implications of the 
Strategic Offensive Reductions Treaty (SORT). The hearing this 
morning will consist of two panels.
    On the first panel, we are pleased to have Charles Curtis, 
former Deputy Secretary of Energy and currently the President 
and Chief Operating Officer of the Nuclear Threat Initiative, 
and Dr. Ashton Carter, formerly the Assistant Secretary of 
Defense for International Security Policy and currently the 
Ford Professor of Science and International Affairs at 
Harvard's John F. Kennedy School of Government. Gentlemen, it 
is a pleasure to welcome you back to the committee today.
    On the second panel, we will hear from Admiral James Ellis, 
Commander in Chief of the Strategic Command, and Dr. Everet 
Beckner, Deputy Administrator for Defense Programs of the 
National Nuclear Security Administration.
    Previously, the committee heard testimony concerning the 
Strategic Offensive Reduction Treaty from Secretary Rumsfeld 
and General Myers. As a follow-on to that hearing, we wanted an 
opportunity to discuss the treaty and the broader context of 
U.S.-Russian relations with witnesses outside of the 
administration. Each of you has had substantial experience with 
nuclear weapons and materials issues from both policy and 
practical perspectives. We look forward to hearing from you on 
the SORT and getting your views on a variety of issues, 
including the role of nuclear weapons in U.S. national security 
policy, current and future nonproliferation efforts, the future 
course of U.S.-Russian relations, and other topics.
    The SORT has no timetable for implementation, and no 
milestones against which to measure and verify progress. 
Neither does the treaty use or define the term ``deployed 
strategic offensive nuclear weapons.'' These are the weapons 
that will be reduced by the United States. Similarly, the 
treaty does not define what weapons are to be reduced by Russia 
or establish any timetable for those reductions.
    As we discussed in our hearing last week, there are a 
number of uncertainties associated with this treaty, including 
its implications on the size of the stockpile and the future of 
nuclear weapons.
    However, the treaty is an important symbolic element of our 
improving relationship with Russia. How the United States and 
Russia view each other militarily is an important question. 
These views could drive, in a large or small way, U.S. nuclear 
planning and stockpile concerns, or they might have no impact 
at all. This treaty is a starting point for shaping the future 
nuclear weapons stockpile and further arms control, as well as 
an important boost to our relationship with Russia.
    But there is much more work to be done to continue 
improving mutual security with Russia, work that includes 
further reducing nuclear weapons and nuclear proliferation 
dangers, and improving confidence, transparency, and 
cooperation with Russia.
    We will conclude the first panel and proceed to the second 
panel at approximately 10:15. We will start the second panel in 
open session and then move to a closed session in SR-222, 
Russell Senate Office Building.
    Senator Bingaman, do you have any opening comments?
    Senator Bingaman. Mr. Chairman, I do not, other than to 
welcome the witnesses. I look forward to their testimony.
    Senator Reed. Mr. Curtis and Dr. Carter, your prepared 
statements will be included in the record.
    Mr. Curtis.

 STATEMENT OF CHARLES B. CURTIS, PRESIDENT AND CHIEF OPERATING 
               OFFICER, NUCLEAR THREAT INITIATIVE

    Mr. Curtis. Thank you, Mr. Chairman and Senator Bingaman. 
As you introduced me, I am the President of the Nuclear Threat 
Initiative, which is a charitable organization dedicated to 
reducing global threats from nuclear, chemical, and biological 
weapons. The Strategic Offensive Reductions Treaty, which is 
sometimes referred to as the Treaty of Moscow, is a truly 
remarkable document. I believe that it deserves the Senate's 
endorsement. It should be ratified without amendment or, in my 
judgment, without reservation.
    But this treaty's true value is not so much in its 
substance, which is sparse; its only legally binding part 
deferred to the next decade. Indeed, its value is best seen in 
the joint statement issued by Presidents Bush and Putin and the 
foundation that the ancillary document provides for 
transforming the U.S.-Russian relationship today and in the 
years to come. So I would like to address my remarks today to 
the steps required to bring about that transformation.
    Former Senator Nunn, testifying last week before the Senate 
Foreign Relations Committee, called the Moscow Treaty ``a good 
faith treaty.'' It relies on an expressed faith in the common 
vision of our leaders and in our two nations' closely parallel 
strategic force plans. I agree that a treaty built on faith can 
survive only by building on common interests and gaining the 
trust that comes from transparency. If you never see someone do 
what they say they will do, trust cannot grow. When trust 
cannot grow, suspicions soon will, so I believe this treaty 
must be followed with milestones and transparency mechanisms to 
track progress.
    While we are working on these trust-building transparency 
measures, we must also work with urgency with Russia to ensure 
accurate accounting and security of Russia's tactical nuclear 
weapons. Indeed, gaining such accurate accounting and assured 
security of these weapons will be the first serious test of the 
new U.S.-Russian relationship.
    We simply don't know with specificity how many tactical 
nuclear weapons the Russians have, where they are, or how 
secure they are. These weapons, as this committee knows, are 
small enough to be man portable and powerful enough to destroy 
a small city. In an age of terrorist threats, this dangerous 
gap must be closed at the earliest possible date. The United 
States and Russia should at the same time move to revise the 
Cold War operational status of our nuclear forces.
    President Bush spoke on this potentially dangerous 
situation more than 2 years ago as a candidate for President. 
Decrying what he called another unnecessary vestige of Cold War 
confrontation, he said, ``the United States should remove as 
many weapons as possible from high alert, high trigger status. 
For two nations of peacekeeping, so many weapons on high alert 
may create unacceptable risks of accidental or unauthorized 
launch. As President, I will ask for an assessment of what we 
can safely do to lower the alert status of our forces.'' Mr. 
Chairman, I doubt the assessment that candidate Bush called for 
has yet to be presented to President Bush. The recently 
conducted Nuclear Posture Review, at least by public accounts, 
dealt almost entirely with force structure issues and did not 
separately discuss the alert conditions of weapons, or at least 
options with respect to the alert conditions of weapons. 
Similarly, the Treaty of Moscow does not explicitly address 
operational conditions, but does so by indirection.
    The U.S.'s use of the term ``operationally deployed 
weapons'' to describe its commitments under the treaty implies 
an extension of today's high alert conditions at least until 
2012, and perhaps for the indefinite future. Is this a 
potential risk for this Nation that it is willing to bear? This 
committee knows, I believe, that this is a special concern of 
Senator Nunn. It was when he chaired this committee. It remains 
in his capacity as co-Chairman of the initiative on CERT, so 
what may be done? Here's what Senator Nunn has suggested:
    First, the President can and should direct the immediate 
standdown of the forces as they become identified for reduction 
under the treaty. This has a noble precedent. George Herbert 
Walker Bush, when President in 1991, did the same thing on the 
occasion of the signing of the first Strategic Arms Reduction 
Treaty (START).
    Second, our two presidents should direct their military 
leaders to meet and return in the near future with a developed 
set of options to begin to stand down the remaining nuclear 
forces to the maximum extent possible consistent with the 
national security interests of each country. This is important 
because the more time we build into our process for launching 
missiles, the more time is available to gather data, exchange 
information, gain perspective, and discover or avoid a mistake. 
If we were smart enough at the height of the Cold War to be 
able to begin reducing weapons, surely in the second decade 
after the end of the Cold War we can be smart enough to find a 
way to expand decision time with no loss of security. It is at 
least worth a serious look.
    Third, our two presidents should sweep away the 
bureaucratic impediments to getting the Joint Early Warning 
Center up and running. Countering the deterioration of Russia's 
early warning and protection capability is in the security 
interest of both countries. We must get on with the job.
    Now, let me also say a word about the issue of warhead 
dismantlement, which has been discussed in the Senate Foreign 
Relations Committee and also before this committee. The treaty 
does not require the dismantlement or destruction of warheads 
or delivery systems. There are no force size limits in the new 
treaty, only limitations on operationally deployed forces.
    Eventually, under the evolving U.S. security relationship, 
I expect we will need to address the actual size on our 
respective strategic forces. Beginning with the dismantlement 
of excess warheads we can begin this objective, build trust, 
and also serve the larger goal of giving the world community 
greater assurances that the United States and Russia are 
actually reducing their forces. If asked, the Department of 
Energy probably could set out an explicit schedule for 
beginning the dismantlement of excess weapons. But we must 
understand that while we can and should begin the dismantlement 
process, the development of a bilateral warhead dismantlement 
regime would be quite challenging, testing our available 
technologies and classification barriers. It is a task that 
must be examined in the context of U.S. strategies and plans 
for maintaining the stockpile into the future in the absence of 
a full warhead production capability.
    I note here that Russia maintains multiple nuclear warhead 
production facilities, while the U.S. currently has none still 
operating. This asymmetry poses an inherent structural 
complication for the negotiation of a 4-month dismantlement 
regime. Therefore, while I agree that both sides should get 
about the job of dismantling excess weapons, I don't believe 
that securing an agreement on warhead dismantlement rises to 
the same level of urgency as the other issues I have just 
mentioned. Moreover, many of the treaty's specific compliance 
issues discussed before the committee do not rise to the same 
level of urgency of other issues at play in U.S.-Russian 
dynamic, such as ensuring the security of weapons materials and 
weapons know how and the destruction of chemical weapons and 
biological weapons facilities.
    The critical job in Cooperative Threat Reduction (CTR) 
started by this committee under Nunn-Lugar and extended in 
Nunn-Lugar-Domenici must be unlocked, refocused, and 
accelerated. Following through on this urgent agenda has to be 
at the heart of U.S.-Russian security relationship. Expanding 
on this agenda to engage a global coalition in the fight 
against catastrophic terrorism is the next essential step in 
realizing the full province of the real Russian-U.S. security 
relationship. Should we fail to take this last and most 
important step in providing for our security future, all 
semblance of security will be lost.
    September 11, if it taught us anything, taught us this: the 
number of innocent people al Qaeda is willing to kill is not 
limited by any political considerations or any spark of human 
conscience. Their compassion for killing is limited only by the 
power of the workings they have. We must keep the world's most 
deadly weapons out of their hands. We know that terrorists are 
seeking weapons of mass destruction. We also know where they 
are looking to find them. In the post-Soviet period, Russia's 
dysfunctional economy and eroded security systems combined to 
undercut controls on the stocks of weapons, materials, and 
know-how inherited from the Cold War. This dysfunction 
increased the risk that they can throw to terrorist groups or 
hostile forces. Considerable progress and improvements have 
come through the Nunn-Lugar program and its projects, but we 
have a long way to go in Russia still. Moreover, the 
vulnerabilities reach well beyond Russia, and well beyond other 
parts of the Former Soviet Union.
    Last May, in the immediate aftermath of the summit, former 
Senator Nunn and Senator Lugar co-hosted a conference of 
Russian and American legislators, officials, and experts. 
Senators Nunn and Lugar used this point in time to call for a 
new effort to finish the job of CTR in Russia and the Former 
Soviet Union, and to extend its principles beyond the United 
States and Russia to include the whole world with Russia and 
the United States linked in partnership sharing best practices 
and lessons learned. They called it the Global Coalition 
Against Catastrophic Terrorism. In Senator Lugar's words, ``we 
have to make sure that every nation with nuclear, biological, 
or chemical weapons capacity accounts for what it has, puts in 
securities for what it has, and pledges that no other nation 
will be allowed access. This security first agenda has to 
energize the global coalition.''
    We should include every nation that has something to 
safeguard or that can make a contribution to safeguarding. This 
vision we seek received dramatic endorsement with the recent G-
8 announcement that its member states were establishing a 
global partnership against catastrophic terrorism and combining 
for this purpose a $10 billion commitment from the United 
States with a $10 billion pledge from the G-8 partners over the 
next 10 years. I applaud President Bush's leadership and 
success in achieving this pledge to unified action.
    One of the most essential next steps in the U.S.-Russian 
relationship, therefore, is to make the G-8 commitments real, 
to follow up with diplomatic rigor and resources, and to begin 
to extend that partnership beyond the G-8. Mr. Chairman, the 
whole world is engaged in a new arms risk. Terrorists are 
racing to acquire nuclear, chemical, and biological weapons and 
we must together race to stop them. Reducing the numbers of 
U.S.-Russian deployed or deployable strategic forces is 
important. The Treaty of Moscow is important, and it should be 
ratified. But if we are to have a secure future, we must first 
win the race against catastrophic terrorism, and we must win it 
on a global scale.
    It is my hope that the Treaty of Moscow will be remembered, 
therefore, more as a hinge of the U.S.-Russian relationship, 
not an end point, but a turning point, leading towards a 
transformed security relationship. If it serves this purpose, 
and propels us on the course of action outlined above, it will 
be truly historic and worthy of history's praise. Thank you.
    [The prepared statement of Mr. Curtis follows:]
                Prepared Statement by Charles B. Curtis
    Mr. Chairman and members of the committee: thank you for inviting 
me to offer my views on the national security implications of the 
Strategic Offensive Reductions Treaty (sometimes also referred to as 
the Treaty of Moscow) and discuss with you the opportunities it creates 
to build a safer world.
    I appear before you as the President of the Nuclear Threat 
Initiative (NTI), a charitable organization dedicated to reducing the 
global threats from nuclear, biological, and chemical weapons. NTI is 
co-chaired by former Senator--and former chairman of this committee--
Sam Nunn and CNN founder Ted Turner. Two of your colleagues, Senators 
Richard Lugar and Pete Domenici, sit on our Board as do two members of 
the Russian Duma, former Deputy Defense Minister Andrei Kokoshin and 
former Ambassador Vladimir Lukin.
    The testimony I offer today, however, represents my own views and 
has not been cleared with our board.
    The Strategic Offensive Reductions Treaty that Presidents Bush and 
Putin signed in Moscow in May to reduce by two-thirds by 2012 the 
operationally deployed nuclear weapons on both sides is truly a 
remarkable document. I believe it deserves the Senate's endorsement. 
But this treaty's true value is not so much in its substance, which is 
admittedly sparse; its only legally binding part deferred to the next 
decade. Instead, its value is best seen in the joint statement issued 
by the two Presidents and the foundation this ancillary document 
provides for transforming the U.S.-Russian relationship today and in 
the next years to come. So I would like to address my remarks today to 
the steps required to bring about that transformation.
    Former Senator Nunn, testifying last week before the Senate Foreign 
Relations Committee, called the Moscow Treaty a ``good-faith treaty.'' 
It relies on an expressed ``faith'' in the common vision of our leaders 
and in our two nations' closely parallel strategic force plans. I agree 
with that characterization. This treaty, unlike its predecessors, does 
not have an elaborate text born of suspicion, but ten sentences based 
on trust. Yet I believe a treaty built on trust can survive only with 
continued investment in the trust relationship by building on common 
interests, and gaining the trust that comes from transparency. If you 
never see someone do what they say they will do, trust cannot grow. 
When trust cannot grow, suspicions soon will.
    What matters most is what happens next. As Sam Nunn has pointed 
out, ``if this treaty is not followed with substantive actions, it will 
become irrelevant at best--counterproductive at worse. A good faith 
treaty, without follow-up, means that if relations improve, the two 
sides may not need it. If relations turn bad, the two sides may not 
(plan to) honor it.''
    So I believe this treaty must be followed with milestones and 
transparency mechanisms to track progress on the way to 2012. Toward 
that end, it's important that the Department of Defense develop and 
make public at the earliest possible date its own plans for reducing 
our ``operationally deployed'' forces under this treaty. Russia should 
do the same with its forces, and then both nations should follow with 
agreed mechanisms specifically designed to allow both sides to monitor 
these reductions. It is not, and will not, be enough for inspectors and 
site visitors under START I to look over their shoulders and try to see 
what's happening on the Russian or the U.S. side to build down forces 
to meet the Treaty of Moscow commitments. Moreover, as the committee 
has heard, even this indirect method of monitoring this treaty will be 
lost in the last 3 years when START I expires.
    We should act quickly in the Consultative Group for Strategic 
Security to fill in these blind spots.
    While we are working out these trust-building transparency 
measures, we must work with Russia to ensure an accurate accounting and 
the security of Russia's tactical nuclear weapons. Tactical nuclear 
weapons have never been covered in any treaties or agreements--and that 
is an ongoing, decades-long mistake that we must correct immediately. 
We don't know with any specificity how many tactical nuclear weapons 
the Russians have, where they are, or how secure they are. These are 
weapons small enough to be man-portable and powerful enough to destroy 
a small city. In an age of terrorist threats, this dangerous gap must 
be closed at the earliest possible date.
    The United States and Russia should at the same time move to revise 
the Cold War operational status of our nuclear forces. Today, the 
United States and Russia have thousands of nuclear weapons on high 
alert, the great bulk of which are ready to launch within minutes--
essentially the same posture we had throughout the Cold War.
    President Bush spoke of this dangerous situation more than 2 years 
ago as a candidate for President. Decrying what he called ``another 
unnecessary vestige of Cold War confrontation,'' he said `` The United 
States should remove as many weapons as possible from high-alert, hair-
trigger status. For two nations at peace, keeping so many weapons on 
high alert may create unacceptable risks of accidental or unauthorized 
launch. As President, I will ask for an assessment of what we can 
safely do to lower the alert status of our forces.''
    I doubt that the assessment that candidate Bush called for has yet 
to be presented to President Bush. The recently conducted Nuclear 
Posture Review--at least by public accounts--dealt almost entirely with 
force structure issues and did not separately discuss the alert 
conditions of the weapons. Similarly, the Treaty of Moscow does not 
explicitly address operational conditions, but by indirection, it does. 
The U.S. side's use of the term ``operationally deployed weapons'' to 
describe its commitments under the treaty implies an extension of 
today's high alert conditions at least until 2012 and perhaps for the 
indefinite future. As significant as the arms reduction numbers in the 
treaty are, the world envisioned for 2012--two decades after the end of 
the Cold War--is a world where the U.S. and Russia would still 
collectively maintain several thousand nuclear weapons on high alert. 
To echo President Bush's earlier quoted words: ``For two nations at 
peace, keeping so many weapons on high alert may create unacceptable 
risks of accidental or unauthorized launch''--with the most 
catastrophic of consequences, I might add. As Sam Nunn has long 
advocated, we must take steps to reduce this danger. So what are the 
next steps to take in this area?
    First, the President can and should direct the immediate standdown 
of the forces identified for reduction under the new treaty. Such an 
action has a respected and successful precedent. President George 
Herbert Walker Bush ordered a similar standdown of nuclear forces in 
1991, when he directed the military to unilaterally standdown the 
forces scheduled for reductions under the START I Treaty he had just 
signed. The Russians soon followed this action with a reciprocal 
commitment.
    Second, our two Presidents should direct their military leaders to 
meet and return in the near future--say 3 months from now--with a 
developed set of options to begin to standdown the remaining nuclear 
forces deployable within the Treaty of Moscow cap levels to the maximum 
extent possible consistent with the national security of both 
countries. This is important because the more time we build into our 
process for launching missiles, the more time is available to gather 
data, exchange information, gain perspective, discover an error, or 
avoid a mistake. Expanding nuclear decision time may require still 
unidentified force structure changes, deployment changes, and other 
approaches. It is sure to be a complicated undertaking, but if we were 
smart enough at the height of the Cold War to be able to begin reducing 
nuclear weapons in a verifiable way, surely in the second decade after 
the end of the Cold War we can find a way to expand decision time with 
no loss of security.
    Third, our two Presidents should sweep away the bureaucratic 
impediments to getting the Joint Early Warning Center up and running. 
Countering the deterioration of Russia's early warning and detection 
capability is in the security interest of both countries. We must get 
on with the job.
    Let me also say a word about the issue of warhead dismantlement, 
drawing upon my past governmental experience. The treaty does not 
require the dismantlement or destruction of warheads or delivery 
systems. There are no ``force size'' limitations in the new treaty, 
only limitations on ``operationally deployed forces.'' Senators from 
both sides of the aisle have been right to raise questions about this 
matter. Eventually, under the evolving U.S.-Russian security 
relationship, we will need to address the actual size of our respective 
strategic forces. Beginning the dismantlement of excess warheads can 
contribute to this objective, build trust, and also serve the larger 
goal of giving the world community greater assurance that the U.S. and 
Russia are actually reducing their forces. In the near-term, the 
symbolism of the act is probably even more important than the actual 
numbers of warheads destroyed. If asked, the Department of Energy 
probably could set out an explicit schedule for beginning the 
dismantlement of some excess weapons. Certainly, some level of excess 
warhead elimination is already a part of the Department of Defense and 
the Department of Energy's planning process.
    But we must understand that while we can and should begin the 
dismantlement process, the development of a bilateral warhead 
dismantlement regime will be quite challenging, testing our available 
technologies and classification barriers. It is a task that must be 
examined in the context of U.S. strategies and plans for maintaining 
the stockpile into the future in the absence of a full warhead 
production capability. I note here that Russia maintains multiple 
nuclear warhead production facilities while the U.S. currently has none 
still operating. This asymmetry poses an inherent structural 
complication to the negotiation of a formal dismantlement regime. 
Therefore, while I agree that both sides should get about the job of 
dismantling excess weapons, I don't believe that securing an agreement 
on warhead dismantlement rises to the same level of urgency as other 
issues. It is a logical next step if the two sides are eventually to 
get to agreed force size limitations, but the time frame for action is 
somewhat long term and certainly less immediate than that required for 
the securing of tactical weapons and for reducing the alert status of 
our remaining nuclear forces. Any ranking of next steps and any 
guidance the Senate may wish to give on the subject should reflect this 
ordering of priorities.
    Moreover, many of the treaty specific compliance issues discussed 
before the committee do not rise to the same level of urgency of other 
issues at play in the U.S.-Russian dynamic, such as ensuring the 
security of weapons materials and weapons know how and the destruction 
of chemical weapons and biological weapons facilities. The critical job 
in CTR started by this committee under Nunn-Lugar, and extended in 
Nunn-Lugar-Domenici, must be unblocked, refocused, and accelerated. 
Following through on this urgent agenda has to be at the heart of the 
U.S.-Russian relationship. Expanding on this agenda to engage a global 
coalition in the fight against catastrophic terrorism is the next 
essential step in realizing the full promise of the new Russian-U.S. 
security relationship. Should we fail to take this last and most 
important step in providing for our security future, all semblance of 
security could be lost.
    September 11, if it taught us anything, taught us this: the number 
of innocent people al Qaeda is willing to kill is not limited by any 
political considerations, or any spark of human conscience--their 
capacity for killing is limited only by the power of their weapons. We 
must keep the world's most deadly weapons out of their hands.
    I am afraid far too many do not understand how immediate the danger 
is. Many Americans are aware that Osama bin Laden has said acquiring 
weapons of mass destruction is ``a religious duty.'' But fewer 
understand how far bin Laden has come in pursuing his so-called duty. 
According to reports in the last several months, the following evidence 
of al Qaeda activity has been uncovered since Taliban and al Qaeda 
forces fled Afghanistan:

        <bullet> Rudimentary diagrams of nuclear weapons were uncovered 
        at a suspected safe house for al Qaeda in Kabul confirming that 
        al Qaeda was exploring ways to make low-grade, nuclear devices;
        <bullet> Material that could be used to make a radiological 
        bomb was found in an underground al Qaeda base near Kandahar;
        <bullet> Documents that include details of a biological and 
        chemical weapons program were uncovered at another al Qaeda 
        safe house;
        <bullet> At the same site, a memo was discovered, apparently 
        written by bin Laden's number two, saying: ``the destructive 
        power of (biological) weapons is no less than that of nuclear 
        weapons;'' and
        <bullet> Finally, a June 1999 memo was discovered by the Wall 
        Street Journal on the hard-drive of a computer left in Kabul by 
        al Qaeda. It recommended that the al Qaeda biological weapons 
        program seek cover and talent in educational institutions, 
        which the memo said ``allow easy access to specialists, which 
        will greatly benefit us in the first stage, God willing.''

    We need to remind ourselves that these are just the documents they 
left behind that we have recovered. We don't know what they took with 
them, nor what they left behind that we have not found.
    At the same time, we know not only that terrorists are seeking 
weapons of mass destruction. We also know where they are looking to 
find them.
    As the committee is well aware, 10 years ago, when the Soviet Union 
broke apart, it left a mind-numbing legacy of more than 20,000 
strategic nuclear warheads, and enough highly enriched uranium and 
plutonium to make 40,000-60,000 more, stored in over 250 buildings in 
more than 50 sites distributed throughout the Russian Federation across 
11 time zones.
    Unofficial estimates of Russia's tactical nuclear weapons vary from 
3,000 to 20,000 weapons, some of which pack the destructive power of 
the bomb dropped on Hiroshima. As I said before, these weapons have 
never been the subject of arms control regimes and are largely 
unaccounted for. Russia also has 40,000 metric tons of chemical weapons 
awaiting disposition. The Shchuchye storage site alone houses almost 2 
million rounds of chemical weapons--any one of which could be carried 
away in a suitcase and every one of which is potent enough to take 
hundreds and perhaps thousands of lives and create terror. Russia also 
has an elaborate bio-weapons apparatus, and thousands of scientists who 
know how to make weapons and missiles, but no longer have secure jobs 
or secure futures.
    In the post-Soviet period, Russia's dysfunctional economy and 
eroded security systems combined to undercut controls on these weapons, 
materials, and know how--and increased the risk that they could flow to 
terrorist groups or hostile forces. Considerable improvements have come 
through the Nunn-Lugar program, but we have a long way to go in Russia. 
Moreover, the vulnerabilities reach well beyond Russia and other parts 
of the Former Soviet Union.
    Last May in Moscow, former Senator Nunn and Senator Lugar co-hosted 
a conference of Russian and American legislators, officials, and 
experts. The Moscow conference marked the 10-year anniversary of Nunn-
Lugar CTR. Nunn and Lugar used this point in time to call for a new 
decadal effort to finish the job in Russia and the Former Soviet Union 
and to extend the principles of CTR beyond the United States and Russia 
to include the whole world, with Russia and the United States linked in 
partnership, sharing best practices and lessons learned. They called it 
a ``Global Coalition Against Catastrophic Terrorism.'' The approach was 
described by Senator Lugar some months ago in the Washington Post: ``We 
have to make sure that every nation with nuclear, biological, or 
chemical weapons capacity accounts for what it has, secures what it 
has, and pledges that no other nation or group will be allowed 
access.'' That simply stated mission should energize the world 
community and provide the core basis for transforming the U.S.-Russian 
security relationship.
    A Global Coalition Against Catastrophic Terrorism must be grounded 
on the central security realities of our new century: First, the 
greatest dangers are threats all nations face together and no nation 
can solve on its own. Second: The most likely, most immediate threat is 
terrorist use of weapons of mass destruction. Third: The best way to 
address the threat is to keep terrorists from acquiring nuclear, 
biological, and chemical weapons.
    How difficult it is for terrorists to acquire a nuclear weapon 
depends on how difficult we make it. It becomes obvious from analyzing 
the terrorist path to a nuclear attack that the most effective and 
least expensive way to prevent nuclear terrorism is to secure weapons 
and materials at the source. Acquiring weapons and materials is the 
hardest step for the terrorists to take, and the easiest step for us to 
stop. By contrast, every subsequent step in the process is easier for 
the terrorists to take and harder for us to stop. Once they gain access 
to materials, they've completed the most difficult step. That is why 
defense against catastrophic terrorism must begin with securing weapons 
and materials in every country and every facility that has them. A 
single point failure in security anywhere in the world can have the 
gravest of effects.
    Members of the Global Coalition Against Catastrophic Terrorism 
would include every nation that has something to safeguard or that can 
make a contribution to safeguarding it, including our European allies, 
Japan, China, India, Pakistan, and the many nations that host research 
reactors using weapons-grade fuel.
    Each member could make a contribution to the coalition's activities 
commensurate with its capabilities. As with the coalition against al 
Qaeda, this coalition would extend to wherever weapons of mass 
destruction exist or might be made and wherever terrorist cells exist 
that might build them, steal them, or use them. The cooperation would 
extend from prevention, to include detection, protection, interdiction, 
and response.
    This vision received a dramatic endorsement with the recent G-8 
announcement that its member states were establishing a global 
partnership against catastrophic terrorism and combining for this 
purpose a $10 billion funding commitment from the U.S. with a $10 
billion pledge from our G-8 partners over a 10-year period. I applaud 
President Bush's leadership and success in achieving this G-8 pledge to 
unified action to combat catastrophic terrorism. Importantly, the G-8 
commitment includes Russia in a full partnership role and acknowledges 
that the most immediate and urgent work must begin in Russia. One of 
the most essential next steps in the U.S.-Russian relationship, 
therefore, is to make the G-8 commitments real, to follow up with 
diplomatic rigor and resources, and to begin to extend the partnership 
beyond the G-8 members.
    To make the most of this opportunity to improve our security and 
build a wider partnership against catastrophic terrorism, it is useful 
to think of the whole world as being engaged in a new arms race. 
Terrorists are racing to acquire nuclear, chemical, and biological 
weapons, and we must be racing together to stop them. Reducing the 
numbers of U.S.-Russian deployed or deployable strategic forces at some 
point in our still distant future is important. The Treaty of Moscow is 
important and should be ratified. But if we are to have a future and be 
secure in that future, we must first win the race against catastrophic 
terrorism--and we must win it on a global scale.
    It may be difficult to find champions for the most urgent and 
pressing priority of building a global effort to prevent catastrophic 
terrorism. If you pursue it and succeed completely, it won't make 
anyone's life better, it will just keep millions of lives from becoming 
infinitely worse. That is not the kind of message political leaders 
like to highlight or voters like to hear. But, this is too serious an 
issue for the standard political calculus. In the end, Mr. Chairman, we 
all should imagine the awful aftermath of a terrorist nuclear attack on 
the United States and imagine, if it happened, what steps we would wish 
we had taken to prevent it. Then we should take those steps without 
delay.
    It is my hope that the Treaty of Moscow will be remembered more as 
a hinge in the U.S.-Russian relationship; not an end point, but a 
turning point, leading to a transformed security relationship. If it 
serves this purpose and propels us on the course of action outlined 
above, it will truly be historic and worthy of history's praise.
    Thank you.

    Senator Reed. Thank you very much, Mr. Curtis.
    Dr. Carter.

STATEMENT OF DR. ASHTON B. CARTER, FORD FOUNDATION PROFESSOR OF 
 SCIENCE AND INTERNATIONAL AFFAIRS, JOHN F. KENNEDY SCHOOL OF 
                 GOVERNMENT, HARVARD UNIVERSITY

    Dr. Carter. Thank you, Senator. It is a privilege to be 
here and to offer you my views on the Moscow Strategic 
Offensive Reductions Treaty. On one hand, it is easy to do, 
because I, like virtually every other witness who has appeared 
before Senate committees deliberating this matter, support the 
treaty. I do so on the basis that it provides for the United 
States to make changes in our nuclear forces that are desirable 
anyway--on cost and strategic grounds--and does not require us 
to change our military capabilities in significant ways. The 
treaty, therefore, doesn't require us to make any difficult 
tradeoffs in our own capabilities for those required in the 
Russian Federation.
    On the other hand, the treaty is correspondingly modest in 
terms of the limits it places on the Russians. Senator Nunn has 
pointed this out most elegantly in his recent testimony before 
the Foreign Relations Committee, and I think Charlie Curtis has 
as well in the statement he just made.
    SORT addresses only a small subset of the overall Russian 
nuclear capability, namely strategic weapons. It is silent on 
the larger and more dangerous portion of the Soviet nuclear 
legacy: tactical weapons, nuclear weapons, and fissile 
materials. As far as strategic forces are concerned, as Senator 
Nunn pointed out, it addresses numbers and is silent on hair-
trigger operational practices. I would be pleased to answer 
questions about the SORT to the best of my ability, but there 
is another dimension of this issue that I would like to address 
squarely.
    The SORT, while it makes a net contribution to our 
security, positive in sign though small of magnitude, does not 
point to the future or to the nuclear danger that most 
threatens the Nation's security. That danger is the potential 
acquisition by terrorists of nuclear weapons or fissile 
materials, either from Russia or elsewhere. It has been a full 
decade since the problem of loss of custody of nuclear weapons 
or fissile materials replaced deterrence of Moscow as the 
central objective of nuclear policy.
    I was privileged to participate in the early deliberations 
that led Senators Dick Lugar and Sam Nunn to create the Nunn-
Lugar CTR program--deliberations in which I remember Senator 
Bingaman also being centrally involved. I later led that very 
program at the Pentagon, and I conducted the Clinton 
administration's Nuclear Posture Review with my counterparts in 
the Joint Staff. We concluded even then, 8 years ago, that 
traditional arms control is no longer the central tool for 
dealing with the nuclear danger to the United States. The 
Nuclear Posture Review instead focused on stabilizing a chaotic 
Russia, expanding the Nunn-Lugar program, and ensuring that of 
all the successor states to the Soviet Union only Russia ended 
up with all the Soviet Union's nuclear weapons.
    While traditional arms controllers criticized that at the 
time, events have born out that it was the correct focus. By 
any measure, the Nunn-Lugar program has been a tremendous 
success. In May, I had the privilege of accompanying Senators 
Lugar and Nunn together with Representatives John Spratt and 
Chris Shays to sites in Russia where nuclear, chemical, 
biological, and ballistic missile threats are being 
systematically safeguarded or eliminated altogether. Senator 
Bingaman, I would also add, accompanied the other senators and 
representatives in the early part of that trip. His schedule 
didn't permit him to travel to all of the sites.
    These projects that we saw in May were just a gleam in our 
eyes a decade ago. Now they are mature engineering projects. At 
the G-8 summit, President Bush took an important step in 
gaining pledges of other nations, which have just as much at 
stake as we do in the so-called 10 plus 10 over 10 plan, and I 
applaud that. But in a move that defies all understanding, the 
Bush administration has taken a step that is bringing these 
projects to a screeching halt.
    This administration has failed to make the certifications 
required by Congress, certifications that were made every year 
by the Bush senior and Clinton administrations. This move 
occurs 2 months after President Bush claimed that a new era in 
U.S.-Russian relations has begun and 2 months after he signed 
the new treaty. It occurs 11 months after al Qaeda proved that 
there are no limits to its destructive urges, and considers 
acquisition of nuclear weapons and other weapons of mass 
destruction, in bin Laden's words, ``a religious duty.'' It 
occurs 10 months after President Bush declared that keeping the 
most dangerous weapons out of the hands of the most dangerous 
people to be his highest priority. This certification mistake 
must be corrected quickly.
    I understand that Senators Lugar and Levin have made some 
progress in finding interim solutions to this problem. As 
Senator Lugar has said, the engineers and program managers 
running these valuable programs should not be made to suffer 
the ``perils of Pauline'' every year. Russia is the largest 
potential source of loose nuclear weapons and fissile material 
for terrorists, but it is not the only one. Pakistan and India 
built nuclear arsenals to deter their neighbors, but Pakistan's 
political future, at the very least, is as uncertain as 
Russia's was when the Soviet Union was crumbling.
    Less well recognized is that scores of nations--from Serbia 
to Ghana--have research reactors fueled by highly enriched 
uranium in bomb-capable quantities. Plutonium remains in North 
Korea, though under U.S. and international observation, and 
even non-nuclear allies such as Japan and Belgium have large 
repositories of weapons capable plutonium as a by-product of 
their nuclear power program. These caches of fissile material 
around the world pose an unacceptable long-term risk to human-
kind. Each is a sleeper cell of potential mass terrorism. Once 
a terrorist fashions a bomb, a device like that will be 
extremely difficult to detect.
    I noticed, by the way, on the basis of my service on the 
National Academies of Science panel, which recently reported 
its results on science and technology as they apply to 
terrorism, that a bomb would be very difficult to detect as it 
passes through international borders and shipping containers. 
Unlike its dangerous cousin bioterrorism, nuclear terrorism 
cannot be countered with vaccines or antibiotics. Once the 
material gets out, it is probably too late. The simple 
technical fact is that nuclear terrorism can only be 
effectively prevented at the source.
    Nature, however, has not been totally unkind. Only 
governments have produced uranium and plutonium. All these 
materials are accordingly in the possession of governments, and 
whatever their disagreements about the arsenals in their 
possession, all governments should have a profound common 
interest in ensuring that these materials do not fall into the 
hands of terrorists. The Preventive Defense Project at Harvard 
and Stanford, which I co-chair with former Secretary of Defense 
William Perry, has in an impressive reprise of their invention 
of CTR a decade ago, promoted the concept of a global coalition 
against catastrophic terrorism. The coalition concept takes its 
cues from the coalition against al Qaeda, and involves all 
governments that perceive the common interests of keeping 
fissile material away from terrorists, especially those that 
have bomb-capable materials. It also calls for including Japan, 
China, India, Pakistan, and the many nations I mentioned 
earlier that host reactors using nuclear weapons capable fuel.
    The coalition would seek to extend the reach of its 
activities wherever in the world the means of nuclear terror 
are harbored. The Nuclear Threat Initiative, as Charlie Curtis 
mentioned earlier, sponsored a conference in Moscow, on May 27, 
for American and Russian experts to define a specific agenda of 
activities. I have appended the report of that conference and a 
summary that I wrote to the Washington Post, and I would 
request that both be entered into the record.
    Senator Reed. Without objection.
    [The information referred to follows:]
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Dr. Carter. The agenda called for action in prevention, 
detection, protection, interdiction, and cleanup. For nuclear 
terrorism, it focused on the following actions: first, 
establishing common world class standards for inventory 
control, safety, and security for weapons and weapons usable 
materials, standards of the kind worked out between Russia and 
the United States in the Nunn-Lugar program; second, 
establishing progressively stronger measures of transparency to 
demonstrate to others that the standards are being met; third, 
providing assistance to those who need help in meeting the 
coalition standards, the Nunn-Lugar program; fourth, 
cooperating to provide effective border and export controls 
regarding nuclear materials; and fifth, devising cooperative 
procedures to define and regain control of bombs or fissile 
materials if they are lost or seized by terrorists. One 
possibility is a coalition version of the U.S. Department of 
Energy's Nuclear Emergency Search Team (NEST); sixth, planning 
and researching cooperative responses to a nuclear or 
radiological explosion if, God forbid, one occurs, such as 
mapping the contaminated area, addressing mass casualties, 
administering public health measures or iodine pills, and 
cleaning up contaminated soil; and seventh, cooperating on 
forensic radio-chemical techniques to find the source of a 
nuclear incident from its residue.
    Mr. Chairman, members of the committee, it is clear to most 
of us that the SORT agreement upon which you are deliberating 
is probably the last of its kind. Its only parties are Moscow 
and Washington. It covers only deployed strategic forces, which 
were of paramount importance during the Cold War, but are but a 
tip of the nuclear iceberg, and I would suggest that the 
concept of a Global Coalition Against Catastrophic Terrorism as 
I have described, and Charlie Curtis described as well, is the 
seed of the arms control of the 21st century.
    The coalition concept addresses the single most urgent 
problem of international security. It just might provide a big 
tent for governments that have not participated in much arms 
control of the 20th century style--China, India, and Pakistan--
since it is grounded in a deep and obvious common interest. The 
United States and Russia should join and spearhead the 
coalition. Moreover, doing so would be a fitting next step 
after the SORT; and unlike the SORT, the new coalition concept 
would provide Presidents Bush and Putin with an opportunity to 
give substance to their oft-spoken desire to move to a 
qualitatively new phase in relations.
    The coalition approach would open up a new and vitally 
important front on the war on terrorism. It would extend the 
principles of the successful Nunn-Lugar program in a new way 
from nuclear materials in Russia to nuclear materials 
worldwide, from a U.S. funded program to wider international 
participation, and from a focus on putting the Cold War behind 
us to focusing on the 21st century's most riveting security 
problem. Thank you.
    [The prepared statement of Dr. Carter follows:]
               Prepared Statement by Dr. Ashton B. Carter
    Mr. Chairman and members of the committee, it is a privilege to 
appear before you to offer my views on the Moscow Treaty on Strategic 
Offensive Reductions Treaty (SORT).
    On the one hand, it is easy to do so: I, like virtually every other 
witness that has appeared before Senate committees deliberating on the 
treaty, support it. I do so on the basis that the treaty provides for 
us to make changes in our nuclear forces that are desirable anyway on 
cost and strategic grounds, and it does not constrain our capabilities 
in militarily significant ways. The treaty therefore does not require 
us to make any difficult tradeoffs of our own capabilities for those 
required of the Russian Federation. In terms of the limits it places on 
the Russian arsenal, the treaty is correspondingly modest. Former 
Senator Sam Nunn has pointed this out most elegantly in his recent 
testimony before the Foreign Relations Committee. SORT addresses only a 
small subset of the overall Russian nuclear capability--deployed 
strategic weapons. It is silent on the larger and more dangerous 
portion of the Soviet nuclear legacy--tactical nuclear weapons, reserve 
weapons, and fissile materials. As far as the strategic forces are 
concerned, Senator Nunn also pointed out that SORT addresses only 
numbers and is silent on ``hair-trigger'' operational practices.
    I would be pleased to answer questions about the SORT to the best 
of my ability. But there is another dimension to this issue that I 
would like to address squarely. The SORT, while it makes a net 
contribution to our security--positive in sign if small in magnitude--
does not point to the future or to the nuclear danger that most 
threatens the Nation's security. That danger is the potential 
acquisition by terrorists of nuclear weapons or fissile materials, 
either from Russia or elsewhere.
    It has been a full decade since loss of custody of nuclear weapons 
or fissile materials replaced deterrence of Moscow as the central 
objective of U.S. nuclear policy. I was privileged to participate in 
the early deliberations that led Senators Dick Lugar and Sam Nunn to 
created the Nunn-Lugar CTR program. I later led that very program in 
the Pentagon. I conducted the Clinton administration's Nuclear Posture 
Review with my counterparts in the Joint Staff. We concluded even then, 
8 years ago, that traditional arms control was no longer the central 
tool for dealing with nuclear danger to the United States. The Nuclear 
Posture Review instead focused on stabilizing a chaotic Russia, 
expanding the Nunn-Lugar program, and on ensuring that only Russia 
ended up with all the Soviet Union's nuclear weapons. While traditional 
arms controllers criticized that focus at the time, events have borne 
out that it was the correct focus.
    By any measure, the Nunn-Lugar program has been a tremendous 
success. In May I had the privilege of accompanying Senators Lugar and 
Nunn, together with Representatives John Spratt and Chris Shays, to 
sites in Russia where nuclear, chemical, biological, and ballistic 
missile threats are being systematically safeguarded, or eliminated 
altogether. These projects were just a gleam in our eyes a decade ago, 
and now they are mature engineering projects. At the G-8 summit, 
President Bush took an important step in gaining the pledges of other 
nations who have just as much at stake as we do to contribute to the 
Nunn-Lugar program, in the so-called ``10 plus 10 over 10'' plan.
    In a move that defies all understanding, however, the Bush 
administration has taken a step that is bringing these projects to a 
screeching halt. This administration has failed to make the 
certifications required by Congress, certifications that were made 
every year by the Bush Sr. and Clinton administrations. This situation 
occurs 2 months after President Bush proclaimed a ``new era'' in U.S.-
Russian relations and 2 months after he signed the new SORT arms 
control treaty whose implementation would be accelerated by Nunn-Lugar; 
it occurs 11 months after al Qaeda showed there are no limits to its 
destructive urges and considers acquisition of nuclear weapons ``a 
religious duty;'' it occurs 10 months after President Bush declared 
that keeping the most dangerous weapons out of the hands of the most 
dangerous people to be his highest priority. The certification mistake 
must be corrected, and quickly. I understand that Senators Lugar and 
Levin have made some progress in arranging an interim solution to this 
problem, and I hope Congress and the administration can find a more 
lasting solution. As Senator Lugar has said, the engineers and program 
managers running these valuable programs should not be made to suffer 
the ``perils of Pauline'' every year.
    Russia is the largest potential source of ``loose'' nuclear weapons 
and fissile materials for terrorists, but it is not the only one. 
Pakistan and India have built nuclear arsenals to deter their 
neighbors, but Pakistan's political future, at the very least, is as 
uncertain as was Russia's when the Soviet Union was crumbling and the 
Nunn-Lugar program was begun. Less well recognized is that scores of 
nations from Serbia to Ghana have research reactors fueled by highly 
enriched uranium. Plutonium remains in North Korea, though under U.S. 
and international observation. Even non-nuclear allies such as Japan 
and Belgium have repositories of weapons-capable plutonium as a 
byproduct of their nuclear power programs.
    These caches of fissile materials around the world, we now must 
realize, pose an unacceptable long-term risk to humankind. Each is a 
``sleeper cell'' of potential mass terrorism. Once a terrorist fashions 
a bomb, a device will be extremely difficult to detect as it passes 
through international borders in, say, shipping containers. Unlike its 
dangerous cousin bioterrorism, nuclear terrorism cannot be countered 
with vaccines or antibiotics. Once the material gets out, it is 
probably too late.
    The simple technical fact is that nuclear terrorism can only be 
effectively prevented at the source. But here Nature has been kind. 
Highly enriched uranium and plutonium are difficult and conspicuous to 
produce. Only governments have done so to date, and all these materials 
are accordingly in the possession of governments. Whatever their 
disagreements about the arsenals in their possession, all governments 
should have a profound common interest in ensuring that these materials 
do not fall into the hands of terrorists.
    The Preventive Defense Project at Harvard and Stanford has 
therefore worked to elaborate a concept put forward by Sam Nunn and 
Dick Lugar, in an impressive reprise of their invention of CTR a decade 
ago--the concept of a Global Coalition Against Catastrophic Terrorism.
    The coalition concept takes its cues from the coalition against al 
Qaeda. The coalition would contain all governments that perceive the 
profound common interest of keeping fissile materials away from 
terrorists, especially those that have bomb-capable materials to 
protect or that can make a contribution to safeguarding it, including 
Europe, Japan, China, India, Pakistan, and the many nations that host 
research reactors using weapons-capable fuel. Each member could make 
contributions to the coalition's activities commensurate with its 
capabilities and traditions. The coalition would extend the reach of 
its activities wherever in the world the means of nuclear terror seek 
harbor.
    The Nuclear Threat Initiative sponsored a conference in Moscow on 
May 27, 2002, where American and Russian experts defined a specific 
agenda of activities for the coalition. I have appended the report of 
that conference and a summary of the concept I wrote for The Washington 
Post to this statement, and I would request that both be entered into 
the record with my statement. The agenda called for a global coalition 
to combat terrorism in all phases--prevention, detection, protection, 
interdiction, and cleanup--focused on the following actions:

        <bullet> Establishing common, ``world-class'' standards for 
        inventory control, safety, and security for weapons and 
        weapons-usable materials--standards of the kind worked out 
        between Russia and the United States in the Nunn-Lugar program.
        <bullet> Establishing progressively stronger standards of 
        transparency, to demonstrate to others that standards are being 
        met.
        <bullet> Providing assistance to those who need help meeting 
        the coalition's standards.
        <bullet> Cooperating to provide effective border and export 
        controls regarding nuclear materials.
        <bullet> Devising cooperative procedures to find and regain 
        control of bombs or fissile materials if they are lost or 
        seized by terrorists. One possibility is a coalition version of 
        the U.S. Department of Energy's Nuclear Emergency Search Team 
        (NEST)--a ``global NEST.'' Another possibility is to agree to 
        facilitate deployment of national NEST teams, in the way that 
        many nations deploy canine search teams to earthquake sites to 
        search for survivors.
        <bullet> Planning and researching cooperative responses to a 
        nuclear or radiological explosion, such as mapping the 
        contaminated area, addressing mass casualties, administering 
        public health measures like iodine pills, and cleaning up 
        contaminated soil.
        <bullet> Cooperating on forensic radio-chemical techniques to 
        find the source of a nuclear incident from its residue.

    Mr. Chairman and members of the committee, it is clear to most of 
us that the SORT agreement upon which you are deliberating is probably 
the last of its kind. Its only parties are Moscow and Washington. It 
covers only deployed strategic forces, which were of paramount 
importance during the Cold War but are but a tip of the nuclear 
terrorism iceberg. I would suggest that the concept of a Global 
Coalition Against Catastrophic Terrorism is the seed of the arms 
control of 21st century.
    The coalition concept addresses the single most urgent problem of 
U.S. national security and international security. It just might 
provide a ``big tent'' for governments that have not participated much 
in ``arms control'' of the 20th century style--especially China, India, 
and Pakistan--since it is grounded in a deep and obvious common 
interest. If the United States and Russia jointly spearhead the 
coalition, it would be a fitting next step after the SORT and would 
provide Presidents Bush and Putin with an opportunity to give substance 
to their oft-spoken desire to move to a ``qualitatively new'' phase in 
relations.
    The coalition approach would open up a new and vitally important 
front in the war on terrorism. It would extend the principles of the 
successful Nunn-Lugar program in a new way--from nuclear materials in 
Russia to nuclear materials worldwide, from a U.S.-funded program to 
wider international participation, and from a focus on putting the Cold 
War behind us to focusing on the 21st century's most riveting security 
problem.
    Thank you.

    Senator Reed. Thank you very much, Mr. Curtis and Dr. 
Carter, for your excellent testimony. Let me ask a few 
questions and turn to my colleagues. First, with regard to the 
SORT, you both realize that in its deliberations the Senate can 
include conditions and understandings in the resolution of 
ratification. I wonder if there is anything that you would 
suggest either at this moment or if you need some time in 
writing that might be properly included as a condition or 
reservation or statement with respect to the SORT. Mr. Curtis?
    Mr. Curtis. Mr. Chairman, I think I will take that 
opportunity to submit it to the record.
    [The information referred to follows:]

    Witness declined to respond in writing to the committee.

    Senator Reed. Dr. Carter.
    Dr. Carter. Mr. Chairman, I may give that some additional 
thought, but one thing that comes to mind immediately that I 
mentioned in my statement is that implementing this treaty on 
the Russian side will be facilitated and accelerated by the 
Nunn-Lugar program. It does seem to me that solving this 
problem with certifications, which has so unfortunately held 
things up this year and giving some permanent disposition to 
that matter, ought to be part of the deliberation surrounding 
this treaty.
    Senator Reed. Following up on that, Dr. Carter, with 
respect to the failure to certify, can you illuminate from your 
own perspective what is going on?
    Dr. Carter. I have the following impression, which is from 
the outside looking in, and that is that the senior leadership 
of the administration was in fact surprised to find that this 
move had been taken. It arose at lower levels, and left them in 
a situation where big projects that are under way, buildings 
being built, sites being cleared, arsenals being prepared to 
enter into the facilities where the weapons will be destroyed, 
all this was coming to a halt because somebody did not feel a 
certification that had been made for 10 consecutive previous 
years could be made this year. It is also my understanding that 
the senior leadership is trying to get on top of it, but that 
is a view from the outside looking in.
    Senator Reed. Thank you, Dr. Carter. One of the aspects of 
the SORT of concern, and again I think it is quite clear that 
it will be virtually unanimously adopted, is the presence of 
reversibility. It is so easy to do nothing for any number of 
years and simply let the treaty lapse. Any thoughts about 
things that might be done to make these reductions in warheads 
difficult to reverse? Mr. Curtis.
    Mr. Curtis. Senators, in my formal testimony I suggested 
that we should identify the forces that we intend to schedule 
for meeting the reductions in the treaty, and that should be a 
transparent document and planned for and monitored through the 
transparency mechanisms that are yet to be developed under the 
Bilateral Implementation Commission. I think that the Senate 
could expect to see that schedule laid out and transparency 
mechanisms put in place.
    I would hope that the Senate would avail itself of the 
understandings authority in its treaty ratification 
responsibility, rather than making more formal reservations to 
the treaty. I also think, as I called for in other testimony, 
that we could lay out specific warheads and an explicit 
schedule for this matter. If that were laid out, I think it 
would help to build confidence in the relationship between the 
two nations, and in the larger sense, give the world community 
some assurance that both sides are actually reducing their 
strategic forces. The vocabulary in this treaty is, of course, 
curious, because it talks about reductions of arms, but the 
substance of the treaty does not require that. It only 
addresses operationally deployed weapons. There are two ways of 
getting real meaning to reductions of arms. One of those is to 
get about the dismantling process, and the other is to lay out 
the schedule of how you are going to meet this treaty in a 
transparent way. This is necessary so that the treaty is not a 
single point in time some 12 years distant, but a treaty that 
ushers in a plan that will build down these forces in the 
interim between now and 2012.
    I think that would help both sides trust that we are 
actually serious about the intentions stated in this treaty, 
which are very elegantly stated in what I call the vision 
statement that is the joint statement of the two presidents 
that will come between the treaty.
    Senator Reed. Dr. Carter.
    Dr. Carter. Two thoughts very briefly; first is that Mr. 
Curtis suggested, and I wholeheartedly concur, that it will be 
valuable for both sides to do what we arranged in the START I 
context in the early 1990s, something called early 
deactivation, whereby one undertakes to take off alert 
immediately weapons slated for elimination under the treaty.
    In our system, and, we learned, in the Ukrainian and 
Kazakhstani systems through the Nunn-Lugar program, once you 
deactivate, you stop maintenance and life extension programs 
and you put yourself on a glide slope where it becomes more and 
more difficult to have the weapon's life preserved.
    The second thing, of course, is that if we continue the 
Nunn-Lugar program, and continue to eliminate strategic 
launchers the way we have done in Russia, that is a pretty 
dramatic demonstration of irreversibility. I was in Kartaly, 
Russia in May, and as I mentioned earlier we used 3,000 pounds 
of explosives under the Nunn-Lugar program to blow up an SS-18 
silo, and I will tell you it looks pretty irreversible even 
from half a mile away on a viewing stand. You get that because 
you have an understanding with the Russians and an agreement 
which provides for it. You get it because you have some rules 
in START for what destruction means. Above all, you get it 
because you are in a cooperative mode under the Nunn-Lugar 
program and you get to do it with your own hands and watch it 
with your own eyes.
    Senator Reed. Thank you very much.
    Senator Bingaman.
    Senator Bingaman. Thank you very much. Let me summarize 
what I have gleaned in terms of concrete steps that we, our 
administration, and our government could be taking right now to 
actually follow through in dealing with some of these difficult 
problems. One is the certification that is required under Nunn-
Lugar. That could be fixed today if the will were there in the 
White House to fix it.
    Second, is the publishing of the schedule of how we are 
going to go ahead and comply with SORT. That is something that 
we should be doing unilaterally, urging the Russians to do the 
same thing unilaterally, but there is no requirement as I 
understand it under SORT for some kind of mutual negotiation 
before that occurs. Am I right about that?
    Mr. Curtis. That is my understanding, Senator.
    Senator Bingaman. So we could be publishing a schedule 
about how we are going to go forth complying with SORT. A third 
item that both of you mentioned is that President Bush could do 
what his father did and order the immediate stand down of 
forces that have been identified for reduction as soon as we 
make that schedule or publish that schedule of reduction, which 
I think would be a very positive step. Mr. Curtis, you referred 
to the possibility of us moving ahead with dismantlement of 
excess weapons, and you indicated the Department of Energy 
probably could set out an explicit schedule for beginning the 
dismantlement of some excess weapons. Could you elaborate on 
the extent of the excess weapons you believe might be promptly 
considered for dismantlement, both on our side and on the 
Russian side, and any obstacles to getting this done if the 
will were there to do it?
    Mr. Curtis. Senator, I think that with the next panel you 
will discover that there is probably already in the planning 
process a schedule for weapons elimination, and they would be 
the better witnesses. Some weapon types, the B-53 for example, 
have been taken out of the stockpile. That is a 10 megaton 
weapon that certainly can be scheduled for elimination, and it 
would have important symbolic value. I believe the W-62 has now 
been released as well. That can be scheduled for elimination.
    What I have tried to say is that we should start to get 
about this process and lay out an explicit schedule. It is 
going to take a long time. Campaigns to eliminate warheads take 
considerable planning time. Quite obviously, it has to be done 
safely and carefully, and it also competes for occupying the 
lines with the life extension program and refurbishment of 
weapons. That is an ongoing part of the Stockpile Stewardship 
Program, so I want to emphasize it is a complicated piece of 
business, but it certainly is capable of being planned for and 
laid out in considerable detail in an advanced schedule that 
can give this committee and others confidence it will get the 
job done.
    Senator Bingaman. Dr. Carter, do you have any comment on 
that?
    Dr. Carter. I think your list is comprehensive and right 
on. If I could add one item to it, Senator, I would like to 
request that the administration show us a road map or begin the 
process of discussion about what the next step is after this 
treaty. As I indicated, and I think just about everybody that I 
talked to agrees with me, this is the end of the road for the 
Washington-Moscow style of arms control. One cannot conceive of 
another treaty because one doesn't conceive of Washington and 
Moscow together being the core of the nuclear problem going 
forward.
    As I said, even if we are just talking about Washington and 
Moscow, we are working in a tiny corner of the arsenals, 
deployed strategic weapons, and we have not addressed all the 
rest. The big problem in the future is less nuclear weapons in 
the possession of governments than nuclear weapons in the 
possession of nongovernments. These are big things to think 
about. To me, I am uncomfortable with the idea of marching 
through the 21st century with just this treaty, which is so 
clearly the end of the road.
    Senator Bingaman. Let me ask each of you if you have any 
additional thoughts as to how we move ahead with this problem 
of getting an inventory of tactical nuclear weapons in Russia. 
Is this something that we just continue to request the Russians 
do, or are there things, concrete actions that we can take that 
will facilitate or incentivize this and bring this about one 
way or another? It seems to me ever since I have been hearing 
about this set of issues and working with others here to deal 
with it, the problem of not knowing the extent of the tactical 
nuclear weapons arsenal in Russia has been one of the central 
concerns. I do not see them as making progress in resolving it. 
Do you have a plan on how we can get it resolved?
    Dr. Carter. I do not know if ``plan'' is the right word--
perhaps concept. In 1994, when the Russian defense minister 
came here and met with President Clinton in the Roosevelt Room, 
we were pressing him on this very matter of a confidential 
exchange of stockpile information, and the point he made then, 
which I think essentially continues to animate the Russian 
military, is that in this period of conventional weakness they 
rely more on tactical nuclear weapons. They do not want to see 
tactical nuclear weapons, therefore, swept up in the maw of 
arms control and limited in this way. That is at least one 
important reason why they are reluctant to do this.
    I think that President Putin might be induced to engage in 
some transparency regarding tactical nuclear weapons if one 
changed the stage from U.S.-Russia arms control. Let us 
initially talk about our tactical nuclear weapons not with some 
idea of mutual reduction in mind, but instead in the context of 
this coalition against catastrophic terrorism that I referred 
to earlier. We might say to Putin, ``look, we, the United 
States and you, have an important interest in getting everybody 
else to explain what they have and protect what they have.''
    We do not think the Indians and Pakistanis ought to have 
nuclear weapons, but let us set that aside and say, ``if you 
have it, protect it,'' and we will ask for transparency around 
the world. In that context, Russia is really getting something 
for divulging information about its own arsenal. It doesn't 
need us to divulge what we have, and therefore it has no 
incentive for data exchange in this bilateral context. It gets 
back to my previous point about enlarging the scene here. We 
are not going to get anything done in the axis between 
Washington and Moscow anymore. The world's affairs do not run 
in that axis anymore. They used to, and they do not now.
    Mr. Curtis. If I could just add briefly, I am not sure I 
share Dr. Carter's judgment that this is the end of the U.S.-
Russian negotiated agreement regime. The tactical weapons 
certainly could be the subject of a bilateral agreement between 
the two. Secretary Powell very clearly laid out before the 
Senate Foreign Relations Committee that there may be agreements 
that would substitute for the Treaty of Moscow earlier than its 
end point of 2012, or extensions thereafter. So there is 
certainly within the contemplation of this agreement between 
the two sides, the suggestion that there may be further 
refinement of the U.S. security--Russian security relationship 
through treaty means.
    Second, as to your question on tactical nuclear weapons, I 
think the process of establishing this consultative group for 
strategic security, which involves the defense ministers of 
both countries in periodic meeting, is an important procedural 
mechanism for getting at this issue. Secretary Rumsfeld has 
said that tactical nuclear weapons are going to be foremost on 
that agenda.
    I think Congress should not reinforce in any formal way 
with this treaty a new U.S.-Russian security relationship, but 
certainly reinforce that as a priority and a test, as I said in 
my earlier remarks. If it lives up to its promise in the joint 
statement, then the U.S. and Russia ought to be able to provide 
for an accountability of tactical weapons as it has escaped 
them in the past, so this will be an important test of that 
relationship.
    Obviously, there are things that might be engaged in this 
that would involve a broader security relationship, but I don't 
think it would be particularly useful to Secretary Powell and 
Secretary Rumsfeld for me to suggest exactly how they should do 
it.
    Senator Bingaman. Thank you both very much.
    Senator Reed. Senator Lieberman.
    Senator Lieberman. Thank you. Dr. Carter and Mr. Curtis, it 
is great to see you both. The questions that I came with this 
morning run along the same lines as my colleagues. So maybe I 
will begin by recounting a conversation I had with somebody 
here recently on the Hill and get your reaction to it in broad 
terms. This person said to me that the more he learned about 
SORT, the more it seemed to him like an empty vessel. I think 
that this feeling has grown here, although everybody believes 
the treaty will be ratified overwhelmingly, if not unanimously. 
Perhaps it has been implicit in the questions that have been 
asked in your statements, but is this an empty vessel?
    Mr. Curtis. I think it is a step, but this step alone would 
not provide meaningfully for our security. This step must be 
followed by other steps, which I have tried to lay out in my 
testimony. I think, at least in Secretary Powell's testimony, 
there is the suggestion that it is very much on his agenda that 
there will be follow-on steps to this treaty. I think it is an 
important step. It has symbolic value at the very least, which 
in the world of U.S.-Russian relationships has always been, and 
is maybe now, especially important. This treaty is clearly 
important on the Russian side, and is important for us if it 
propels us to redefine our relationship with Russia, so that it 
becomes a genuine partnership. It is not yet a partnership, but 
it must become a genuine partnership to address these security 
concerns that are concerns of both nations and are indeed 
concerns for global security. If that happens, then this treaty 
will have a real historical value because of what it was a 
catalyst to do.
    Senator Lieberman. Dr. Carter.
    Dr. Carter. I would agree with that. It is not an empty 
vessel. I think it is an important step, and we all need to be 
thinking and helping the administration figure out what the 
next step is and where that next step might go. I also agree 
with Mr. Curtis' comments about the symbolic value in Russia 
and the meaningful partnership. I believe that in this context 
the kind of coalition concept that I have been talking about in 
regards to a U.S.-Russian partnership can become real.
    We have talked a lot about partnership in the last decade. 
I had a million meetings and attended summits and so forth in 
which partnership was declared again and again. The question is 
are we really partners, besides dismantling the Cold War, which 
is an important task. This is a step in that direction.
    Where else can we be partners with Russia? I think we can 
also be partners in facing this problem of nuclear weapons that 
are not ours or theirs, but somebody else's, because we share a 
common interest in doing so. We have wrestled with these 
problems of nuclear dangers for decades and have some thoughts 
that others might be induced to share because we have the 
technical knowledge about how to safeguard and destroy them. So 
here's a topic where the United States and Russia might 
actually have a substantive partnership and we might actually 
benefit from working with Russia. If we could turn our arms 
control dialogue with Russia from one about each other to one 
about everybody, that opens up a whole new front of 
constructive activity that would give real substance to 
partnership.
    Senator Lieberman. We still have to deal with one another, 
and there is an oddity to that. It seems unconnected to the 
present and the future, which is to say that the dominant 
relationship in the world is no longer the Soviet- or Russian-
American relationship. The greatest security fears going 
forward are more global than bilateral, and yet the fact is 
that as a carryover from the Cold War, both Russia and the 
United States still possess a disproportionate, overwhelming 
percentage of strategic nuclear weapons.
    So this is a holdover from the last century. You have to 
deal with that, as well as reaching forward. In saying this was 
the last treaty, I am sure you are not denying that reality.
    Dr. Carter. No. I want to make clear that it is not my wish 
that it be the last. It is my prediction, as I look out and see 
how people stack up the priorities. I don't think having 
another U.S.-Russian arms control agreement focused on just us 
is going to make the cut. I would be happy to support such an 
agreement if it could be negotiated. You are absolutely right.
    As we march forward and deal with the problems of the 21st 
century, we are not going to be able to do that successfully 
unless we contend with this huge overhang. It involves nuclear, 
chemical, biological, and ballistic missiles. There is a big 
effort there, and that is what the Nunn-Lugar program is about.
    Senator Lieberman. One of the several very hopeful articles 
in the treaty, and one that is interesting to me, is article 3. 
Article 3 states that for purposes of implementing this treaty, 
the parties shall hold meetings of a Bilateral Implementation 
Commission at least twice a year. Do you have any thoughts 
about how the Senate might play an active role in giving some 
substance and authority to that commission, perhaps as a 
bilateral jump-off point to the global security concerns that 
you have both been talking about, or attempting to focus on the 
next phase of Russian-American nuclear threat reduction?
    Mr. Curtis. Senator, there are two devices under the 
treaty. One is the Bilateral Implementation Commission, and the 
other is the consultative group for strategic security, which I 
mentioned, that is composed of four minister level officials.
    Obviously, the consultative group has the rank for policy. 
I think the administration needs to address this, but I took 
the bilateral commission to be more of a working group or 
technical body.
    Senator Lieberman. At a lower level?
    Mr. Curtis. Yes, at a lower level. If the Senate wishes to 
address the U.S.-Russian relationship, that should be charged 
with the consultative group for strategic security.
    Dr. Carter. I would agree with that. I would hope that the 
Senate would so charge the consultative group. This is too 
important a topic to drop, and the implementation of the 
details of this agreement, while important, is not the whole 
story.
    Mr. Curtis. If I might add one thing, I think it is very 
regrettable that the press and the political world have not 
well noted what was accomplished in the G-8. The commitment to 
unified action by the G-8, where Russia in the document is 
identified as a full partner with the acknowledgment of the 
work that is beginning in Russia on a six-point program, is a 
very significant joining of interests of the G-8 members. The 
recognition that that must be extended to the global community, 
and of gaining that pledge of the $10 billion match of U.S. 
funds to serve that partnership, is also a significant 
accomplishment of this administration and should be well 
credited. What we need to do is to build on that successful 
effort, and encourage U.S.-Russian participation in that 
context to expand it to the full dimension of a global 
coalition of the kind that Senators Nunn and Lugar and Dr. 
Carter have been discussing.
    Senator Lieberman. I agree. Perhaps in the Senate's 
consideration of SORT we can give more visibility and 
encouragement to what came out of the G-8. Thank you very much 
to both of you. Mr. Chairman.
    Senator Reed. Thank you very much for your excellent 
testimony, Mr. Curtis and Dr. Carter. We will carefully 
consider what you said and make some improvements in the 
situation. Let me thank you both and release you, and ask if 
the second panel could now come forward. [Pause.]
    Let me now welcome the second panel, which consists of 
Admiral Ellis, the Commander in Chief of United States 
Strategic Command, and Dr. Everet Beckner, the Deputy 
Admisistrator for Defense Programs NNSA. I expect nothing less 
than insightful testimony today. Let me at this time turn to 
Senator Warner for any opening comments.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you. I wish to welcome our witnesses. 
I know them both, and I have known Admiral Ellis for many 
years. I have vivid memories of times we shared together during 
some pretty stressful chapters of the Balkan conflict when he 
served as our NATO Commander, South with great distinction in a 
great period of American history. I welcome you this morning 
and once again thank you for your continued service in uniform 
to our nation.
    The hearing our committee held last week with Secretary 
Rumsfeld and Chairman Myers confirmed my belief, and I think 
all these reasonable perspectives, that this is an excellent 
treaty. The Moscow Treaty represents a significant step forward 
for the security of the world.
    It is a very simple, straightforward treaty. I have had 
some moderate experience in this area. I will state for the 
record that I was with President Nixon in 1972 when we went to 
Moscow to execute the Anti-Ballistic Missile (ABM) Treaty and 
other arms control agreements. That is a long time ago. I 
witnessed through these many years that I have been privileged 
to serve in the Senate and prior thereto in the Department of 
Defense in arduous negotiations that had to be undertaken with 
the Soviet Union, subsequently Russia. But this time, two heads 
in government got together and bridged old differences and 
achieved this treaty, and I commend both our President and 
President Putin.
    In essence, this treaty reduces U.S. and Russian strategic 
arsenals by two-thirds over the next decade. There are no 
complicated accounting rules or detailed verification regimes. 
The treaty recognizes the new relationship between the United 
States and Russia, and allows both parties the flexibility to 
decide how and when the required reductions are to be made. 
Could the treaty have dealt with other issues? Of course. But 
they had a mission and they kept their eye on that goal.
    The Moscow Treaty establishes a firm foundation for our 
future relations with Russia, a foundation that we will build 
in years ahead. I still find implicit in this treaty the famous 
Ronald Reagan doctrine, ``trust but verify.'' In my judgment, 
there are sufficient verification procedures to protect both 
parties to the treaty. I note that all who participated in our 
committee's hearing last Thursday, Senators and witnesses 
alike, acknowledged that the United States must continue its 
efforts.
    The Moscow Treaty is a strategic nuclear arms treaty, and 
no one can reasonably expect diplomatic achievement to address 
all these difficult issues. This treaty is one step in the 
process of improving our security and relationships with 
Russia. This treaty is not only built on a new relationship 
with Russia, but it reinforces that relationship and provides a 
sound basis on which to perceive further steps. We are here 
today to explore and work out the detail and the merits of the 
Moscow Treaty.
    Our witnesses are uniquely qualified to comment on the 
military implications of the treaty and the military 
requirements that drove the treaty's structure and the reasons 
for the flexibility provided in the terms of the treaty. Thank 
you.
    Senator Reed. Admiral Ellis.

STATEMENT OF ADM. JAMES O. ELLIS, JR., USN, COMMANDER IN CHIEF, 
                UNITED STATES STRATEGIC COMMAND

    Admiral Ellis. Thank you, Mr. Chairman. It is an honor to 
be back with you, Senator Warner, and other distinguished 
members of the committee. As the Senator so generously noted, 
this is my third appearance before you on issues related to 
national strategic nuclear issues in the last 8 months. It is a 
pleasure to be back before you today to offer my views on the 
Strategic Offensive Reductions Treaty.
    As we all recall, on May 24, President Bush declared on 
reaching this agreement that it was a historic and hopeful day 
for Russia, America, and the world. I certainly share the 
President's optimism and his hopes for the future. I certainly 
support fully the President's goal of drawing down our 
operationally deployed strategic nuclear warheads to the lowest 
level consistent with national security needs.
    In a real sense, this is a unique treaty, but it is the 
right treaty at the right time. It codifies, as we all 
understand, results of a process begun over a year ago in the 
form of the Nuclear Posture Review, a process in which United 
States Strategic Command was fully involved and whose inputs 
were fully considered. As we all recall, the Nuclear Posture 
Review proposed a dramatic two-thirds reduction in the levels 
of operationally deployed strategic nuclear warheads, and also, 
I think, more effectively addressed the broader issue of 
deterrent requirements in the new construct in the new 
international security environment and the challenges that our 
Nation faces.
    This treaty allows me, as the commander of the Nation's 
strategic forces, the latitude to structure our strategic 
forces to better support the national security pillars of 
assuring our allies, dissuading those who might wish us ill, 
deterring potential adversaries, and, if necessary, defending 
the Nation. I am here to convey to you that in my judgment this 
treaty provides me the ability to prudently meet those national 
security needs and provide a range of deterrent options to the 
Secretary and President for their consideration, should the 
need arise.
    Most importantly, it gives me the flexibility to deal with 
the uncertainty that is an inherent part or consideration as we 
look to the future. It gives me flexibility with regard to the 
specific details of that drawdown, the composition of our 
Nation's nuclear stockpile as we drawdown in size, the ability 
to hedge against the possibility of technological surprise as 
our stockpile ages in the future, the ability to deal with the 
potential for a changing international security environment, 
should it arise, and it also allows me the flexibility to take 
the dual-use platforms, these strategic platforms that have 
such important tactical applications, and transform them in 
support of the Nation's security needs in a broader way. That 
includes the conversion of SSBNs to SSGNs.
    It includes the retaining of a bomber force that also 
provides a very capable conventional capability that is so much 
a part of our ongoing efforts in the global war on terrorism, 
and will likely be a part of any future security challenges 
that the Nation faces. Finally, it allows me to take missiles 
and convert those to space launch applications should the need 
arise.
    I wish to thank the committee for the opportunity to appear 
side-by-side with Dr. Beckner. As he notes in his statement, 
and I in mine, our organizations are partners in the 
challenging and promising journey ahead, and the NNSA and its 
success is the key to our own success from a deterrent 
perspective.
    I express my continuing appreciation for the support this 
committee has provided to the men and women of the United 
States Strategic Command and its antecedent organizations who 
have provided stewardship over the Nation's nuclear 
capabilities.
    I understand there is only one military commander who 
directly oversees our Nation's strategic forces. I am humbled 
that the task has been assigned to me, and I am honored to be 
able to convey to you today my full support for the Moscow 
Treaty and recommend its ratification as proposed. I thank you 
for your consideration and look forward to your questions.
    [The prepared statement of Admiral Ellis follows:]
             Prepared Statement by Adm. James O. Ellis, USN
    Mr. Chairman, Senator Warner, and distinguished members of the 
committee:
    It is an honor to appear before you once again representing the 
outstanding men and women of United States Strategic Command and our 
Nation's strategic forces. You have asked me to share with you my 
professional military assessment of the Strategic Offensive Reductions 
Treaty, also known as the Moscow Treaty. Earlier in the year, I 
appeared before this committee to discuss the Nuclear Posture Review, 
and I now welcome the opportunity to address this treaty which codifies 
the President's decision to significantly reduce operationally deployed 
strategic nuclear warheads. This historic treaty represents the most 
recent milestone in a journey toward a new and more positive 
relationship with Russia within a dramatically changed strategic 
environment.
    I am pleased to convey to you today my strong support for the 
Moscow Treaty. The global security environment has evolved in new and 
unexpected ways over the last 10 years. I believe that properly shaping 
the strategic environment as we draw down our deployed stockpile over 
the next ten years, and beyond, will require both constructive 
engagement and increased adaptive flexibility in appropriately 
structuring our strategic forces. This treaty is a step towards meeting 
those national security needs. While recent events have highlighted new 
dangers, on the positive side of the ledger our historical Cold War 
enemy, the Soviet Union, has disappeared. Its place has been taken by a 
renewed Russia, with the stated goal of transforming into a peaceful, 
democratic, free-market nation. Today, as a Nation, we have more in 
common with Russia than we have lingering differences, and for the 
first time in my lifetime we face similar shared global challenges and 
not each other. The Moscow Treaty acknowledges this new relationship 
and the increasing trust and flexibility each nation seeks as we 
address the changing security requirements of the 21st century.
                          military sufficiency
    The Moscow Treaty will allow the United States to sustain a 
credible deterrent with the lowest possible level of operationally 
deployed strategic nuclear warheads consistent with our national 
security requirements and obligations to our allies. This lower level, 
1,700-2,200 operationally deployed strategic nuclear warheads, is 
roughly one-third the level specified in the START Treaty. Our country 
faces an array of security challenges that differ dramatically from our 
Cold War past. The Moscow Treaty will permit me, as the commander of 
our strategic forces, to prudently plan and anticipate a broad range of 
possible scenarios. As we look to the future, our planning necessarily 
includes adaptively positioning and posturing our strategic forces to 
meet the unique deterrent and security challenges posed by rogue 
states, non-state actors, and unknown adversaries yet to come. The 
Nuclear Posture Review and the Moscow Treaty allow warhead reductions 
reflective of our emerging relationship with Russia while enabling the 
Department of Defense to plan and prepare for a broader range of 
strategic options to present to the Secretary of Defense and the 
President.
    If unforeseen circumstances arise, either through a decline in the 
safety and reliability of our aging stockpile or the emergence of 
unexpected new threats, this treaty allows the United States to react 
appropriately in response to our changing security needs. In short, 
under the Moscow Treaty we can militarily meet our deterrence needs, be 
prepared for a range of technological or security uncertainties, while 
continuing to encourage a relationship of trust, cooperation, and 
friendship with Russia that can lead to ever larger diplomatic, 
economic, and security benefits for us all.
                              flexibility
    From a military perspective, a primary benefit of this innovative 
arms control agreement is its flexibility, which is achieved in several 
new ways. The Moscow Treaty allows each side to determine an 
appropriate pace for reducing operationally deployed strategic nuclear 
warheads enroute to significantly lower codified levels. As we 
implement the Nuclear Posture Review (NPR) and develop a broader range 
of advanced conventional forces, new defenses, and renewed 
infrastructure, we must be able to carefully draw down the right number 
and mix of operationally deployed strategic nuclear warheads based on 
actual and anticipated need. This approach acknowledges the 
uncertainties associated with sustaining an aging stockpile, and 
permits the best sequencing of life extension and dismantlement 
programs according to military necessity and the capabilities of the 
supporting Department of Energy infrastructure.
    Under the Moscow Treaty the United States has the option of storing 
those warheads not operationally deployed. As a result of decisions 
made over a decade ago, the United States is the only nuclear power in 
the world today that does not possess a nuclear warhead production 
capability. From a military perspective, it is essential that we retain 
the capability to respond to emerging threats or weapon safety and 
reliability issues. Under these circumstances, the storing of an 
appropriate number of non-deployed nuclear warheads provides an 
important weapon reliability and contingency response capability that 
will allow us to meet national security needs over the life of the 
treaty.
    While we will continue to follow START I counting rules, one 
important aspect of this treaty is that the actual deployed warheads 
are counted rather than assigning notional numbers to each potential 
delivery platform. This construct allows the United States to retain, 
reduce, or restructure critical dual-use weapons delivery platforms--
those that also can employ conventional weapons--so as to meet a 
broader range of military requirements. Specifically, the provisions of 
the Moscow Treaty will enable the United States to pursue 
transformational concepts such as modifying Trident submarines for 
conventional missions. The agreement will also permit us to properly 
size and configure the bomber force, which continues to prove its value 
in the skies over Afghanistan.
                              verification
    A dramatic reflection of the emerging strategic relationship with 
Russia is the absence of unique verification provisions in the Moscow 
Treaty. The comprehensive verification regime of the START Treaty will 
remain in force until at least December 2009, providing a solid 
foundation for continued confidence-building and improved transparency. 
But, in a real sense, the Moscow Treaty formalizes a weapon drawdown 
that reflects the declared interest and intent of both parties.
    Rather than unnecessarily focus on inspection and compliance, we 
have an opportunity to forge a relationship, which may encourage even 
further cooperation, transparency, and trust. At United States 
Strategic Command, we are beginning important steps toward this goal in 
order to complement the efforts of the Consultative Group for Strategic 
Security created under the Joint Declaration on May 24, and the Moscow 
Treaty's Bilateral Implementation Commission. As a new initiative, I 
have recently added a senior State Department political advisor to my 
staff, who will bring valuable experience and expertise to the Command 
as we continue to work with our Russian counterparts. As part of the 
Defense Department's engagement program, we have also reinvigorated the 
Command's military-to-military security cooperation program and 
submitted detailed 1, 5, and 10-year goals to incrementally broaden the 
exchange of information, develop new relationships, and help preserve 
strategic stability. When the United States Strategic Command and the 
United States Space Command unite on October 1, 2002, the new unified 
command will have the opportunity to expand this program to even wider 
participation across the spectrum of global military missions.
    This emerging and positive relationship will also permit the United 
States and Russia to address issues and challenges that are important, 
but appropriately not addressed in this treaty. Tactical nuclear 
weapons remain a concern and will be addressed in future consultations 
and engagements. The Secretary of State and Secretary of Defense have 
each indicated to the Senate they intend to use the upcoming 
discussions with their counterparts to continue the dialogue on this 
issue. In regards to the dismantlement of unneeded warheads, the 
different approaches taken by both parties in pursuit of this shared 
goal are appropriately reflective of their individual circumstances and 
capabilities. Having chosen a decade ago to forego weapon production, 
the United States' dismantlement effort is paced by long term stockpile 
reliability and potential national security needs. Russia 
simultaneously sustains an active production and disassembly capability 
and has a broader range of weapon and nuclear material security 
concerns. The continued support provided by the Nunn-Lugar CTR program, 
as part of a larger international effort, remains essential to the 
success of improved Russian counter-proliferation efforts.
                               conclusion
    The Moscow Treaty is a positive milestone early in our strategic 
journey toward a new partnership with Russia, and formalized the 
decisions made by the nation's civilian leadership. As the Secretary of 
Defense highlighted recently before the Senate Foreign Relations 
Committee, this treaty provides all of the benefits attributed to arms 
control agreements--dialogue, consultations, lower force levels, 
predictability, stability, and transparency--without the need for 
extensive and adversarial negotiations and debates over compliance and 
enforcement issues. Under the Moscow Treaty, our nation can accomplish 
its essential military force re-structuring, meet its anticipated 
critical national security needs, and retain the ability to react to 
the inevitable unexpected challenges yet to come. I fully support this 
treaty.
    As always, I must also express my appreciation for your continued 
support of the men and women of United States Strategic Command and the 
unique and essential contributions they continue to make to our 
Nation's security.
    Thank you, and I welcome your questions.

    Senator Reed. Thank you, Admiral Ellis.
    Dr. Beckner.

 STATEMENT OF DR. EVERET H. BECKNER, DEPUTY ADMINISTRATOR FOR 
   DEFENSE PROGRAMS, NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Dr. Beckner. Senator Reed and members of the committee, it 
is a pleasure to be here this morning to review the Moscow 
Treaty and its implication for the National Nuclear Security 
Administration (NNSA) and its vital work to support a safe, 
secure, and reliable nuclear weapons stockpile.
    Before proceeding, I ask that my entire written statement 
be included in the hearing record.
    Senator Reed. Without objection.
    Dr. Beckner. I'd also like to take this opportunity to 
thank the committee and the Senate for its strong support for 
the President's 2003 request. The Senate bill will allow NNSA 
to pursue its important national security mission in non-
proliferation, stockpile stewardship, and naval reactors.
    The NNSA fully supports the terms of the proposed Moscow 
Strategic Offensive Reductions Treaty. It enhances national 
security and international stability by making dramatic 
reductions in the number of deployed nuclear warheads.
    The treaty requires that both the U.S. and the Russian 
Federation reduce strategic nuclear warheads to the level 
between 1,700 and 2,000 warheads each by 2012. This is nearly a 
two-thirds cut in the deployed U.S. strategic arsenal. This 
reduction is consistent with conclusions reached by the 
administration in the recent Nuclear Posture Review. The treaty 
also provides the United States with the flexibility to 
maintain a ``responsive force'' for use as a hedge against 
unexpected changes to the international security environment or 
technical issues arising in the smaller, deployed nuclear 
weapons stockpile.
    Key to ensuring the long-term safety, security, and 
reliability of the nuclear weapons stockpile is NNSA's 
Stockpile Stewardship Program and more specifically for 
purposes of this hearing, its life extension work on various 
weapons including at this time the W-87, the W-76, the W-80, 
and the B-61. Life extension activities on the W-87 involve 
structural upgrades. Work on the W-76 involves a comprehensive 
overhaul of the warhead. We will also be requalifying the 
weapon primary. For the W-80, we will be replacing the 
trajectory sensing signal and neutron generators. For the B-61, 
we will be refurbishing it. These developments were revalidated 
by the Nuclear Posture Review.
    While the total number of warheads to be refurbished in the 
future stockpile may be less than currently planned, 
maintaining the life extension schedule is vital to fulfilling 
NNSA commitments to the Department of Defense, restoring lost 
production capabilities, and recruiting and retaining technical 
expertise needed for the long-term.
    Once completed, it will ensure that these weapons will 
remain safe, secure, and reliable in the U.S. nuclear deterrent 
for an additional 30 years.
    It is not unreasonable to think that as both countries 
progress to lower numbers of operationally deployed strategic 
warheads, the President may opt to retire and subsequently 
dismantle warheads. Once that decision is made, the NNSA will 
begin the detailed planning process needed to ensure that 
Pantex and the Y-12 plants in particular can safely and 
securely dismantle weapons. Planning for a dismantlement 
campaign typically takes several years since we must safely and 
securely handle the thousands of parts that will be generated 
by the process. The industrial process at the plants have to be 
defined, the hazards analyzed, and NNSA safety authorization 
basis must be approved. Transportation, storage, and 
disposition must be arranged, both for the weapons prior to 
dismantlement, and for the waste streams resulting from the 
dismantled activities.
    The dismantlement begins with the arrival of the weapons at 
the Pantex plant. Upon arrival, the weapon undergoes receipt 
inspection. The dismantlement is complete when the weapon 
primary High Explosive (HE) is separated from the special 
nuclear material. The HE is disposed of at the Pantex plant by 
burning consistent with environmental regulations.
    The special nuclear material is handled through the 
Material Disposition Program. Some special nuclear material 
components may be retained for possible reuse in the future, 
and subassemblies containing highly enriched uranium are 
returned to the Y-12 plant. The pace of this disassembly work 
at Pantex is slow because we have completed dismantlement of 
the majority of the retired warheads. Ongoing dismantlement 
work includes the W-79 and Army artillery shell that has been 
under dismantlement for several years. In addition, the W-56 
disassembly is under way and will continue through fiscal year 
2005. The disassembly of the B-53 and some excess B-61 
nonstrategic bombs will begin soon. The NPR reaffirmed that the 
W-62 will be retired by 2009.
    In conclusion, NNSA recommends that the Senate exercise its 
advice and consent and ratify the proposed treaty on strategic 
offensive reductions. The Moscow Treaty stands as an example of 
the emerging relationship between the United States and the 
Russian Federation, a relationship based on trust and 
cooperation, rather than Cold War confrontation.
    I will be happy to answer your questions.
    [The prepared statement of Dr. Beckner follows:]
              Prepared Statement by Dr. Everet H. Beckner
    Mr. Chairman and members of the committee, it is a pleasure to be 
here this morning to review the Moscow Treaty on Strategic Offensive 
Reductions and its implications for the National Nuclear Security 
Administration (NNSA) and its vital work to support a safe, secure, and 
reliable nuclear weapons stockpile. The NNSA fully supports the terms 
of the Moscow Treaty because it enhances the U.S. national security and 
international stability by making dramatic reductions in the number of 
deployed strategic nuclear warheads. The treaty requires both the U.S. 
and the Russian Federation to reduce their strategic nuclear warheads 
to a level between 1,700 and 2,200 by December 31, 2012. This 
represents nearly a two-thirds cut in the deployed U.S. strategic 
arsenal. This reduction is consistent with the conclusions reached by 
the administration in the recent Nuclear Posture Review (NPR). The 
treaty provides the United States with the flexibility to maintain an 
important hedge against unforeseen changes in the international 
environment or technical issues in the smaller, enduring nuclear weapon 
stockpile. The NNSA strongly endorses Senate advice and consent to 
ratification of the treaty as submitted.
                            policy overview
    NNSA's Stockpile Stewardship Program is working today to ensure 
that the Nation's nuclear deterrent is safe, secure, and reliable. NNSA 
was an active participant in the Department of Defense's Nuclear 
Posture Review. Several conclusions of the NPR are of particular 
relevance to the NNSA.
    First, nuclear weapons, for the foreseeable future, remain a key 
element of U.S. national security strategy. The NPR reaffirms that 
NNSA's science-based Stockpile Stewardship Program is necessary to 
ensure the safety and reliability of the smaller, less diverse nuclear 
stockpile in the absence of nuclear testing. This includes surveillance 
of our aging weapons, weapons refurbishment, chemistry and metallurgy 
of materials aging, detailed understanding of weapons physics, and 
development of additional diagnostic, and predictive tools for long-
term stewardship. It also includes refurbishments and Life Extension 
Programs for the current stockpile, as required and coordinated with 
the DOD. Several NNSA initiatives endorsed by the NPR include enhanced 
test readiness and revitalization of advanced concepts work.
    Second, more than any previous review, the NPR's concept of a New 
Triad emphasizes the importance of a robust, responsive research and 
development and industrial base. This calls for a modern nuclear 
weapons complex, including planning for a Modern Pit Facility, and new 
tritium production to provide the Nation with the means to respond to 
new, unexpected, or emerging threats to U.S. national security in a 
timely manner.
    NNSA sees this as recognition of the importance of its mission, 
facilities, and personnel. It is an enormous responsibility to maintain 
the enduring stockpile and to dismantle warheads determined to be 
excess to national security requirements. The NNSA and the DOD have 
developed a credible, realistic plan to meet the President's direction 
for a safe, secure, and reliable stockpile, all while reducing the 
numbers of strategic warheads consistent with the NPR and the Moscow 
Treaty.
                     life extension programs (lep)
    A key element of ensuring a safe and reliable stockpile for the 
next 30 years is the Life Extension Program for selected elements of 
the nuclear stockpile. The NNSA has validated requirements from the 
President through the joint NNSA/DOD Nuclear Weapons Council to extend 
the service life of the W-87, W-76, and W-80 warheads and the B-61 
strategic bomb. These requirements were revalidated by the Nuclear 
Posture Review. The life extension work will involve the entire weapons 
complex. The Kansas City Plant will manufacture the non-nuclear 
components; Y-12 National Security Complex will refurbish the 
secondaries; Savannah River Tritium Facility will supply the gas 
transfer systems; Sandia National Laboratory will produce the neutron 
generators and certify all non nuclear components; Pantex Plant will 
serve as the central point for all assembly and disassembly operations 
in support of the refurbishment work; and Los Alamos and Lawrence 
Livermore will continue to certify nuclear warhead design performance.
    The W-87 refurbishment is well underway, with over 60 percent of 
the planned quantity complete and delivered to the Air Force. The 
program achieved First Production Unit (FPU) in the second quarter of 
fiscal year 1999. The ongoing work at Pantex enhances the structural 
rigidity of the warhead. The warhead will be mated to the Minuteman III 
missile following deactivation of the Peacekeeper missile. Life 
Extension for the W-76 involves a comprehensive overhaul of the 
warhead, including replacement of the arming, firing, and fuzing set. 
We will also be requalifying the weapon primary. For the W-80, we will 
be replacing the trajectory sensing signal and neutron generators, the 
tritium bottles, and incorporating surety upgrades. For the B-61, we 
will be refurbishing the secondary.
    The Moscow Treaty does not alter our schedule to begin key LEPs 
later this decade, although it will likely affect the total number of 
warheads to be refurbished. Indeed, maintaining the First Production 
Unit schedule is vital to fulfill NNSA commitments to the Department of 
Defense, to fix known areas of concern; to drive the nuclear weapons 
complex to restore lost manufacturing capabilities, and recruit and 
retain technical expertise needed for the long term.
                         pantex plant overview
    Located in the Texas panhandle, NNSA's Pantex Plant is the Nation's 
only facility for the assembly and disassembly of nuclear weapons. Over 
the years Pantex has disassembled over 50,000 warheads in a safe, 
secure, efficient, and environmentally sound manner. The plant covers 
some 16,000 acres and employs some 3,000 people. For fiscal year 2003, 
the administration has requested a total of $367 million for stockpile 
stewardship related activities at the facility. Having a dedicated 
facility like Pantex allows us to meet our responsibilities to maintain 
the enduring nuclear weapons stockpile and dismantle excess nuclear 
warheads while concentrating our efforts in areas such as nuclear 
explosive safety and assembly/disassembly operations, but it does 
present us with some capacity and infrastructure issues which we are 
aggressively working to resolve.
    The current approved work plan of Life Extensions, surveillance, 
and dismantlements at Pantex, requires facility upgrades. Seventeen 
bays where weapons with Insensitive High Explosives are worked on and 
five cells where weapons with the more sensitive Conventional High 
Explosives are worked on, will be refurbished in the next decade. Bays 
differ from cells in that bays are designed to vent an explosion to the 
atmosphere while protecting adjacent facilities from the blast, while 
cells are designed to filter the explosion products through a 
collapsing gravel bed, while also protecting the adjacent facilities 
from the blast. To accomplish the workload, the plant will go to a two 
shift operation, a third shift is impractical for most operations due 
to the need for facility maintenance.
    In addition to the facilities upgrades, over 100 new Production 
Technicians, the people who do hands-on weapons work, will augment the 
current force in the next decade. Employee training is an integral part 
of operations at Pantex. Each technician must receive over 1,000 hours 
of training in nuclear explosives safety and emergency procedures, 
weapons certification, and radiation safety before being certified to 
work on nuclear explosives.
    Pantex does not have any excess storage capacity now or in the 
foreseeable future, and has no plans to store any warheads on a long-
term basis for the Department of Defense. Of the 60 storage magazines 
at Pantex, 36 are filled with plutonium pits. Most of these pits are 
excess to national security needs and await further disposition. The 
remaining magazines are mostly filled with warheads in the process of 
evaluation, refurbishment, repair, or dismantlement. The DOD has 
determined that it can accommodate storage for the warheads no longer 
deployed, and does not need to rely on NNSA for long-term warhead 
storage.
                    retirement/dismantlement process
    Weapon retirements are directed in the annual Nuclear Weapons 
Stockpile Memorandum (NWSM), which is approved by the President on the 
recommendations of the Secretaries of Defense and Energy. The NWSM is 
prepared by the Nuclear Weapons Council, through which the Navy and Air 
Force express their nuclear stockpile needs and the DOE/NNSA and the 
Department of Defense reach agreement on the nuclear stockpile to 
recommend to the President. When a weapon system is retired it is 
removed from the stockpile. The decision to retire is separate from a 
decision to dismantle--retired weapons can be held indefinitely should 
that be consistent with national priorities. The normal practice, 
however, has been for the NWSM to authorize dismantlement after a 
weapon is retired.
    Planning for a dismantlement campaign typically takes several 
years. The industrial processes at the Pantex and Y-12 plants need to 
be defined, their hazards analyzed, and an NNSA-approved safety 
authorization basis must be prepared. Transportation, storage, and 
disposition must be arranged, both for the weapons prior to 
dismantlement and for the waste streams resulting from dismantlement 
activities.
    The dismantlement process begins with the arrival of the weapon at 
the Pantex Plant. Due to the limited storage space at the Pantex Plant 
weapons normally remain at a DOD facility in the custody of the Navy or 
Air Force until just before they are to be dismantled. Upon arrival at 
the Pantex Plant the weapon undergoes a receipt inspection and is 
placed into interim storage. Just prior to dismantlement it is verified 
to be in a safe configuration through radiography of its critical 
safety components. If the weapon has Insensitive High Explosive (IHE) 
the entire dismantlement will take place in the bay. If the weapon has 
Conventional High Explosive (CHE) the bay process will disassemble the 
weapon to a point defined by safety considerations, and then the 
partial assembly will be taken to a cell. Whether in a bay or cell, the 
dismantlement is complete when the weapons primary high explosive is 
separated from the Special Nuclear Material (SNM). The High Explosive 
is disposed of at the Pantex Plant by burning, and the SNM is disposed 
of through the Materials Disposition Program. Some SNM components may 
be retained for possible reuse in future warheads and some 
subassemblies containing Highly Enriched Uranium are returned to the Y-
12 plant for further disassembly.
    NNSA has been working with Department of Defense to develop plans 
for the size and composition of the future nuclear weapons stockpile. 
The Moscow Treaty does not limit the size of the stockpile. Moreover, 
within the overall warhead limits imposed by the Moscow Treaty, both 
the U.S and Russia can determine for themselves the composition and 
structure of their respective strategic forces.
    Any plan to increase dismantlements prior to at least fiscal year 
2014 would compete for resources with critical refurbishment or 
evaluation work. Since reductions to the 1,700-2,200 level are up to 
each country under the Moscow Treaty, so long as these levels are 
achieved by December 31, 2012, NNSA prefers to retain flexibility in 
setting any resulting disassembly schedules so as not to interfere with 
ongoing refurbishments and surveillance activities.
    Previous arms control treaties have not included a requirement to 
specifically dismantle warheads, nor does the Moscow Treaty. 
Disassembly of warheads is something the U.S. has always done on its 
own terms, based on national security requirements and as resources 
permit. While the pace of disassemblies at Pantex has slowed because we 
have completed dismantlement of the majority of retired warheads, we 
still have a busy dismantlement program. The W-79 (Artillery-Fired 
Atomic Projectile) disassembly will be complete next year. The W-56 
(Minuteman II) disassembly is underway and will continue at least 
through fiscal year 2005. Disassembly of the B-53 (strategic bomb) and 
some excess B-61 non-strategic bombs will begin soon. The NPR 
reaffirmed that the W62 (Minuteman III) will be retired by fiscal year 
2009.
    As we deploy fewer strategic nuclear warheads, some may be deemed 
excess to national security needs. It would then be NNSA's 
responsibility to disassemble the excess warheads as resources and 
workload priorities permit. Any decision to retire and dismantle 
warheads would be made by the President, in the context of an NNSA 
nuclear weapons complex that is fully engaged with warhead 
refurbishments and that cannot make new warheads if needed until at 
least the end of this decade.
                     nuclear weapon transportation
    NNSA is also responsible for the transportation of nuclear weapons 
and weapons-grade nuclear material within the U.S. Our transportation 
system of SafeGuards Transporters, manned by Federal agents who also 
guard the cargo, is fully engaged for the next decade. We are trying to 
minimize the impact to the weapons program, but with limited assets, 
and extensive agent training requirements, and plans by DOE's Office of 
Environmental Management to consolidate nuclear material from Rocky 
Flats, Hanford, and Idaho Falls, any additional moves will cause a 
disruption in existing transportation plans.
                        device assembly facility
    The Device Assembly Facility (DAF) is an NNSA facility at the 
Nevada Test Site, which was originally envisioned for underground 
nuclear test support, and for potential receipt and processing of 
damaged nuclear weapons or improvised nuclear devices. With the halt of 
underground nuclear testing in 1992, the primary mission for the Device 
Assembly Facility is subcritical experiment support. NNSA, in the 
coming weeks will issue a final Environmental Impact Statement relating 
to a proposal to relocate the TA-18 criticality experiment activity 
from the Los Alamos National Laboratory to the Device Assembly 
Facility. This capability must be located in a relatively remote and 
highly secure area. While warhead dismantlement at the Device Assembly 
Facility is a possibility, the time and cost of starting up nuclear 
explosive operations at what is essentially a new facility are not 
easily predicted and would be substantial.
                             tritium supply
    While the NPR will result in a smaller active stockpile of both 
operationally deployed and augmentation forces, the future U.S. nuclear 
stockpile--by warhead type, year, and readiness state--has not yet been 
determined. This will be done in detail as part of the Nuclear Weapons 
Council process and will enable NNSA to plan for the delivery of 
sufficient tritium to meet all military requirements. Because stockpile 
reductions will not be accomplished for several years, we do know that 
there will be no near-term reduction in the immediate demand for 
tritium. Thus, NNSA is continuing with its plan to begin tritium 
production in commercial reactors in Fall 2003, and to complete 
construction and begin operations of a new Tritium Extraction Facility 
(TEF) at the Savannah River Site so that tritium can be delivered to 
the stockpile in advance of need.
                               conclusion
    In conclusion, NNSA recommends Senate advice and consent to 
ratification of the proposed Treaty on Strategic Offensive Reductions. 
The Moscow Treaty stands as an example of the emerging relationship 
between the United States and the Russian Federation--a relationship 
based on trust and cooperation rather than Cold War competition.
    With Congress' continued strong support for the NNSA Stockpile 
Stewardship Program we expect to be able to provide the Nation with a 
safe, secure, and reliable nuclear weapons stockpile

    Senator Reed. Thank you very much, Dr. Beckner. Thank you 
both. Admiral Ellis, throughout the treaty, the key phrase 
``operationally deployed'' seems to be the most significant 
one. Could you explain what you think operationally deployed 
means with respect to the classical weapons, Intercontinental 
Ballistic Missiles (ICBMs), and submarine operated bombs?
    Admiral Ellis. Operationally deployed strategic nuclear 
warheads in the context of treaty are those warheads actually 
mounted on ICBMs located in their silos that are also mounted 
on the submarine launch ballistic missiles in the tubes on 
those platforms. In terms of bombers, are those weapons that 
are actually loaded on bombers or located in the weapons 
storage areas at bomber bases. It specifically does not include 
a set of spares that may be located in the bomber WSAs. That is 
the construct under which operationally deployed is defined.
    Senator Reed. Would it include warheads on submarine launch 
ballistic missiles not on submarines?
    Admiral Ellis. No, sir. In fact, that is one of the 
flexible elements of the treaty that includes those weapons 
that are mounted on missiles and missiles that are in 
submarines. As you are well aware, in overhead periods those 
missiles are removed from submarines, and the warheads 
themselves are demated.
    Senator Reed. Given that definition for operationally 
deployed, do you have any indication at this point when we will 
reach the threshold of 1,700 or the limit of 2,200 missiles or 
warheads.
    Admiral Ellis. Certainly, the provisions of the treaty are 
clear in that regard and the end state is well-defined. We will 
certainly meet that goal for the treaty. Specific timelines and 
drawdown, as I mentioned earlier, are an inherent part of the 
flexibility. We have the option, as do the Russians, to adjust 
that as our needs indicate. Clearly, we will be on a slope that 
is appropriately matched to Dr. Beckner's capacity and to our 
own strategic force planning over the 10-year period as we 
drawdown to meet that objective.
    Senator Reed. In regards to the Russians, what is their 
equivalent of operationally deployed? Is that a mutual term, 
which applies to both sides? Is there any equivalence?
    Admiral Ellis. The approach that the Russians take to the 
treaty, as you are aware, dictates that each nation is allowed 
to approach this in a legitimate way to meet their own national 
security needs. There was no definition other than that which I 
have just given to you of operationally deployed in the Russian 
context. But they are certainly free to follow the approach 
that we are taking-as long as we consistently match the warhead 
levels that have been defined in the treaty at the end state.
    Senator Reed. Dr. Beckner, your role is critical in terms 
of scheduling the reduction of these warheads over the next 12 
years or so. Are you participating in the development of the 
schedule? You have indicated in your testimony that the 
organizational decisions are issued by the President, but at 
NNSA are you actively participating, based upon logistics as 
much as policy, in what the schedule is?
    Dr. Beckner. We certainly are actively engaged through 
several mechanisms between the NNSA and the Department of 
Defense, particularly through the Nuclear Weapons Council, 
where we jointly obtain instructions as to the actions that we 
should take. We have been involved in looking at the various 
scenarios and at assessing our capabilities to work off the 
warheads as they are released by the DOD. We have a fairly 
aggressive plan in our 5-year planning documents that we have 
submitted to Congress previously, as to the need and our intent 
to enlarge the capacity, particularly at the Pantex Plant, to 
accommodate dismantlement, as well as to conduct the life 
extension programs, which are ongoing over this same period of 
time.
    Quite honestly, that has the potential for requiring a lot 
of management attention to maximize the capability of the 
plants over the next 10 years, because we do have a very 
aggressive program to do life extension work on several of 
those warheads. But to answer your question, yes indeed, we 
have been involved.
    Senator Reed. It seems to me, given the scope of what you 
have described, that this presents budgetary challenges as well 
as technical challenges as you go forward to accommodate the 
treaty. Did your budget submissions support that?
    Dr. Beckner. Our budget submissions were based upon first, 
the life extension programs, to be certain that we have those 
planned carefully over the 5-year period that we have 
submitted, and second, to analyze on that basis the amount of 
additional capacity we have for dismantlement so we know what 
we can handle without difficulty.
    If the instructions are developed later to pursue a more 
aggressive dismantlement program, we have thought through how 
we would do that. It would require some additional workforce, 
particularly at Pantex and some additional expansion of bays 
and cells, which is in the 2003 request. But we believe that 
unless the workload was for some reason pushed to a very high 
number during the middle part of this decade, we believe we can 
handle it in fairly smooth fashion. It would require a little 
bit of expansion. If people want a larger number of weapons 
worked off earlier in time than we are presently requiring, we 
would have some issues. We have some room now, between now and 
about 2005, but from 2005 to 2012 or so we have a large 
workload in the life extension program, so we will have to work 
that out.
    Senator Reed. Thank you, Dr. Beckner.
    Senator Warner.
    Senator Warner. Senator Reed, one of my colleagues has a 
scheduling conflict. I am going to remain throughout the 
hearing, so I now defer to the Senator from Alabama.
    Senator Sessions. Thank you, Senator Reed. Dr. Beckner, I 
am not sure we have appreciated the historic nature of this new 
treaty compared to the ABM Treaty. We had a number of people 
that expressed opposition to moving from the ABM Treaty to a 
new relationship. They felt that the ABM Treaty represented 
some sort of cornerstone of our relationship with Russia. I 
thought that was not true at the time, and spoke against that 
concept. Just looking at these treaties it is just so stunning, 
the difference in the nature of them.
    The ABM Treaty, first of all, was between the United States 
and the Union of Soviet Socialist Republics, and this one is 
with the Russian Federation. There is a whole world of 
difference. There it is dealing with the current, existing 
entity, not a dead Soviet totalitarian empire. I think it is 
important that any relationship we have with the people of 
Russia need to be based on who these people are today, not the 
way they were before. They have rejected the Soviet system, and 
wish to move forward to a new and brighter day. I think that is 
important for us to build this kind of relationship.
    I noticed the language is significant. It says in the new 
treaty, ``embarking on the path of new relations for a new 
century and committed to the goal of strengthening their 
relationships through cooperation and friendship, believing 
that new global challenges and threats require the building of 
a new foundation of strategic relations between the parties 
desiring to establish a genuine partnership based on principles 
of mutual security, cooperation, trust, openness, and 
predictability.'' Compare this to the preamble of the ABM 
Treaty that says in the first paragraph, which is proceeding 
from the premise that nuclear war would have devastating 
consequences for all mankind ``considering that effective 
measures to limit antiballistic missile systems would be a 
substantial factor in curbing the race in strategic arms and 
would lead to a decrease in the risk of outbreak of war 
involving nuclear weapons.''
    I would just ask you to comment. Doesn't this reflect a 
tremendous change in the way we are seeing our relationship 
with Russia?
    Dr. Beckner. It would certainly seem so to me. I do not see 
how you can draw any other conclusion.
    Senator Sessions. I just think you are moving in the right 
direction. This is a bold effort by the President that is 
establishing a new relationship with a people and a nation that 
we ought to be friends with, as opposed to the past when we 
were facing a totalitarian regime that oppressed its people and 
sought to oppress the entire world.
    Something that troubles me is the question of dismantling 
the weapons rather than destroying weapons. I am not troubled 
with that concept. I think it is correct, because of this fact, 
and let me ask you if I am correct. Is it true that the United 
States does not have production capability for nuclear weapon? 
That is, we do not have a production facility so if we needed 
more in the future, we do not have the capability of producing 
it?
    Dr. Beckner. I think you need to look at that question in 
detail because the only capability we do not have today for 
specific components is the plutonium component, generally 
referred to as the pit. That capacity was shut down at Rocky 
Flats, just outside Denver, more than 10 years ago. We are in 
the process of developing the capability to make a limited 
number of pits at Los Alamos for a specific weapon program. 
Beyond that, we have begun the process to contemplate and send 
forward to Congress for approval at a future date the 
construction and operation of the new pit manufacturing 
facility. But that is easily 10 years in the future. Today, we 
do not have a capability to make pits for new weapons if they 
were required.
    Senator Sessions. That is an essential component of it?
    Dr. Beckner. Absolutely.
    Senator Sessions. So for a decade or so we have a window 
where it is problematic?
    Dr. Beckner. That is correct. The only alternative you have 
at this time, and for a number of years in the future, is to 
find a way to reuse an existing pit or other full sections of 
weapons or stay with what you have.
    Senator Sessions. Isn't it true that most nations that have 
nuclear capabilities to date have a nuclear production 
capability?
    Dr. Beckner. I think that is true. We probably do not know 
everything about everything that is going on out there, but 
certainly for the more prominent members that is true.
    Senator Sessions. We are proceeding on the assumption that 
we will dismantle rather than destroy the weapons. Is that a 
decision that will be left within the discretion of the 
President, or is it controlled by the treaty?
    Dr. Beckner. It's my understanding that it would be at the 
discretion of the President. The treaty does not specify what 
we have to do with the parts after we take the weapons apart.
    Senator Sessions. My concern simply is this: I don't think 
we should leave ourselves in a circumstance where we have 
limited substantially our nuclear weapons and we have frozen 
ourself in that position. Therefore, we would in effect, be 
saying to any nation in the world, ``if you develop any nuclear 
weapons, you are the virtual equal of the U.S.'' I believe this 
is important. We shouldn't destroy our weapons and not have the 
world know that we could increase them if we were threatened.
    Senator Reed. Senator Inhofe.
    Senator Inhofe. Thank you, Senator Reed. I am going to be 
very quick. I have come down with one question. Someone has 
already asked it, so I will ask it a different way. We have had 
so many of these hearings, I have run out of questions.
    I find an analogous situation between this discussion today 
and our old ABM discussion that just did not make any sense to 
me. Maybe back in 1972, the ABM Treaty made sense to some 
people. There certainly could be a persuasive argument that may 
force necessity. But we are in a totally different situation 
right now, and I see the same thing with this treaty.
    Russia is now our ally. We do not have any kind of a 
defense against a ballistic missile right now and so our 
primary defense would be deterrent, and that is what we are 
talking about today. We are talking about taking down these 
things and we are doing this with one of our allies, and yet 
Iran, Iraq, North Korea, China, and other countries do pose a 
threat. This is fine if we waited until we had a national 
missile defense system in place, at least for limited time. 
Tell me where I am wrong?
    Admiral Ellis.
    Admiral Ellis. Senator, as I mentioned earlier in my 
opening statement, this treaty codifies an in-depth analytical 
effort in this regard for over a year. The analysis was part of 
the Nuclear Posture Review that assessed the levels that are 
the specified objective of the treaty, the 1,700 to 2,200 
operationally deployed weapons. All of those issues that are 
likely to confront the Nation in the foreseeable future, among 
which you highlighted several important ones, were considered 
in arriving at that number.
    The considered judgment of those was, even though we all 
know we are not capable of predicting with precision the future 
10 years hence, that this range of weapons for the foreseeable 
future and the flexibility inherent in this treaty, should that 
turn out to be a much different future, will be more than 
adequate to the Nation's national security needs. We can talk 
more in closed session about the specific concerns you have, 
but from a military perspective, I want to assure that all of 
those issues were preeminent as we looked at reshaping the 
Nation's strategic systems and the Nation's stockpile. We have 
the provisions in the Nuclear Posture Review for continually 
reassessing that as we proceed through the next decade to 
ensure the conditions that were a part of our original 
assessment still pertain as we move into this new control.
    Senator Inhofe. It goes closely to what Senator Sessions 
was asking also. This treaty, as I understand it, means we are 
not going to be in a bad position should we want to manufacture 
some of this equipment in another 10 years, when, in fact, 
Russia is keeping that capability. We are all in that?
    Admiral Ellis. Sir, that is exactly right, and that is the 
reason for the term operationally deployed and for the 
necessity for a stockpile that is larger than that number of 
operationally deployed strategic nuclear warheads. We have the 
option to deal with those uncertainties in the future to 
reconstitute that force or to adjust the slope of that drawdown 
as appropriate to the international security environment.
    Senator Inhofe. I am looking forward to working with both 
of you. Thank you, Senator Reed.
    Senator Reed. Senator Warner.
    Senator Warner. Admiral, I just think we ought to look at 
the background of this treaty. Russia is experiencing, and I do 
not say this in any negative or pejorative way, an economic 
decline of considerable proportions here. I think President 
Putin has been addressing this.
    That has just led to a shortage of funds across the board 
for the Russian Armed Forces. They fully acknowledge this in 
open forum, not in any classified material. Russia maintained 
the readiness and safety requirements, which they as the 
professional armed force desire in their own self-interests, as 
well as the necessity to protect their own people. So that was 
one of the driving forces, am I not correct here?
    Admiral Ellis. Yes, sir. We certainly understand, and you 
mentioned in your opening statement that there are many 
dimensions that have to be addressed in this new security 
environment. This treaty is one essential element of that, but 
there are other elements of our relationship with which you and 
your colleagues are so familiar: CTR efforts.
    Senator Warner. It is a composite of things, but the 
concern over the fact that we are not dismantling, means I 
think we ought to cover this somewhat. Russia, from its 
inception as far back as I have gone in this business, has 
followed one method of construction, namely that method which 
would enable them to quickly replenish the warheads with brand 
new ones, as opposed to our approach, namely to take the 
existing warheads and work on them from time to time. Russia 
currently is progressing on the construction of some new 
warheads, am I not correct, gentlemen?
    Admiral Ellis. Yes, sir. That is correct. We have taken a 
fundamentally different approach.
    Senator Warner. Our Nation is not, am I correct?
    Admiral Ellis. That is correct.
    Senator Warner. It seems understandable to me that we have 
a reserve of these warheads to take parts from time to time to 
maintain the readiness and safety of our own inventory. I don't 
think the public or the rest of the world should look upon the 
fact that we are not destroying these all immediately as means 
by which to cheat or evade the purpose of this treaty.
    There are more adequate monitoring methods in here if we 
were to reincorporate these into our arsenal. We have to have 
the warheads coming back in with the launch platforms. It is 
just impossible to do it under any type of concealment. It 
should add an element of insecurity to the treaty. Am I correct 
in those observations? Do any of you wish to question or 
amplify?
    Admiral Ellis. You are exactly right, Senator. It is a fact 
that one of the most significant considerations in shaping the 
size of the stockpile is the sustainability and the reliability 
issues that we have to deal with over the next decade or more, 
as we prepare ourselves for the possibility we may encounter a 
technical problem within our aging stockpile.
    Senator Warner. I thank the witnesses, Senator Reed.
    Senator Reed. Thank you very much, Senator Warner. The 
subcommittee stands in recess and will reconvene for the closed 
session.
    [Questions for the record with answers supplied follows:]
               Questions Submitted by Senator John Warner
                             dismantlement
    1. Senator Warner. Dr. Beckner, what is your top priority among 
warhead refurbishment, surveillance, and dismantlement? Is that 
priority related to the age of the stockpile?
    Dr. Beckner. The mission of the National Nuclear Security 
Administration (NNSA) is to ensure that the U.S. nuclear weapons 
stockpile is safe, secure, and reliable. Therefore, surveillance and 
refurbishment are higher priorities than dismantlement. Surveillance of 
weapons components through disassembly and inspection and the use of 
advanced diagnostic tools is needed to ensure that we understand the 
health of the stockpile as it ages. The refurbishments of the W87, W76, 
B61, and W80, key elements of the enduring stockpile, are needed to 
keep the stockpile viable over the long-term, especially in light of no 
new warhead production. The high priority of refurbishments and 
surveillance will become more important as the stockpile ages further 
and the number of warhead types in the stockpile and the number of 
operationally deployed strategic warheads is reduced; problems must be 
found and corrected quickly. Though the activities tend to be age-
related, they are not necessarily driven exclusively by the age of a 
particular weapon.
    Dismantlement is also important, but it is generally not time-
critical. Currently, we are meeting a commitment to dismantle warheads 
under a presidential nuclear initiative. When this work is complete, 
there are no other similar commitments or treaties that require the 
disassembly of warheads. The NNSA disassembles warheads that are excess 
to national security needs on a schedule coordinated with the 
Department of Defense, seeking minimal impact to support of the 
enduring stockpile. Dismantlement is used to maintain a level 
industrial workload.

    2. Senator Warner. Dr. Beckner, do you believe it would be prudent 
to suspend or reduce surveillance activities to increase the rate of 
warhead dismantlement?
    Dr. Beckner. No. I do not believe it would be prudent to suspend or 
reduce surveillance activities to increase the rate of warhead 
dismantlement. Warhead surveillance is absolutely essential to support 
the Nation's nuclear weapons stockpile and should not be suspended or 
reduced for the sake of dismantlements. Surveillance is needed to 
ensure that we know the health of the stockpile and can assure its 
reliability, safety, and security. Surveillance activities have 
uncovered a number of problems in the stockpile which have been 
corrected. Surveillance becomes more important as the stockpile ages 
further and the number of operationally deployed strategic warheads is 
reduced. Similarly, warhead refurbishment programs and other repairs to 
maintain the safety and reliability of the stockpile cannot be 
curtailed for warhead dismantlements.

    3. Senator Warner. Dr. Beckner, when is the life extension program 
for the W76 warhead scheduled? Do you believe, given the average age of 
the W76, that the scheduled life extension program for this warhead is 
both timely and prudent?
    Dr. Beckner. The life extension program for the W76 warhead is 
scheduled to deliver its first production unit in fiscal year 2007 with 
sufficient units produced to give the DOD an initial operational 
capability in fiscal year 2008. The refurbishment will focus on 
replacement of the high explosives, detonators, organic materials, 
replacement of cables, and addition of a new gas transfer system.
    Given the average age of the W76, the life extension program, as 
currently scoped and scheduled, is timed to optimize the design life 
while correcting identified aging concerns before they can result in a 
degradation to warhead quality and reliability. This schedule is also a 
result of a significant amount of effort to coordinate this program 
with other life extension programs and routine work within the NNSA 
complex. The refurbishment plan is also synchronized with work the U.S. 
Navy intends to perform on the Trident II missile.

    4. Senator Warner. Dr. Beckner, how much of the workload at Pantex 
will be absorbed by planned warhead life extension programs?
    Dr. Beckner. The current production complex is limited in the 
number of weapons that can be processed at the Pantex Plant, with the 
work split among units undergoing surveillance, refurbishment, or 
dismantlement. We plan to complete the disassembly of warheads already 
retired by no later than fiscal year 2007. Retirements of the W62 
Minuteman III warheads will begin in fiscal year 2006--decision 
reaffirmed by the NPR--but no further decisions were made on 
disassembly. Planned renovations of existing facilities at Pantex will 
expand capacity sufficient to meet the anticipated NPR workload of 
refurbishments, along with warhead surveillance. During the period 
fiscal year 2008 through fiscal year 2010--when three refurbishments 
(W80, W76, B61) are under way--there would be some reserve capacity 
available to fix unanticipated problems in the stockpile, respond to 
warhead production requirements, or insert dismantlement activity to 
maintain a level workload.

    5. Senator Warner. Dr. Beckner, how practical is the notion of 
expanding the capacity to dismantle warheads by using the Device 
Assembly Facility at the Nevada Test Site for this purpose?
    Dr. Beckner. Using the Device Assembly Facility (DAF) for 
dismantling warheads is not practical. The time and cost of starting up 
nuclear explosive disassembly operations at this facility would be 
substantial. DAF was originally envisioned for underground nuclear test 
support, and for potential receipt and processing of damaged nuclear 
weapons or improvised nuclear devices. With the cessation of 
underground nuclear explosive testing in 1992, the primary mission for 
the Device Assembly Facility was shifted to subcritical experiment 
support. NNSA has issued a final Environmental Impact Statement 
relating to a proposal to relocate the TA-18 criticality experiment 
activity from the Los Alamos National Laboratory to the Device Assembly 
Facility. If the NNSA decides to relocate TA-18, approximately half of 
the DAF will then be taken over by those activities. Furthermore, we 
must preserve some capability if it is necessary to resume nuclear 
testing sometime in the future to meet U.S. national security 
requirements.

                     safety requirements at pantex
    6. Senator Warner. Dr. Beckner, it is my understanding that the 
capacity at the Pantex facility to conduct warhead life extension 
programs, surveillance, and dismantlements has been reduced during the 
1990s. This is in large part due to new safety requirements and 
practices, including issues concerning lightning and the maximum number 
of warheads per room, which have slowed the weapon ``throughput'' rate 
at Pantex. Would you please provide a general overview of the new 
safety requirements and practices that have been adopted at Pantex.
    Dr. Beckner. The NNSA is committed to supporting the Nation's 
national security needs without compromising the safety of the worker, 
public, or the environment. This commitment requires NNSA to strike a 
reasonable balance between production requirements and increased safety 
expectations. Pantex is moving towards a more quantitative, documented 
safety analysis approach as required by 10 CFR 830 for both the nuclear 
facilities at Pantex as well as the nuclear explosive operations 
performed within. This transition is occurring while continuing plant 
operations.
    This formal, methodical approach of hazard analysis and control 
selection has resulted in a better understanding of the overall safety 
of the operation, and more and better controls. Some of these controls 
are administrative in nature (such as lightning standoff and 
limitations on the number of weapons within a facility). These measures 
are necessary in order to compensate for what the current analysis is 
telling us while allowing us to continue to operate. As the analysis is 
further refined and/or engineering solutions are achieved, we will be 
able to improve efficiency and capacity. It is important to emphasize 
that NNSA working with the DNFSB has met all deliveries to the DOD 
while improving safety at Pantex.

    7. Senator Warner. Dr. Beckner, in general terms, to what extent 
have the new safety requirements slowed down the nuclear weapon 
``throughput'' rate at Pantex?
    Dr. Beckner. It is difficult to determine the extent which weapon 
``throughput'' rate is affected due to new safety requirements, since 
it is dependent on several variables. One variable has been the 
increased safety expectations, requirements, and practices. The 10 CFR 
830 mandates a rigorous and defensible safety analysis of nuclear 
operations, the result of which has been the introduction of new 
controls at Pantex. Engineered safety controls are the most effective 
way to increase safety.
    Administrative controls are less effective than engineered controls 
at improving safety but are easier and less expensive to implement in 
the near-term. In order to continue operations while performing the 
required safety analyses, some administrative controls (such as those 
requiring facility standoff for lightning and fire concerns, ceasing 
movement of nuclear explosives during lightning warnings and 
limitations on the number of weapons that can be present in a facility 
due to weapon interaction concerns) have reduced the available facility 
``footprint'' or the available window of time for weapon processing. 
The Pantex Plant is working through this by continuing to refine the 
analyses and/or implementing engineered solutions (such as the enhanced 
transportation cart) to improve process efficiency and plant capacity. 
Ultimately, Pantex will have dramatically increased safety while 
achieving product deliverables to the DOD efficiently. 

    8. Senator Warner. Dr. Beckner, what criteria are used to help 
ensure our nuclear weapon process at Pantex is conducted in a safe 
manner?
    Dr. Beckner. Pantex is transforming its operations to ensure 
compliance with 10 CFR 830. As a part of that activity, NNSA has 
instituted the Seamless Safety for the 21st Century (SS-21) process at 
the Pantex Plant. This process dictates a formal, organized approach to 
planning, performing, assessing, and improving nuclear explosive 
operations at the Pantex Plant. The SS-21 process focuses on designing 
out hazards and includes integrating the weapon, facility, tooling, 
testers, equipment, procedures, and personnel to form a safe, 
efficient, and effective operating environment. This approach also 
ensures that a safety basis is developed (or improved) and implemented 
that defines the extent to which a nuclear explosives operation can be 
safely conducted.
    A set of design/performance criteria is integral to the SS-21 
process. These criteria must be evaluated for implementation by the 
project team assigned to implement SS-21 on a weapon program. These 
criteria set a high standard and are used by the project team in 
redesign of the procedures, equipment, facility, testers, and tooling 
that minimizes the adverse impacts to the environment, and the safety 
and health of the workers and the public.

    9. Senator Warner. Dr. Beckner, in light of the other nuclear 
warhead activities, do these safety requirements inhibit the ability to 
increase the rate of warhead dismantlements?
    Dr. Beckner. Safety is paramount in any nuclear warhead activity. 
It is true that procedural and equipment changes have slowed production 
of all activities, including dismantlements. Plans are underway to 
increase production capability without compromising advances in 
operations safety to meet planned surveillance and life extension. The 
complexity of the warhead itself, the ease with which it can be 
dismantled, the ability to ship units/components into and out of Pantex 
and available resources are some of those factors.

                          deterrent capability
    10. Senator Warner. Admiral Ellis, we have relatively few nuclear 
warhead types deployed on our Intercontinental Ballistic Missiles 
(ICBMs), Submarine-Launched Ballistic Missiles (SLBMs), and bombers. 
What would happen to the operational effectiveness of U.S. deterrent 
forces if a serious problem were to develop in any one of our deployed 
nuclear warheads or bombs?
    Admiral Ellis. I am very confident, should a problem develop in any 
one of our deployed warheads, that the flexibility designed into the 
Moscow Treaty will allow the Nation to maintain a highly effective 
nuclear deterrent.
    We are the only nuclear power that cannot produce nuclear weapons 
today, and as a result, we maintain a warhead reserve. This allows us 
to have stockpile replacements in case of potential technical problems 
or catastrophic failure in an entire class of warheads. Under the 
provisions of the Moscow Treaty, this flexibility is preserved and the 
United States will continue to retain a portion of our nondeployed 
warheads in a reserve status to ensure a credible nuclear deterrent.
                       multiple warhead missiles
    11. Senator Warner. Admiral Ellis, do you believe that a Russian 
Multiple Independently-Targetable Reentry Vehicle (MIRV) capability 
poses a significant military threat to the United States?
    Admiral Ellis. Although MIRVs represent a significant military 
capability, in the stable and nonadversarial relationship we now enjoy 
with Russia, MIRVd forces pose no significant increase in threat over 
that posed by non-MIRVd forces.
    Importantly, the threat any system poses to the United States is 
measured in terms of both capability and a nation's will to use it. As 
the friendship between the United States and Russia continues to grow, 
the exact composition of the Russian force structure will diminish even 
further in importance. Also, the provisions of the Moscow Treaty allow 
the United States sufficient flexibility in force size and structure to 
respond to any sudden, unexpected changes in the global security 
environment.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                          modern pit facility
    12. Senator Sessions. Dr. Beckner, during the hearing we discussed 
our Nation's lack of production capability to build new nuclear 
weapons. Specifically, we discussed that the United States does not 
have a current production capacity to manufacture more than a few 
primaries, also known as ``pits.'' This is a much different status 
compared to Russia, which has a current nuclear weapon production 
capacity. Please explain with some specificity our current plan for 
bringing a modern pit facility on line. In your response, please list 
and explain each major step the NNSA must take to maintain our current 
plan, and how long each step is expected to take.
    Dr. Beckner. The current NNSA plan for bringing a modern pit 
facility on line includes: (1) reestablishing the capability to 
manufacture plutonium pits at Los Alamos National Laboratory (LANL), 
(2) developing pit manufacturing technology, and (3) completing the 
NEPA process and the design and construction of a modern pit facility.
    NNSA remains on track to reestablish the capability to fabricate a 
certifiable W88 pit in fiscal year 2003 followed by completion of both 
a certified W88 pit and a limited W88 pit production capacity at LANL 
in fiscal year 2007. Significant accomplishments to date include 
manufacture of 15 development pits and completion of four subcritical 
physics tests required to confirm pit performance without nuclear 
testing. Based on these successes and continued congressional support, 
I expect the program to meet these important national security 
milestones.
    Simultaneously in fiscal year 2003, the NNSA plans to proceed with 
the NEPA process and a conceptual design of a Modern Pit Facility (MPF) 
in fiscal year 2003. Site selection for an MPF is scheduled for fiscal 
year 2004 and the conceptual design will be completed in fiscal year 
2006 with final design completion and the start of plant construction 
in fiscal year 2011. The present plan shows that the MPF will undergo 
start-up manufacturing activities in 2018 and reach full production 
capacity in 2020.

    13. Senator Sessions. Dr. Beckner, in general terms, please discuss 
the total cost estimate to bring a modern pit facility on line. If it 
is helpful, describe the cost in comparison to other NNSA projects with 
regards to size and scale.
    Dr. Beckner. Nuclear facilities are difficult and costly to 
construct because of safety and environmental considerations and the 
extensive regulatory oversight. MPF is likely to require some 200,000 
square feet and is expected to cost between $2-$4 billion. The other 
major NNSA construction project similar in size and scope is the 
National Ignition Facility at 280,000 square feet with a cost of $3.5 
billion. We expect to have a better understanding of cost projections 
for the MPF by 2006.

    14. Senator Session. Dr. Beckner, in what year, or range of years, 
do you plan to have an operating modern pit facility using NNSA's 
current baseline, including a reasonable expectation of technical, 
legal, budget, and other challenges which always face projects of this 
size and magnitude?
    Dr. Beckner. NNSA expects to begin physical construction of the MPF 
in fiscal year 2011. The MPF will be completed and will undergo start-
up manufacturing activities in 2018 and reach full production capacity 
in 2020. The 2020 date for an on line MPF includes time for technical,  
legal, budget, and other challenges as you have suggested. The facility 
will be capable of operating for up to 50 years.

    15. Senator Session. Dr. Beckner, please explain how a modern pit 
facility helps meet the vision of the new triad described in the 
Nuclear Posture Review (January 2002), which first described the goal 
and is now codified in the Strategic Offensive Reductions Treaty, to 
reduce our Nation's nuclear stockpile to between 1,700 and 2,200 
``operationally deployed strategic nuclear warheads.''
    Dr. Beckner. The nuclear posture review concluded that we need to 
build a new TRIAD. One element of that new TRIAD is the infrastructure 
necessary to support the nuclear deterrent. A modern pit facility is a 
key element of that infrastructure. A modern pit facility would allow 
the construction of significant numbers of pits with a new design if a 
need for them develops. The lack of an ability to produce new nuclear 
weapons increases our requirements to retain inactive weapons, or to 
furnish warheads for new weapon systems. Within foreseeable bounds for 
numbers of nuclear warheads, a modern pit facility will be required 
because we expect that all pits in the stockpile will eventually need 
to be replaced. Modern plutonium pit science can only provide an 
estimate for the lifetime of pits and accelerated aging techniques 
remain to be proven. Therefore, the NNSA must have an operational MPF 
no later than 2020 based on the current estimate of 45-60 years for pit 
lifetime and the projected numbers of warheads that we must maintain.

    [Whereupon, at 11:02 a.m., the committee adjourned to 
closed session.]

                                 <all>

</pre></body></html>
